<html>
<title> - CONTRACTING IN A COUNTERINSURGENCY: AN EXAMINATION OF THE BLACKWATER- PARAVANT CONTRACT AND THE NEED FOR OVERSIGHT</title>
<body><pre>[Senate Hearing 111-571]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-571

 CONTRACTING IN A COUNTERINSURGENCY: AN EXAMINATION OF THE BLACKWATER-
              PARAVANT CONTRACT AND THE NEED FOR OVERSIGHT

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

         Printed for the use of the Committee on Armed Services

                  U.S. GOVERNMENT PRINTING OFFICE
57-827 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)







                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
 Contracting in a Counterinsurgency: An Examination of the Blackwater-
              Paravant Contract and the Need for Oversight
                           february 24, 2010

                                                                   Page

Walker, John R., Former Program Manager, Paravant................    15
McCracken, Brian C. Former Vice President, Paravant; Current 
  Afghanistan Country Manager, Raytheon Technical Services 
  Company........................................................    15
Wakefield, COL Bradley V., USA (Ret.), Former Chief of Training 
  and Education, Combined Security Transition Command-Afghanistan    16
Ograyensek, Steven M., Contracting Officer, U.S. Army Program 
  Executive Office for Simulation, Training, and Instrumentation.    16
Roitz, Fred, Former Vice President for Contracts and Compliance, 
  Blackwater; Current Executive Vice President of Contracts and 
  Chief Sales Officer, Xe Services, LLC..........................    51
Blake, Dr. James T., Program Executive Officer and Head of 
  Contracting Activity, U.S. Army Program Executive Office for 
  Simulation, Training, and Instrumentation......................    59
Tab 1............................................................    98
Tab 2............................................................    99
Tab 3............................................................   103
Tab 4............................................................   105
Tab 5............................................................   108
Tab 6............................................................   110
Tab 7............................................................   111
Tab 8............................................................   115
Tab 9............................................................   121
Tab 10...........................................................   125
Tab 11...........................................................   129
Tab 12...........................................................   130
Tab 13...........................................................   133
Tab 14...........................................................   134
Tab 15...........................................................   136
Tab 16...........................................................   145
Tab 17...........................................................   151
Tab 18...........................................................   152
Tab 19...........................................................   154
Tab 20...........................................................   155
Tab 21...........................................................   158
Tab 22...........................................................   168
Tab 23...........................................................   170
Tab 24...........................................................   171
Tab 25...........................................................   172
Tab 26...........................................................   174
Tab 27...........................................................   175
Tab 28...........................................................   180
Tab 29...........................................................   181
Tab 30...........................................................   183
Tab 31...........................................................   185
Tab 32...........................................................   187

                                 (iii)

Tab 33...........................................................   188
Tab 34...........................................................   189
Tab 35...........................................................   196
Tab 36...........................................................   209
Tab 37...........................................................   212
Tab 38...........................................................   217

 
 CONTRACTING IN A COUNTERINSURGENCY: AN EXAMINATION OF THE BLACKWATER-
              PARAVANT CONTRACT AND THE NEED FOR OVERSIGHT

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Ben Nelson, 
McCaskill, Begich, Burris, McCain, LeMieux, and Burr.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Ilona R. Cohen, counsel; Howard H. 
Hoege III, counsel; and Peter K. Levine, general counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; John W. Heath, Jr., minority investigative 
counsel; and David M. Morriss, minority counsel.
    Staff assistants present: Kevin A. Cronin, Christine G. 
Lang, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Ann Premer, assistant to Senator 
Senator Ben Nelson; Gordon I. Peterson, assistant to Senator 
Webb; Tressa Steffen Guenov, assistant to Senator McCaskill; 
Lindsay Kavanaugh, assistant to Senator Begich; Roosevelt 
Barfield, assistant to Senator Burris; Jason Van Beek, 
assistant to Senator Thune; Brian Walsh, assistant to Senator 
LeMieux; and Kevin Kane, assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    A primary objective of our effort in Afghanistan is to 
strengthen Afghanistan's government and security forces so they 
can take the lead in securing their nation. The President has 
ordered the deployment of approximately 30,000 additional U.S. 
troops to help achieve our goals in Afghanistan. While most 
attention has understandably been focused on those 30,000 
troops and their mission, insufficient attention has been paid 
to the more than 100,000 contractor personnel who are operating 
in Afghanistan. From training Afghan National Security Forces 
(ANSF) to guarding our forward operating bases, contractor 
personnel perform mission-critical tasks.
    While we distinguish between American servicemembers and 
contractor personnel, Afghan civilians often do not. As John 
Nagl and Richard Fontaine of the Center for New American 
Security put it, ``Local populations draw little or no 
distinction between American troops and the contractors 
employed by them; an act committed by one can have the same 
effect on local or national opinion as an act carried out by 
the other.''
    In the fight against the Taliban, the perception of us by 
the Afghans is crucial. As General McChrystal said in August of 
last year, ``The Afghan people will decide who wins this fight, 
and we are in a struggle for their support.'' If we are going 
to win that struggle, we need to know that our contractor 
personnel are adequately screened, supervised, and held 
accountable because the Afghan people will hold us responsible 
for their actions.
    Most contractor personnel act responsibly and within the 
rules to help us execute the mission, often at great risk to 
their own safety. Today's hearing, however, will examine 
contract activities which fell far short of our requirements.
    In the fall of 2008, the company called Paravant entered 
into a subcontract with Raytheon to perform weapons training 
for the Afghan National Army (ANA). I emphasize the words 
weapons training. I am going to use the names Blackwater and 
Paravant interchangeably, as there is no meaningful distinction 
between the two. According to former Paravant Vice President 
Brian McCracken, who is with us here this morning, Paravant and 
Blackwater were ``one and the same.'' He said Paravant was 
created in 2008 to avoid the ``baggage'' associated with the 
Blackwater name.
    It has been widely reported that on May 5, 2009, two men 
working for Paravant in Afghanistan fired their weapons killing 
two Afghan civilians. The commanding general for the Combined 
Security Transition Command-Afghanistan (CSTC-A), then-Major 
General Richard Formica, said that it appeared that the 
contractor personnel involved in the May 5, 2009, shooting had 
``violated alcohol consumption policies, were not authorized to 
possess weapons, violated use of force rules, and violated 
movement control policies.''
    According to the Department of Justice (DOJ), the May 5, 
2009, shooting impacted ``the national security interests of 
the United States.''
    One media report said the shooting turned an entire 
neighborhood against U.S. presence and quoted a local elder 
saying, ``If they keep killing civilians, I'm sure some Afghans 
will decide to become insurgents.''
    While the May 5, 2009, incident is widely known, our 
investigation focused on what has not been adequately looked 
at, which is the environment that led up to that May 5, 2009, 
incident. That environment gave rise to a reckless shooting in 
December 2008 that seriously injured a Paravant trainer. Our 
investigation also uncovered significant evidence of 
Blackwater's disregard for rules governing the acquisition of 
weapons in Afghanistan and a failed personnel vetting process 
that resulted in weapons being placed in the hands of people 
who should not have been hired.
    This morning, we will also hear about failures in U.S. 
Government oversight that allowed these problems to fester.
    On December 9, 2008, 5 months before the May 5, 2009, 
shooting, a Paravant training team working at Camp Darulaman 
was conducting unauthorized activities with AK-47s when, 
according to Paravant Program Manager Johnnie Walker, who is 
with us here this morning, the team leader, on that 
unauthorized activity, decided to get on the back of a moving 
vehicle with a loaded AK-47 and ``ride it like a stagecoach.'' 
The vehicle hit a bump and the team leader's AK-47 discharged, 
shooting another Paravant trainer in the head and seriously 
injuring the man, who then was flown to Germany a few days 
later partially paralyzed.
    The reckless disregard for weapon safety is particularly 
striking, given that Paravant was hired to teach the ANA how to 
safely use their weapons. At the time of the shooting, the men 
were not engaged in anything relating to the training for which 
they were hired. There were no Afghans present on that training 
exercise.
    The next day, a report of the shooting, apparently written 
by Mr. Walker, was emailed to Steven Ograyensek, also present, 
who is a contracting officer at the Program Executive Office, 
Simulation, Training and Instrumentation (PEO STRI). That 
office is responsible for several contracts relating to the 
training of the ANSF.
    The report identified the ``immediate and contributing 
causes'' of the shooting as ``operating equipment improperly or 
without authority'' and ``improper technique.'' The report also 
indicated that the ``policies, procedures, and plans were not 
followed,'' and that ``safety training was not followed.'' But 
it also indicated--and here I am quoting from this report--that 
members of the training team at Camp Dubs, which was the 
nickname for that camp, were ``conducting routine training.'' 
In the comment section, the report said that ``the accident 
occurred during a normal training evolution and normal range 
safety procedures were in place at the time of the accident.''
    This incident is indicative of an environment at Paravant, 
with Dubs, and that was shown by a senior Blackwater executive, 
Jim Sierawski, who later acknowledged that in that environment 
there was ``no regard for policies, rules, or adherence to 
regulations in country.'' That is at Tab 2 of the exhibits 
before us.
    The report written by Mr. McCracken is at Tab 4.
    The report sent to PEO STRI, and the contracting office 
there, failed to set off alarm bells or even produce a 
response. In fact, PEO STRI only became aware of this report in 
an October 2009 meeting with our staff. If the incident had 
been properly investigated, it would have become obvious that 
Paravant personnel were using weapons in a reckless manner, 
with inadequate supervision, and carrying weapons they were not 
authorized to carry. If corrective actions had been taken in 
December 2008, the May 2009 shooting possibly could have been 
avoided.
    Now, where did Blackwater get the AK-47s? One of our most 
important missions in Afghanistan is training and equipping the 
ANSF so that they can take the lead in securing their own 
country. The Afghan National Police (ANP) store weapons and 
ammunition at a depot called Bunker 22, a U.S.-operated 
facility near Kabul. A November 19, 2009, letter from Central 
Command (CENTCOM) Commander David Petraeus, states, ``There is 
no current or past policy, order, directive, or instruction 
that allows U.S. military contractors or subcontractors in 
Afghanistan to use weapons stored at 22 Bunkers'' [Tab 8]. 
Again, those weapons were for the Afghan National Police (ANP).
    Despite having no authority to do so, Blackwater acquired 
AK-47s from Bunker 22 to arm its personnel and distributed them 
to personnel among various Blackwater operations in Afghanistan 
[Tab 15]. In total, Blackwater acquired several hundred weapons 
from Bunker 22, including more than 500 AK-47s.
    J.D. Stratton, Blackwater's armorer, and Ricky Chambers, 
Blackwater's Afghanistan country manager, were both involved in 
the acquisition of weapons from Bunker 22. Both men have 
refused to appear voluntarily this morning and have said to us 
through their attorneys that they would invoke the Fifth 
Amendment right against self-incrimination if we subpoenaed 
them [Tabs 34 and 35].
    Now, who are the personnel that Blackwater entrusted the 
weapons to? The company's proposal said that Blackwater had a 
``robust recruiting and rigorous screening process'' to 
identify and vet the most qualified candidates and carefully 
check them for ``character, integrity, reliability, and 
professionalism.''
    [The information referred to follows:]

     [Information retained in committee files.]

    Chairman Levin. The records of Christopher Drotleff and 
Justin Cannon, who are the two Paravant personnel who have been 
indicted for the May 5, 2009, shooting, show that the company 
fell far short of that or any reasonable standard for vetting 
personnel.
    A recent court order said that Mr. Drotleff's military 
record included assault, insubordinate conduct, absence without 
leave, larceny, and wrongful appropriation. Mr. Drotleff's 
criminal record, after his discharge from the military, 
included convictions for assault, battery, resisting arrest, 
and drunk driving. In ordering that Mr. Drotleff be detained 
pending his trial, that court referenced his ``extensive 
criminal history'' and ``propensity for violence.''
    A January 15, 2010, Associated Press report noted that 
Justin Cannon, who is the other man indicted for the May 2009 
shooting, was discharged from the U.S. military after he was 
absent without leave and tested positive for cocaine.
    Back in September 2006, Blackwater fired another Paravant 
trainer, Sebastian Kucharski, and placed him on its own ``do 
not use'' list for an alcohol-fueled incident that ended in a 
fight with another contractor [Tab 18]. Blackwater's own 
computer records state do not hire this man, do not use Mr. 
Kucharski. Despite that, Mr. Kucharski was hired by Paravant in 
2008 and worked for the company in Afghanistan until he was 
fired again in May 2009 for another altercation, this time with 
a military person.
    After the May 2009 shooting incident, Raytheon issued a 
show-cause notice to Paravant for, among other things, failing 
to exercise ``sufficient command, control, and oversight of its 
personnel'' [Tab 20]. Paravant's response stated that ``if 
[Raytheon] believes that Paravant has an obligation to 
supervise all subcontractor personnel at all times . . . 
Paravant will need to submit a request for equitable adjustment 
for the additional personnel, security, and other costs of 
providing such 24/7 supervision throughout Afghanistan'' [Tab 
21]. Now, I believe the company's attempt to absolve itself of 
responsibility for supervising its own personnel is flat-out 
unacceptable.
    Government oversight was also lacking. Army contracting 
personnel at PEO STRI said that one way they monitored the 
contractor's performance was from their office in Florida, and 
that was by checking in with Colonel Wakefield at CSTC-A in 
Kabul. However, Colonel Wakefield, who is also with us this 
morning, told the committee that Task Force (TF) Phoenix, a 
subordinate command, had oversight responsibility. Even after 
the May 2009 incident, a review of policies at Camp Alamo 
uncovered continuing ``uncertainty'' as to what ``authorities 
and responsibilities are over contractors,'' including 
``disciplinary issues'' [Tab 25].
    In a November 2009 memo on the mission in Afghanistan, 
General McChrystal said that ``the people are the prize'' and 
that ``every interaction with the population, whether positive 
or negative, influences the Afghans' perception.''
    The contractors hired to support our mission must 
understand the need to act accordingly and be held accountable. 
The support of individuals and communities all over Afghanistan 
are at stake. Irresponsible acts by contractor personnel can 
hurt the mission and put our troops in harm's way.
    The examination that we have conducted of Blackwater-
Paravant operations revealed multiple irresponsible acts and 
troubling gaps in government oversight. There are over 100,000 
Department of Defense (DOD) contractor personnel operating in 
Afghanistan. If we fail to make sure that contractors like 
Blackwater play by the rules and live up to their commitments, 
we will be doing a disservice to our troops by making their 
already difficult and dangerous job even more so.
    As to Blackwater-Paravant: Their personnel engaged in a 
reckless use of weapons. They violated the command's rules 
regarding obtaining and carrying weapons. Their vetting of 
personnel was not only sloppy, but also dangerous.
    The Army had inadequate oversight of the Paravant contract 
and their operations. Had the contracting officer of the Army 
stepped in back in December 2008, when the first reckless 
shooting occurred, the May 2009 incident, which DOJ prosecutors 
have said negatively impacted our national security interests, 
could possibly have been avoided.
    Now, in addition to these remarks, I'm going to be putting 
the lengthy statement, which I have written, in the record, 
along with supporting materials.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    President Obama has said that a primary objective of our effort in 
Afghanistan is to strengthen Afghanistan's government and security 
forces so that they can take the lead in securing their nation. The 
President has ordered the deployment of approximately 30,000 additional 
U.S. troops to help achieve our goals in Afghanistan. While most 
attention has understandably been focused on those 30,000 troops, 
attention also needs to be paid to the thousands of contractor 
personnel who are operating in Afghanistan. From training Afghan 
National Security Forces (ANSF) to guarding our forward operating 
bases, contractor personnel are performing mission-critical tasks. 
According to U.S. Central Command (CENTCOM), in the last quarter of 
fiscal year 2009 alone, the number of Department of Defense (DOD) 
contractor personnel increased by 30,000, bringing the total number in 
Afghanistan to more than 100,000.
    While we distinguish between American servicemembers and contractor 
personnel, Afghan civilians often do not. As John Nagl and Richard 
Fontaine of the Center for New American Security put it: ``local 
populations draw little or no distinction between American troops and 
the contractors employed by them; an act committed by one can have the 
same effect on local or national opinion as an act carried out by the 
other.''
    In the fight against the Taliban, the perception of Afghans is 
crucial. As General Stanley McChrystal said in August of last year 
``the Afghan people will decide who wins this fight, and we . . . are 
in a struggle for their support.'' If we are going to win that 
struggle, we need to know that our contractor personnel are adequately 
screened, supervised, and held accountable--because in the end the 
Afghan people will hold us responsible for their actions.
    Most contractor personnel act responsibly and within the rules to 
help us execute the mission, often at great risk to their own safety. 
Today's hearing, however, will explore contract activities which fell 
far short of our requirements.
    In the fall of 2008, a company called Paravant entered into a 
subcontract with Raytheon Technical Services Company to perform weapons 
training for the Afghan National Army (ANA). The statement of work 
governing Paravant's performance was developed by the Combined Security 
Transition Command-Afghanistan (CSTC-A) and contracted out by the U.S. 
Army's Program Executive Office Simulation Training and Instrumentation 
(PEO STRI) to Raytheon.
    Paravant was created in 2008 by Erik Prince Investments (the 
company which is now named Xe). I'm going to use the names 
``Blackwater'' and ``Paravant'' interchangeably. I do that for clarity 
as there is no meaningful distinction between the two. At the time 
Paravant was awarded its one and only subcontract, it had no employees. 
In Afghanistan, the company operated under Blackwater's license and 
shared a bank account with Blackwater. Former Paravant Vice President 
Brian McCracken reported to Blackwater personnel. According to Mr. 
McCracken, Raytheon paid Blackwater for services rendered by Paravant 
and Paravant relied on Blackwater for its billing. Paravant and 
Blackwater were ``one and the same,'' according to Mr. McCracken, and 
he added, Paravant was only created to avoid the ``baggage'' associated 
with the Blackwater name.
    It has been widely reported that on May 5, 2009, Justin Cannon and 
Christopher Drotleff, two men working for Paravant in Afghanistan, 
fired their weapons, killing two Afghan civilians and injuring a third. 
In reviewing the Army's investigation of the incident, then-CSTC-A 
Commanding General Richard Formica said that it appeared that the 
contractor personnel involved had ``violated alcohol consumption 
policies, were not authorized to possess weapons, violated use of force 
rules, and violated movement control policies'' [Tab 1]. According to 
the Department of Justice prosecutors, the May 5, 2009 shooting 
``caused diplomatic difficulties for U.S. State Department 
representatives in Afghanistan'' and impacted ``the national security 
interests of the United States.'' According to one media report, the 
shooting ``turned an entire neighborhood against the U.S. presence'' 
and quoted a local elder as saying, ``if they keep killing civilians, 
I'm sure some Afghans will decide to become insurgents.''
    On January 6, 2010, Mr. Cannon and Mr. Drotleff were indicted on 
firearm and homicide charges for their involvement in the May 5th 
shooting. Responsibility for litigating those charges is with the 
Department of Justice. Today's hearing will focus on Blackwater-
Paravant's conduct and operations in Afghanistan. As acknowledged by a 
Blackwater senior executive after the May 5th shooting, an environment 
was created at Paravant which had ``no regard for policies, rules, or 
adherence to regulations in country'' [Tab 2].
    Our investigation dug into the events that occurred before the May 
5th shooting. We will hear how that environment developed and also 
discuss failures in U.S. Government oversight that allowed it to 
persist. In particular, we will hear about Blackwater personnel's 
reckless use of weapons, its disregard for the rules governing the 
acquisition of weapons in Afghanistan, and failures in the company's 
vetting process that resulted in those weapons being placed in the 
hands of people who never should have possessed them.
                   shooting incident in december 2008
    Five months before the May 5, 2009 shooting, there was another 
tragic shooting involving Paravant personnel. The shooting took place 
on December 9, 2008 at the range at Camp Darulaman during totally 
unauthorized activities.
    Paravant Program Manager Johnnie Walker told committee staff that 
on December 9, 2008, the Paravant training team working at Camp 
Darulaman decided that it was ``going to learn how to shoot'' from a 
vehicle when, in what Walker described as a ``wild idea,'' the training 
team leader decided to get on the back of a moving car with a loaded 
AK-47 and ``ride it like a stagecoach.'' The vehicle subsequently hit a 
bump, causing the team leader's AK-47 to discharge, seriously injuring 
one of the Paravant trainers on his team. The reckless disregard for 
weapons safety is particularly striking given that he and his team were 
hired for the specific purpose of teaching the ANA how to safely use 
their weapons.
    In a memo to then-Paravant's Vice President Brian McCracken on 
December 10, 2008, Walker said ``everyone on the team showed poor 
judgment'' by allowing the unauthorized activities and ``should share 
some fault in the incident'' [Tab 3]. While Russell Cannon, the team 
leader who shot his colleague was fired, the entire team was not fired 
despite their ``fault in the incident.''
    On the same day the shooting occurred, Paravant reported the 
incident to Raytheon, which in turn filed a report in a system used by 
the Army's PEO STRI to monitor the Raytheon contract. The report 
identified the ``immediate and contributing causes'' of the shooting 
as: ``Operating equipment improperly or without authority'' and 
``improper technique.'' The report also indicated that ``policies/
procedures/plans were not followed,'' and that ``safety training [was] 
not followed'' [Tab 4]. The same report was emailed to Steven 
Ograyensek, the contracting officer with responsibility for the 
Raytheon contract at PEO STRI, on December 10, 2008. Paravant Program 
Manager Johnnie Walker also spoke to Colonel Wakefield, the Chief of 
Training and Education for the ANSF at CSTC-A, about the incident.
    The report showing the reckless use of an unauthorized weapon 
failed to set off alarm bells at PEO STRI. In fact, PEO STRI apparently 
only learned that they had been sent Paravant's report of the shooting 
when asked about it by committee staff in an October 19, 2009 meeting. 
Colonel Wakefield has also said that Paravant personnel should not have 
been carrying weapons, but there is no indication that CSTC-A 
investigated the shooting.
    If the shooting had been investigated, PEO STRI would have seen 
that Paravant personnel were using weapons improperly and unsafely, 
with inadequate supervision, and that they were carrying weapons that 
they weren't even supposed to have. If corrective actions had been 
taken in December, the May 2009 shooting could have been avoided.
                     disregard for rules on weapons
    Blackwater operated in Afghanistan without sufficient oversight or 
supervision and with almost no consideration of the rules it was 
legally obligated to follow. The means by which Blackwater acquired 
weapons for its contractor personnel in Afghanistan showed just how 
little regard company personnel had for those rules.
    Just 2 days before the December 9, 2008 shooting in which a 
Paravant team leader recklessly discharged his AK-47, Blackwater had 
distributed AK-47s to Paravant personnel who weren't authorized to have 
them.
    Blackwater initially furnished Paravant personnel with pistols 
diverted from Blackwater's contract with Lockheed Martin. According to 
emails, the weapons belonged ``to a title 10 contract not associated 
with Paravant'' [Tab 5]. Documents suggest that Blackwater senior 
managers knew that diverting the weapons from that other subcontract to 
the Raytheon subcontract was unauthorized. On top of that, Blackwater 
personnel distributed the pistols knowing they did not even have 
authority to carry those weapons. A November 6, 2008 email from 
Paravant Vice President Brian McCracken states: ``I got sidearms for 
everyone. . . We have not yet received formal permission from the Army 
to carry weapons yet but I will take my chances'' [Tab 6].
    In November 2008, Ricky Chambers, Blackwater's Afghanistan country 
manager told Paravant that they had to return the weapons to 
Blackwater's weapons storage facility apparently because the company 
was ``expecting an investigation into Blackwater accountability in Iraq 
resulting from a lawsuit, and fear[ed] it will impact Blackwater 
accountability procedures in Afghanistan'' [Tab 5.] Emails show that 
Blackwater personnel considered seeking CSTC-A Colonel Bradley 
Wakefield's approval to use weapons from the separate Lockheed 
subcontract (Blackwater) on the Raytheon subcontract (Blackwater-
Paravant). At the time, Colonel Wakefield was the Chief of Training and 
Education for the ANSF at CSTC-A and had written the statement of work 
for the Paravant contract. Ricky Chambers advised against consulting 
Colonel Wakefield about transferring the weapons noting that he ``may 
ask too many questions'' [Tab 7].
    Instead, Chambers suggested getting the weapons from a place called 
``Bunker 22.'' He again advised, however, against consulting Colonel 
Wakefield. Mr. Chambers declined the committee's request to be 
interviewed or to appear at this hearing. He formally notified the 
committee through his attorney that he would invoke his Fifth Amendment 
right against self-incrimination.
    According to documents and interviews with staff, Jeff Gibson, 
Blackwater's Vice President for International Training and Operations, 
Brian McCracken, the Vice President in charge of Paravant, and Johnnie 
Walker, Paravant's Program Manager in Afghanistan, all reportedly 
agreed to try to obtain weapons from Bunker 22.
                               bunker 22
    One of our most important missions in Afghanistan is training and 
equipping the ANSF so they can take the lead in securing their own 
country. Bunker 22, or 22 Bunkers as it's referred to by the military, 
is a U.S. operated facility in Pol-e Charki near Kabul, Afghanistan 
that stores weapons and ammunition for use by the Afghan National 
Police (ANP). According to a November 19, 2009, letter from CENTCOM 
Commander General David Petraeus, ``there is no current or past written 
policy, order, directive, or instruction that allows U.S. military 
contractors or subcontractors in Afghanistan to use weapons stored at 
22 Bunkers'' [Tab 8]. The weapons at 22 Bunkers are there for the 
mission-critical purpose of arming the ANP, not to arm contractors. 
Diverting weapons intended for the ANP exacerbates a problem of lack of 
resources and equipment for the ANP, which General McChrystal has 
spoken of recently.
    According to a lawyer for Blackwater, however, the company acquired 
weapons from Bunker 22 for use by each of its training, security, and 
aviation companies in Afghanistan. In fact, by November 2008 when Ricky 
Chambers suggested the company acquire weapons for Paravant from Bunker 
22, Blackwater personnel had previously acquired several hundred 
weapons, including more than 500 AK-47s, from the facility on multiple 
occasions.
    In a January 14, 2010 letter to the committee, a lawyer for 
Blackwater described two of those occasions [Tab 9]. According to the 
company, J.D. Stratton, then-Blackwater's armorer in Afghanistan, 
``encountered his friend and former Navy colleague Greg Sailer at 
Bunker 22'' and subsequently asked Chief Warrant Officer Sailer, a U.S. 
mentor at the facility, to provide Blackwater with weapons from Bunker 
22. Blackwater informed the committee that Mr. Stratton sought the 
weapons from Chief Warrant Officer Sailer after Mr. Chambers, the 
Company's Country Manager, asked him to do so. According to the letter 
from Blackwater, Chambers made the request because he intended on 
arming contractor personnel with those weapons.
    Mr. Stratton declined to be interviewed by committee staff, stating 
through his attorney that he would invoke his Fifth Amendment right 
against self-incrimination if subpoenaed. Mr. Stratton's lawyer also 
advised the committee that Stratton would invoke his Fifth Amendment 
right if subpoenaed to testify at today's hearing.
    According to Blackwater's January 14, 2010 letter to the committee, 
in December 2007, Stratton went to Bunker 22, where Chief Warrant 
Officer Sailer met him outside the facility with 6 crates containing a 
total of approximately 150 AK-47s. According to their letter, ``no 
paperwork or receipts were completed to document the transfer of 
weapons'' [Tab 9].
    In January 2008, according to the same Blackwater letter, Stratton 
and others retrieved another approximately 150 to 175 AK-47s from 
Bunker 22. The company said that, as with their December acquisition, 
no documentation was completed to take custody of the weapons.
    Chief Warrant Officer Sailer spoke with committee staff by video 
teleconference from Kabul on December 12, 2009, prior to the 
committee's receipt of Blackwater's letter. In his interview, Chief 
Warrant Officer Sailer acknowledged transferring weapons to Blackwater, 
although he did not recall specific instances. In his interview, Sailer 
said that he thought the weapons he provided were to be transferred to 
the ANP for their use--not for Blackwater personnel. According to 
Sailer, in his interview, neither Stratton nor any other Blackwater 
representative told him that Blackwater intended to use the Bunker 22 
weapons to arm its own personnel. He subsequently added, in response to 
written questions, that he did ``not recall ever having a conversation 
with anyone picking up weapons from 22 Bunkers regarding the intended 
use of the weapons'' [Tab 16]. Chief Warrant Officer Sailer said it 
would be inappropriate for Blackwater personnel to use weapons acquired 
from Bunker 22 for themselves. Committee staff sought to speak with 
Sailer again after receiving Blackwater's January 14, 2010 letter. 
Chief Warrant Officer Sailer is currently deployed to Afghanistan.
    DOD was unable to find any paperwork documenting either the 
December 2007 or January 2008 transfers of weapons from Bunker 22 to 
Blackwater. DOD did, however, provide hand receipts indicating that 211 
AK-47s were issued by Chief Warrant Officer Sailer to Blackwater's 
Counternarcotics Training Unit (CNTU), an ANP program, on September 20, 
2008 [Tab 10]. While paperwork indicated that the weapons were drawn by 
a representative of Blackwater's CNTU program, a December 7, 2008 
Blackwater memo indicates that some of those weapons were subsequently 
issued by Blackwater to Paravant [Tab 11]. Blackwater's then-Vice 
President for International Training and Operations, Jeff Gibson, told 
the committee that with his approval, the Blackwater staff used Bunker 
22 weapons as a source of weapons on the Paravant contract. In total, 
CSTC-A has told the committee that out of 154 AK-47s and pistols shown 
on Blackwater-Paravant weapons inventories, nearly 100 of those weapons 
were drawn from Bunker 22 [Tab 10].
    In his November 19, 2009, letter to the committee, General Petraeus 
said since January 2008, ANP logistics officers are ``required to 
personally sign for any weapons issued to the ANP.'' So, by September 
2008 when Chief Sailer signed over more than 200 AK-47s to Blackwater, 
a transfer of weapons from Bunker 22 to a contractor for any purpose 
would not have been permitted. It is not even clear who took custody of 
the weapons in September 2008. Receipts show that the guns were issued 
to an ``Eric Cartman'' or ``Carjman'' from ``BW CNTU''--shorthand for 
Blackwater, Counter Narcotics Training Unit [Tab 10]. In a February 4, 
2010 letter to the committee, a lawyer for Blackwater said it has no 
records of a person named Eric Cartman or Carjman having ever been 
employed by the company [Tab 14].
    Paravant's Program Manager Johnnie Walker said that initially 
Stratton provided him with two crates of weapons from Bunker 22, which 
Walker then distributed to Paravant personnel. According to Walker, the 
first stop for each new Paravant hire that arrived in theater was to 
his office to pick up an AK-47. Paravant personnel kept their weapons 
from Bunker 22 until after the May 5, 2009 shooting incident, when 
Paravant was directed by the Army, Raytheon, and its own management to 
collect all weapons issued to the contractor personnel.
    Records show that Blackwater's armorer, JD Stratton, returned 71 
``unserviceable'' AK-47s to Bunker 22 on June 2, 2009 [Tab 12]. In a 
June 3, 2009, letter to Raytheon, Paravant's new Director, Hugh 
Middleton, claimed that ``all AK-47s previously issued to Paravant were 
returned to the `Bunker 22' facility from which they came'' [Tab 13]. 
As recently as February 20, 2010, a Blackwater lawyer maintained in a 
letter to the committee, that the company had ``return[ed] all Bunker 
22 firearms that had been issued to Paravant personnel'' [Tab 15].
    But records obtained by the committee prove the company's 
statements to be false. The committee tracked an example of how one AK-
47 made its way from Bunker 22 to Blackwater. That AK-47 was not 
returned to the Afghan Government until January 25, 2010, after 
committee staff began inquiring about the status of those weapons, and 
more than 7 months after the company represented that it had turned in 
all such weapons [Tab 33].
    The AK-47, serial number 18010491, was assigned to Paravant Deputy 
Program Manager Jose Trevino. Pictures provided to the committee show 
him with one of the crates of AK-47s from Bunker 22. Documents from 
CSTC-A and Blackwater show that Trevino's weapon was among the 211 AK-
47s signed out from Bunker 22 in September 2008 by the Blackwater CNTU 
by an ``Eric Cartman'' or ``Carjman.'' A December 7, 2008, memo shows 
that the AK-47 was issued by Blackwater's armorer JD Stratton, to 
Paravant's Program Manager Johnnie Walker [Tab 11]. A March 1, 2009 
inventory of Paravant weapons indicates that the AK-47 was assigned to 
Trevino [Tab 17]. An inventory provided by Blackwater just this week 
shows that it was not returned to the Afghan Government until January 
25, 2010. Again, the company first represented that it had returned all 
such weapons on June 3, 2009 [Tab 15].
    Committee staff has repeatedly asked for information and records on 
the hundreds of other weapons obtained by Blackwater from Bunker 22 as 
well as the pistols Blackwater diverted to Paravant from its other 
subcontract. In a letter to the committee on February 20, 2010, an 
attorney representing Blackwater reported that 390 weapons were turned 
in less than 1 month ago, on January 25, 2010. The Blackwater letter 
also reported that beginning ``in or around January 2010 the Company 
explored arrangements for the remaining Bunker 22 firearms in its 
possession . . . to be demilitarized'' or destroyed, which the company 
said it did in February. A Blackwater representative visited CSTC-A on 
February 18--just last week--to inquire about returning additional 
weapons the company had acquired from Bunker 22. Again, this comes 
after repeated inquiries by committee staff to Blackwater about the 
weapons it acquired from Bunker 22, and after the representation that 
all such weapons used by Paravant had been turned in. These are weapons 
that belonged to the ANP--not Blackwater. It is only on the eve of this 
hearing that the company is giving the majority of them back to the 
Afghan Government.
                               personnel
    Who were these people Blackwater gave weapons to? Blackwater's 
proposal for its contract describes a robust recruitment process which 
allows the company to ``identify and vet'' the most ``qualified 
candidates,'' whose key attributes are ``character, integrity, 
reliability, and professionalism.'' Paravant's contract with Raytheon 
required that the company ``ensure that its personnel . . . behave at 
all times in accordance with the highest professional and ethical 
standards.'' [Information retained in committee files.] So what do we 
know about the individuals that were actually hired for the Paravant 
contract?
    The records of Christopher Drotleff and Justin Cannon, the two 
Paravant personnel indicted for the May 5, 2009 shooting, show that in 
these cases the company fell well short of any reasonable standard for 
vetting personnel, let alone the one promised in their proposal. A 
court order directing that Mr. Drotleff be detained during trial 
concluded that his military record was ``abysmal.'' That record 
apparently included assault, insubordinate conduct, absence without 
leave, failure to obey order or regulation, larceny and wrongful 
appropriation. Drotleff's criminal record after his discharge from the 
military included convictions for reckless driving, disturbing the 
peace, assault and battery, driving while intoxicated, resisting 
arrest, and trespassing. In ordering that Drotleff be detained during 
his ongoing trial, the court explicitly referenced his ``extensive 
criminal history'' and ``propensity for violence.''
    Public reports reveal red flags in the military record of Paravant 
contractor Justin Cannon, who was also indicted for the May 5, 2009 
shooting. A January 15, 2010 Associated Press report noted that Cannon 
was discharged from the U.S. military after he was absent without leave 
for 22 days and tested positive for cocaine. While the proposal for the 
Paravant contract--which was signed by Vice President for Contracts and 
Compliance Mr. Fred Roitz--stated that the company maintained a copy of 
the military service records of each of its independent contractors, 
the company has informed the committee that it does not have those 
records for Cannon or Drotleff in their files.
    Another example is Sebastian Kucharski, a Paravant assistant Team 
Leader. Mr. Kucharski was fired from Blackwater's security contract in 
Iraq for an alcohol-fueled incident that ended in a fight between him 
and another contractor. He had been on Blackwater's own internal ``Do 
Not Use'' list since September 2006. Despite being on the list, he was 
hired for Paravant, where he worked until being fired for yet another 
altercation, this time with military personnel on May 4, 2009 [Tab 18]. 
Karl Newman, the Team Leader for the Paravant personnel based at Camp 
Alamo--including Cannon, Drotleff, and Kucharski--was also ``thrown off 
the contract by the U.S. Army'' when he was fired after attempting to 
pull rank on an U.S. Army lieutenant. Paravant's own Project Manager in 
Afghanistan, Johnnie Walker, was characterized by company management as 
having been ``exceptionally ineffective'' before the May 5th shooting 
incident, but was fired for ``violating General Order 1, no drinking'' 
and ``doing so repetitively, cultivat[ing] an environment that 
indirectly lead to'' the May 5, 2009 shooting incident [Tab 19].
    During the course of the year-long contract, other Paravant 
personnel were fired for ``unprofessionalism,'' ``alcohol use,'' and 
drug use, including one Paravant contractor observed ``with a canvas 
pack of steroids and needles,'' and another who was fired several weeks 
after being stopped at the airport with steroids. Still others were 
cited for ``attitude problem[s],'' ``failure to comply with policy,'' 
and storing ``an illegally purchased vehicle on [a Forward Operating 
Base].''
                   lack of supervision and oversight
    After the May 2009 shooting incident, Raytheon issued a show cause 
notice to Paravant for, among other things, a failure to exercise 
``sufficient command, control, and oversight of its personnel'' [Tab 
20]. Paravant's response to the Raytheon letter is deeply troubling. 
According to Paravant, ``If [Raytheon] believes that Paravant has an 
obligation to supervise all subcontractor personnel at all times . . . 
Paravant will need to submit a request for equitable adjustment for the 
additional personnel, security, and other costs of providing such `24-
7' supervision throughout Afghanistan'' [Tab 21]. The company's attempt 
to absolve itself of responsibility to supervise the actions of its 
personnel is particularly troubling given the statement by a Blackwater 
senior manager that the company's leadership in Afghanistan had created 
an environment ``with no regard for policies, rules, or adherence to 
regulations in country'' and the company's contractual obligation to 
see to it that its personnel ``behave[d] at all times in accordance 
with the highest professional and ethical standards.''
    While it was shirking its responsibility to oversee its 
contractors, Blackwater was also apparently shortchanging Uncle Sam. 
Despite the compelling evidence that Paravant ``independent 
contractors'' were actually company employees, Blackwater withheld no 
income taxes and paid no Social Security, Medicare, or unemployment tax 
for them. Blackwater's longstanding effort to use the independent 
contractor designation to gain government business while avoiding 
payment of taxes was described in a March 10, 2008 memo from then-
chairman of the committee on Oversight and Government Reform, Henry 
Waxman. The company's classification of independent contractors is also 
currently pending before an Internal Revenue Service administrative 
proceeding.
    U.S. Government oversight was also lacking in the events leading up 
to the May 5th shooting, a fact acknowledged by CSTC-A Commanding 
General Richard Formica, who said that the Army's investigation into 
the May 2009 incident ``raised serious issues concerning an apparent 
lack of contractor oversight'' [Tab 1].
    Before the May 5th shooting, the Army's PEO STRI, which has 
responsibility for more than $3 billion annually in training and other 
contracts, did not have a contracting officer representative in 
theater, as they do now, and told the committee that they relied on a 
Dutch officer to act as a Technical Officer Representative to oversee 
the contract. Colonel Wakefield, however, told the committee that a 
Dutch officer worked on his staff at CSTC-A, but that he had ``no 
idea'' how someone could have thought that the officer was overseeing 
the contract. Colonel Wakefield said that he knew of no one on CSTC-A 
staff that was supposed to oversee this particular contract.
    PEO STRI staff also said that they monitored the contractors' 
performance from their office in Florida by calling and checking in 
with Colonel Wakefield at CSTC-A CJ7. Colonel Wakefield informed the 
committee that Task Force Phoenix, a subordinate command had oversight 
responsibility and he did not travel to the training sites to observe 
Paravant personnel.
    On the ground, the subordinate commands seemed unclear as to their 
authorities or responsibilities. A commander of another subordinate 
command--Lieutenant Colonel Brian Redmon, the Combined Training 
Advisory Group (CTAG) Commander of the Kabul Military Training Center 
at Camp Alamo--said he believed that the Paravant personnel at Camp 
Alamo reported to CSTC-A CJ7. In a February 12, 2009, email to his 
superiors, Lieutenant Colonel Redmon sought, without success, to 
clarify his responsibility for contractor personnel living at Camp 
Alamo that he said did not report to him [Tab 23].
    Emails from late April 2009 show that approximately 6 months into 
the contract, there was still confusion about oversight of Paravant 
personnel. When issues arose about a shortage of contractor personnel 
performing at one training site and concerns were raised as to whether 
they were performing up to U.S. Army standards, the Chief of the Afghan 
National Army Training and Education (CJ7) at CSTC-A said that Brian 
McCracken, who had recently moved from Paravant to Raytheon, would be 
responsible for monitoring Paravant and would be coordinating oversight 
of the contracts. Until his arrival in Afghanistan in late April 2009, 
no one from Raytheon had been stationed in country to monitor Paravant, 
apparently resulting in months of inadequate supervision. But even if 
Raytheon had provided proper supervision, contractors monitoring 
contractors does not take the place of government oversight.
    Following the May 5th incident, a review of policies at Camp Alamo 
uncovered continuing ``uncertainty'' as to what the ``authorities and 
responsibilities are over contractors,'' particularly for disciplinary 
issues. Brigadier Neil Baverstock, GBR, the CTAG Commander, said in a 
July 6, 2009, letter to Major General Formica that he was concerned 
that ``grey areas remain relating to wider issues of responsibility and 
authority when it comes to policing contractor behavior.'' In that 
letter, Brigadier Baverstock called for ``explicit guidance from CSTC-A 
on this issue'' [Tab 25].
    The carrying of weapons by the Paravant personnel exemplifies the 
lack of government oversight. The only way in which contract personnel 
are authorized to carry weapons in Afghanistan is by obtaining that 
authority from CENTCOM. Gaining CENTCOM weapons authority is not just 
some technical requirement. It's there for an important reason. 
Commanders need to know when and where armed personnel are operating in 
their battlespace. DOD arming requirements contained in Paravant's 
contract required their armed personnel to file a communication plan 
that spells out how they will coordinate movement with military 
authorities and request assistance in the event they are attacked. When 
incidents happen--and they inevitably do in war zone--it is our troops 
who are often sent into the fight. Failing to follow and enforce the 
rules relative to carrying weapons puts our military personnel at risk. 
In Paravant's case, company personnel carried weapons without CENTCOM 
authority. Unfortunately, those in a position to exercise oversight--
and who either knew or should have known that weapons were being 
carried without authority--did not act until after two tragic shooting 
incidents.
    On December 3, 2008, before even the first shooting incident, 
Raytheon notified staff responsible for their contract oversight at the 
PEO STRI by email that Paravant personnel were carrying weapons without 
authority [Tab 26]. Raytheon asked PEO STRI to check into this issue 
because Paravant personnel were ``routinely getting stopped and having 
to surrender weapons.'' Despite the email notice, PEO STRI apparently 
failed to take action to prevent Paravant personnel from carrying 
weapons until they met CENTCOM rules and authority was granted.
    In fact, in an email sent in early January 2009, PEO STRI asked 
Colonel Wakefield if Paravant personnel were ``authorized to carry a 
weapon 24/7 or is it during the workday only.'' Colonel Wakefield 
replied that the Paravant personnel did ``not have CENTCOM/
[Headquarters, Department of the Army] approval'' to carry weapons [Tab 
27]. PEO STRI subsequently informed Raytheon that they could not 
authorize weapons until they received approval from CENTCOM, but again 
they apparently did not tell Raytheon to take steps so their 
subcontractor-Paravant's personnel did not carry weapons until that 
approval was received.
    In Afghanistan, military personnel regularly saw Paravant personnel 
carrying weapons. Colonel Wakefield told the committee that he observed 
Paravant Program Manager Johnnie Walker and Deputy Jose Trevino at Camp 
Phoenix with a team of Paravant contractors carrying weapons. Although 
his account is disputed by Johnnie Walker, Colonel Wakefield told the 
committee that he advised Walker and Trevino that ``Paravant personnel 
were not authorized to have weapons'' without CENTCOM approval and 
``instructed [them] to ensure that the weapons were secured and not 
issued until [the CENTCOM Commander's] approval was obtained.'' 
Approximately a week later, Colonel Wakefield said he was advised by 
Colonel Mark Heffner that he had observed Paravant personnel carrying 
weapons. Colonel Wakefield told committee staff he again told Walker to 
secure the weapons and had no reason to doubt at that time that Walker 
would do so.
    Until the May 2009 shooting, few other attempts were apparently 
made to enforce the policy requiring CENTCOM approval. The Commanding 
General at Camp Alamo, Lieutenant Colonel Redmon told the committee 
that he ``observe[d] Paravant contractors carrying weapons when not 
conducting training activities.'' Lieutenant Colonel Sean Nikkila, a 
senior operations officer responsible for mentoring ANA officers and 
the Army's investigating officer for the May 5, 2009 shooting, 
acknowledged the same. According to Lieutenant Colonel Nikkila: ``We 
had never requested to view their letter of authorization (LOAs) 
[indicating CENTCOM weapons approval]. Before the [investigation], I 
didn't even know that they carried a letter of authorization. I really 
was unaware of . . . the rules of what it is to be a contractor in that 
theater. It wasn't [un]til after the incident that we got copies of 
their LOAs that we were able to see that they weren't authorized to 
carry a weapon.'' Paravant contract personnel, he told the committee, 
were ``probably poorly supervised,'' and the Army is ``partly 
responsible for that; we should have had better control.''
                         impact on the mission
    The May 5, 2009 incident had an immediate, tangible impact on the 
training mission. The day after the incident occurred, the U.S. Army 
initiated an investigation. Then-Raytheon program manager Brian 
McCracken told the committee that Blackwater was not ``as forthcoming 
as we wished they had been after the incident.'' He added: ``I think it 
is obvious that they were trying to get their people out of the country 
without telling anybody about it . . . they didn't think it was going 
to come to light.'' Likewise, Lieutenant Colonel Nikkila stated in his 
report that the ``Paravant contractors at [Camp] Alamo, Afghanistan did 
not report the incidents of 5 May 2009 until confronted'' by him the 
next morning [Tab 28].
    According to Lieutenant Colonel Nikkila, the result of the lack of 
cooperation was a protracted investigation that drew scarce resources 
and manpower from the local unit's mission of mentoring and training 
the ANA. All told, he said ``we los[t] 30 days of work'' out of a 10-
month tour to conduct the investigation. According to LTC Nikkila, 
trips to locate evidence and to local hospitals to locate the victims 
of the shootings--which he said could have been avoided if Blackwater 
reported the incident promptly--also unnecessarily exposed U.S. 
soldiers to danger.
                               conclusion
    In a November 2009 memo on the mission in Afghanistan, General 
McChrystal said ``The People are the Prize'' and that ``every 
interaction with the population, whether positive or negative, 
influences the Afghans' perceptions.'' The contractors we hire to 
support our mission need to understand that, act accordingly, and be 
held accountable if they do not. Even one irresponsible act by 
contractor personnel can hurt the mission and put our troops in harm's 
way.
    Our examination of the Paravant contract revealed multiple 
irresponsible acts by our contractors and troubling gaps in government 
oversight. There are over 100,000 contractors operating in Afghanistan. 
If we don't fix the problems of oversight and make sure contractors 
like Blackwater play by the rules and live up to their commitments--
we'll be doing a disservice to our troops by making their already 
difficult and dangerous job even more so.
                             witness panels
    This morning we will hear from two panels of witnesses. On the 
first panel are former Paravant Program Manager, John R. Walker; former 
Paravant Vice President and current Raytheon Program Manager, Brian 
McCracken; Colonel Bradley Wakefield (Ret.), former Chief of Training 
and Education, CSTC-A CJ7; and Steven Ograyensek, contracting officer 
at the U.S. Army's PEO STRI. As I mentioned, the committee asked Jerry 
D. Stratton, Jr., Blackwater's former armorer, and Ricky Chambers, 
Blackwater's country manager in Afghanistan, to testify on this panel. 
We were advised that they would invoke their Fifth Amendment right 
against self-incrimination in response to all questions. The committee 
also asked Chief Warrant Officer Gregory Sailer to testify on this 
panel but, for reasons I have already stated, he is in Afghanistan and 
was not made available by DOD by video teleconference. He has, however, 
answered written questions. On the second panel, we will hear from Mr. 
Fred Roitz, former Blackwater Vice President for Contracts and 
Compliance and current Xe Services LLC Executive Vice President of 
Contracts and Chief Sales Officer and Dr. James Blake, Program 
Executive Officer and Head of Contracting Activity at PEO STRI.

    Chairman Levin. I will also place in the record 
correspondence relating to the two witnesses: Jerry Stratton, 
Blackwater's former armorer, who is still a company employee, 
and Ricky Chambers, Blackwater's former Afghanistan manager. 
Again, both men said they would formally invoke their Fifth 
Amendment right against self-incrimination if subpoenaed.
    [The information referred to follows:]

     [See Tabs 34 through 35.]

    Chairman Levin. Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses today.
    I understand that several of you have traveled a great 
distance to be here, including one of you who has come all the 
way from Afghanistan. I thank you for your cooperation with the 
committee's efforts to fully understand the role that 
contractors play in our fight in Afghanistan.
    Mr. Chairman, I want to apologize ahead of time. I have a 
Homeland Security Committee hearing starting in about 40 
minutes, and I may not be able to remain with you for the 
entire committee hearing. I apologize for that. This is a very 
important hearing.
    Chairman Levin. We all understand that and those 
conflicting commitments.
    Senator McCain. Thank you.
    Training the ANSF is critical to our success in this war. 
We must ensure that our Afghan partners have the capability to 
decisively defeat the Taliban and al Qaeda in order to create 
the security necessary for the Afghan Government to provide 
essential services and good governance to its people. 
Obviously, time is important and we have to build this capacity 
rapidly. We have to prepare the ANSF to take the lead in this 
fight so the Afghan people can have the confidence in the 
ability of their own institutions to protect them and so we can 
begin the process of drawing down our forces with confidence 
that Afghanistan will not again become a haven for 
international terrorism.
    Only a mature and capable ANA and ANP force can bring 
security, stability, and peace to the people of Afghanistan. 
Only when that force is trained, ready, and capable will 
victory be assured.
    As we train and equip the ANSF, we have a concurrent 
obligation to the American taxpayer. Too many scarce taxpayer 
dollars were squandered during the rebuilding of Iraq. I hope 
we have learned lessons from our experience there.
    The same difficult circumstances exist in Afghanistan which 
has an even less developed infrastructure, a more difficult and 
complex geography, and a domestic political environment and 
tribal structure that have been shattered for years by constant 
violence.
    Despite these demanding challenges, we cannot compound the 
problem by tolerating poor performance and poor management 
practices by private sector companies that are a crucial part 
of our overall effort in Afghanistan. Given the stakes and the 
primary focus of our counterinsurgency strategy to protect the 
Afghan people, we must not tolerate gross misbehavior or 
criminal misconduct by individual civilian contractor 
employees. We cannot afford to tolerate lax oversight by 
Government entities directly responsible for policing these 
companies and civilian employees in Afghanistan.
    Keeping these objectives in mind, I look forward to hearing 
from our witnesses in greater detail about performance by the 
contractor and DOD agencies responsible for oversight during 
the training of ANSF under this contract. While this particular 
set of facts may be unique, I expect that the difficulties 
experienced and the potential for an impact on our 
counterinsurgency efforts will be instructive in considering 
the broader use of private contractors on the battlefield.
    I look forward to hearing how the contract was managed on 
site and how the contractors were overseen by the responsible 
Government entities. Certainly the events of May 5, 2009, were 
a tragedy that cost the lives of two innocent Afghan civilians 
and critically injured a third. I expect that we will discuss 
individual misconduct and lack of appropriate corporate and DOD 
oversight that contributed to this incident.
    However, if we only focus on assigning blame for what went 
wrong in this discrete case, we will miss an opportunity to 
identify the lessons learned and the necessary changes that 
must be made to ensure that the use of private contractors 
enhance our ability to accomplish our mission rather than 
detract from it.
    Our objective is to build up and train the ANSF so that we 
can establish sufficient security to begin to reduce the 
reliance of U.S. and North Atlantic Treaty Organization (NATO) 
combat forces. We must avoid the kinds of mistakes that 
undercut our efforts to protect and earn the trust of the 
Afghan people. We have a window of opportunity to turn the tide 
in Afghanistan. We must seize it, and we must ensure that 
everything we do promotes that goal.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We are going to be hearing from two panels of witnesses 
this morning, and we are going to be interrupted, we believe, 
by two votes, which could occur somewhere in the next half hour 
or hour. What we will do when those votes come is we will work 
to the end of the first vote. At least, I will be doing this. 
My colleagues obviously will gauge their own schedules and 
their own ins-and-outs the best they can. But what I intend to 
do is to keep going here through the near end of the first vote 
and then vote at the beginning of the second vote and then 
return. So my colleagues can figure out what they are able to 
do, given these hectic schedules, and we appreciate everybody's 
understanding of that.
    The first panel is the following: the former Paravant 
Program Manager, John Walker; the former Paravant Vice 
President and current Raytheon Program Manager, Brian 
McCracken; Colonel Bradley Wakefield, who is retired now, the 
former Chief of Training and Education of the CSTC-A, in 
Afghanistan again; and Steven Ograyensek, the Contracting 
Officer at the U.S. Army's PEO STRI. That's what we will be 
calling PEO STRI. They had the oversight responsibility on the 
Raytheon contract that Paravant was hired under.
    I will introduce the second panel when it is their turn.
    We will now call on our first panel to see if they have any 
opening statements. If they do, we would appreciate your 
limiting your opening statement to 5 minutes. I think we have a 
lighting system here. So you might be given a minute warning, 
if that is the system used in this room. The yellow would go on 
a minute before 5 minutes are up, and then the red light would 
go on at the end of 5 minutes.
    Your entire statements, of course, will be made part of the 
record, if you have a written statement to present.
    We thank you for being with us this morning, and we will 
call first on you, Mr. Walker, to see if you have an opening 
statement. If you could turn your mic on, I think there is 
probably a button on those mics. You can leave the buttons on 
all the time.

 STATEMENT OF JOHN R. WALKER, FORMER PROGRAM MANAGER, PARAVANT

    Mr. Walker. Actually I just have some questions.
    Chairman Levin. All right. Why do we not wait until the 
time comes for your questions, and then you will be able to 
respond at that time. You do not have an opening statement?
    Mr. Walker. I do not have an opening statement.
    Chairman Levin. All right.
    Mr. McCracken, do you have an opening statement?
    Mr. McCracken. A very brief one, sir.
    Chairman Levin. Sure.

    STATEMENT OF BRIAN C. McCRACKEN, FORMER VICE PRESIDENT, 
    PARAVANT; CURRENT AFGHANISTAN COUNTRY MANAGER, RAYTHEON 
                   TECHNICAL SERVICES COMPANY

    Mr. McCracken. I just want to say thank you to the 
committee for inviting me to come here and shed some light on 
this important issue of oversight and look at the things that 
happened in the past and also look at how we are working today 
and into the future to make sure that we never have an event 
like this again and we provide a good service for our country.
    That is all. Thank you.
    Chairman Levin. We thank you, and you are a current program 
manager at Raytheon. Is that correct?
    Mr. McCracken. That is correct, sir, in Afghanistan.
    Chairman Levin. In Afghanistan. Thank you.
    Colonel Wakefield.

STATEMENT OF COL BRADLEY V. WAKEFIELD, USA (RET.), FORMER CHIEF 
    OF TRAINING AND EDUCATION, COMBINED SECURITY TRANSITION 
                      COMMAND-AFGHANISTAN

    Mr. Wakefield. Sir, good morning and thank you to the 
committee also for the opportunity to discuss this issue.
    Chairman Levin. Good morning.
    Mr. Wakefield. If I may, I do not have a prepared opening 
statement, but from January 2008 to January 2009, as you noted, 
I was the Chief of Training and Education for ANSF Development.
    Chairman Levin. That is the Afghan National Security 
Forces.
    Mr. Wakefield. Yes, sir.
    In that, I was responsible for the development of programs 
and policies which facilitated training and education of both 
the ANA and ANP, to include a wide variety of subjects such as 
Afghan literacy, English language training, training of fire 
departments, and training supporting the fielding of the NATO 
weapons and the uparmored High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs), both of which were programs decided or made 
purchases decided prior to my arrival. That is how I am related 
to this issue.
    Thank you.
    Chairman Levin. Thank you.
    Now, Mr. Ograyensek, do you have an opening statement, sir?

 STATEMENT OF STEVEN M. OGRAYENSEK, CONTRACTING OFFICER, U.S. 
  ARMY PROGRAM EXECUTIVE OFFICE FOR SIMULATION, TRAINING, AND 
                        INSTRUMENTATION

    Mr. Ograyensek. Yes, Senator, I do have a prepared 
statement.
    I want to thank you for the opportunity to provide 
testimony today.
    Chairman Levin. Put your mic on, if you would.
    Mr. Ograyensek. The opportunity to provide testimony today 
on the important issue of oversight of Raytheon Technical 
Services Company and their subcontractor, Paravant Limited 
Liability Corporation under the Warfighter Field Operations 
Customer Support (FOCUS) contract.
    I serve as a division chief for the PEO STRI Acquisition 
Center in support of program manager field operations 
responsible for the Warfighter FOCUS contract.
    In addition to that, I have responsibilities for Flight 
School 21 and other service contracts in my division.
    My division awarded and administered contract actions for 
training services totaling $1 billion in fiscal year 2008 and 
$1.4 billion in 2009. I have the assistance of 26 contracting 
professionals, including 16 senior specialists and 10 
contracting interns.
    I was the contracting officer for the task order (TO) 
modification issued for the ANA weapons training program under 
the Warfighter FOCUS contract. The Warfighter FOCUS is a 
contract for training services. It is not a contract for 
private security services. It was awarded on June 6, 2007, to a 
team of contractors known as the Warrior Training Alliance, led 
by Raytheon Technical Services Company (RTSC), the prime 
contractor. The contractor has a maximum 10-year period of 
performance, consisting of a base period and 1-year options. It 
is an indefinite delivery/indefinite quantity contract with 
fixed price, award fee, cost reimbursement, and time and 
material provisions for TOs. The contract ceiling is $11.2 
billion. We are scheduled to enter the third year of 
performance for these services on May 1, 2010.
    The contract provides for integrated life-cycle contract 
support and services for training aids, devices, simulators, 
and simulations and training support worldwide. It provides 
worldwide instructional services, as well as operations 
maintenance and sustainment of training systems used by the 
U.S. Army, Air Force, Marine Corps, Navy, multi-coalition 
forces, and foreign military sales (FMS) cases.
    One of the FMS cases is for the CSTC-A, FMS requirement for 
the ANA weapons training.
    The Warfighter FOCUS contract currently provides worldwide 
support at over 600 locations with over 6,000 contractor 
service employees.
    The TO for this particular CSTC-A ANA training program is 1 
of 2,300 active line items that we are currently administering 
under the contract, in addition to placement of new orders.
    I regret the loss of life suffered by the two Afghan 
citizens and the sorrow this has brought to their families.
    I have carefully reviewed what has been reported about the 
incident and what could possibly have been done to prevent the 
incident. As a result of our study, I believe we have put in 
place corrective actions that would ensure critical incidents 
of this nature are reported by the contractor and received by 
multiple PEO STRI decisionmakers which would enable them to 
take appropriate action.
    As part of our continuing efforts to increase the oversight 
of the Warfighter FOCUS contract, specifically in Afghanistan, 
the PEO engaged with CSTC-A in February 2009, as soon as it was 
determined that the requirement was growing in scope. As a 
result, an active duty officer from PEO STRI arrived in 
Afghanistan on May 18, 2009. We maintain a continuous active 
duty military officer presence in Afghanistan in support of 
this mission.
    We have also reviewed and made changes to the contract 
accident and incident reporting process. These changes include 
the requirements for RTSC to inform all noncontracting officers 
on the Warfighter FOCUS contract, in addition to the program 
manager, deputy program manager, and contracting officer's 
representative by email within 24 hours of the time an accident 
or incident occurs.
    Thank you again for this opportunity to appear before you 
today and for the support Congress and members of the committee 
have provided for our soldiers, sailors, airmen, and marines.
    I am happy to answer any questions you may have.
    [The joint prepared statement of Dr. Blake and Mr. 
Ograyensek follows:]
Joint Prepared Statement by Dr. James T. Blake and Steven M. Ograyensek
    Thank you for the opportunity to provide testimony today on the 
important issue of oversight of Raytheon Technical Services Company 
(RTSC) and their subcontractor, Paravant LLC under the Warfighter FOCUS 
contract.
    I serve as the Army's Program Executive Officer for Simulation, 
Training, and Instrumentation (PEO STRI). In that capacity, I am 
responsible for the acquisition of training services as well as 
production, fielding and sustainment of training systems. Mr. 
Ograyensek serves as a Division Chief for the PEO STRI Acquisition 
Center. He also functions as Contracting Officer for specifically 
assigned training services under the Warfighter FOCUS contract.
                     the warfighter focus contract
    Warfighter FOCUS is a contract for training services. It was 
awarded on June 6, 2007 to a team of Contractors known as the ``Warrior 
Training Alliance,'' led by RTSC, the prime contractor. The Indefinite 
Delivery/Indefinite Quantity contract has a maximum 10 year period of 
performance, consisting of a base period followed by 1-year options 
with a total contract ceiling of $11.2 billion. We are scheduled to 
enter the third year of performance on May 1, 2010.
    The training services provided under Warfighter FOCUS contribute 
greatly to preparing our Warfighters for deployments. From the time our 
young men and women enter the Army, they rely on these services to 
train in their assigned military occupational skills (MOS).
    The Warfighter FOCUS contract provides for integrated life-cycle 
contractor support and services for training aids, devices, simulators 
and simulations and training support worldwide. It provides worldwide 
operations maintenance sustainment and instructional support of 
training systems used by the U.S. Army, Air Force, Marines, Navy, 
multi-national coalition forces and Foreign Military Sales (FMS).
    This contract does not provide private security contractors.
 establishing support under warfighter focus for afghan national army 
                            weapons training
    PEO STRI provides training services under Warfighter FOCUS in 
support of the NATO Training Mission-Afghanistan/Combined Security 
Transition Command's mission to train the Afghan National Army (ANA). 
These training services include literacy training, driver training and 
weapons training. As previously stated, the Warfighter FOCUS contract 
does not provide private security contractors.
    On April 7, 2008, CSTC-A sent a Memorandum of Request (MOR) through 
the U.S. Army Security Assistance Command (USASAC) chain of command 
requesting establishment of an FMS case for training the ANA. Attached 
to the MOR was the statement of work for the ANA Weapons Training 
Program. USASAC officially assigned the work to PEO STRI on June 13, 
2008.
    On May 30, 2008, PEO STRI sent a draft request for proposal to 
RTSC. Between May 30 and August 19, RTSC was provided a final request 
for proposal and conducted a subcontract competition among its 
subcontractors. On August 20, PEO STRI received and evaluated 
Raytheon's proposal. The ANA Weapons Training Program was awarded under 
Warfighter FOCUS on September 5. Letters of Authorization to the 
Paravant LLC employees were issued prior to deployment to Afghanistan. 
The Period of Performance began on September 15, 2008. On September 16-
18, 2008, PEO STRI, RTSC and RTSC's subcontractor Paravant LLC 
conducted the start of work site visit in Afghanistan.
        peo stri's oversight of the ana weapons training program
    Weapons training began on November 17, 2008. As part of PEO STRI's 
oversight; routine site visits, teleconferences, email correspondence, 
and program management reviews were conducted and CSTC-A leadership 
indicated that they were very pleased with the performance of the 
contractor's execution of this training service.
    On December 3, 2008, the PEO STRI Project Director received an 
email from the RTSC program manager. The email requested the 
contractor's Letters of Authorization be updated to allow the Paravant 
employees to carry arms in Afghanistan because Paravant employees were 
being routinely stopped and had to surrender weapons. The response from 
the PEO STRI Project Director was that no weapons were authorized to be 
carried until CSTC-A validated the requirement and obtained weapons 
authorization from the combatant commander. CSTC-A never obtained 
approval and never requested PEO STRI revise the LOAs.
    Between December 2008 and January 2009, PEO STRI communicated with 
CSTC-A to confirm that weapons authorizations had not been approved by 
the combatant commander in accordance with theater policy. As a result 
of this communication, on January 7, 2009, PEO STRI formally informed 
RTSC that weapons were not authorized, and no LOAs would reflect 
weapons authorized.
    In February 2009, PEO STRI initiated personnel actions to deploy an 
Active Duty Officer to Afghanistan in support of the CSTC-A mission. On 
March 18, 2009, we informed CSTC-A that a PEO STRI representative had 
been identified to provide contractor oversight in Afghanistan. The PEO 
STRI representative reported for duty in Kabul on May 18, 2009. We have 
had a continuous Active Duty Military Officer presence in Afghanistan 
in support of this mission.
    On May 7, 2009, RTSC informed PEO STRI of the May 5 shooting 
incident. From May 7 through July 27, PEO STRI conducted an 
investigation into the incident and was in constant formal 
communications with RTSC to include the issuance of a letter of concern 
on June 1, 2009. On July 17, 2009, in response to PEO STRI's letter of 
concern, RTSC informed PEO STRI that they would not renew the Paravant 
subcontract. On July 28, 2009, PEO STRI formally notified RTSC that 
this corrective action was acceptable subject to change based on the 
results of the Army's continuing investigation. Effective September 15, 
2009, Paravant LLC was no longer performing on the Warfighter FOCUS 
contract.
    Thank you again for this opportunity to appear before you today and 
for the support Congress and the members of this committee have 
provided for our soldiers, sailors, airmen, and marines.
    I am happy to answer any questions you may have.

    Chairman Levin. Thank you very much.
    The votes are on and we are in the second part of the first 
vote. So let us have a 10-minute first round, and then we are 
going to take a break. So I will ask my questions, and then we 
are going to have to take a break during the end of the first 
vote and beginning of the second vote. We will be recessing at 
that time unless there is somebody here. We will recess in 
about 8 to 10 minutes here for about 15 or 20 minutes. Thank 
you.
    Senator McCaskill. Okay. Mr. Chairman, in terms of my 
questioning, I would be safe to leave now and come back 
immediately after the second vote begins?
    Chairman Levin. That is correct.
    Senator McCaskill. Okay. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Let me ask you first, Mr. McCracken. Before you became Vice 
President of Paravant, you were the head of recruiting, I 
believe, at Blackwater. In your interview with staff, you 
indicated that you became dissatisfied with the attitude that 
you determined existed at Blackwater, and you took the job at 
Paravant because you were told that it was going to separate 
from Blackwater. I believe at that point, you joined the 
company Paravant in about September 2008, if I am accurate so 
far.
    Out in the field in Afghanistan, did you find out later 
that there were practical differences between Blackwater and 
Paravant, or that they were interchangeable and people in 
Afghanistan talked about the Paravant contract as though it 
were the Blackwater contract?
    Mr. McCracken. That is correct, Mr. Chairman.
    Chairman Levin. You had hoped that there would be a 
difference between the two. You became dissatisfied. As I 
understand it, you are now with Raytheon.
    Mr. McCracken. That too is correct, Mr. Chairman.
    Chairman Levin. Then when did that shift take place? When 
did you leave Paravant for Raytheon to become their current 
country manager?
    Mr. McCracken. Sir, after I came back from Afghanistan in 
January, I gave my resignation to Blackwater, and I still 
remained for about 30 days or so. I was hoping to do a turnover 
with my relief.
    Chairman Levin. All right.
    Now, as I understand it, you wrote a report, which is Tab 
4. Do you have that tab in front of you?
    Mr. McCracken. I do, Mr. Chairman.
    Chairman Levin. That is a report which--let me go to Mr. 
Walker first. Mr. Walker, let me ask you.
    You have spoken with staff. My understanding of what you 
said--let me try to summarize it. You wrote a report about this 
incident in December 2008. That is Tab 3, which is in front of 
you. That is your report to Mr. McCracken dated December 10. In 
that report you talked about the shooting. You indicated that 
the person who was injured was transported to Kabul first and 
then was medevaced from there to Germany the following day.
    Your recommendations in that report were the following: 
that everybody on that team showed poor judgment by allowing 
unauthorized training to occur. Then in your conclusion, that 
Russell Cannon, who was the team leader, conducted unauthorized 
and unapproved training involved in this incident and there was 
no reason to have had the weapon in the position that it was.
    Did you send this report then to Mr. McCracken on December 
10? Is that the date of the report?
    Mr. Walker. That is the date of the report, yes, sir.
    Chairman Levin. Okay. You were not at the incident. You 
interviewed the people who were and you told our staff--and 
correct me if I am wrong--that on the back of this vehicle, the 
team leader of Paravant, Russell Cannon, rode it like a 
stagecoach. It was a wild idea, you told our staff. While 
holding a loaded AK-47, the vehicle hit a bump. The weapon 
discharged, shooting another Paravant contractor in the head. 
Is that accurate? Is that what you told our staff you had 
determined?
    Mr. Walker. Sir, I did not say I said he rode it like a 
stagecoach.
    Chairman Levin. All right. What did you learn?
    Mr. Walker. What did I learn? That he was on the back of 
the vehicle and the weapon went off.
    Chairman Levin. All right. In your judgment, was this----
    Mr. Walker. I stated it was unauthorized training.
    Chairman Levin. All right. Were there any Afghans there?
    Mr. Walker. No, sir.
    Chairman Levin. Did you use the term it was a ``wild idea'' 
to do what they were doing?
    Mr. Walker. It was unauthorized, yes, sir. They were up 
there to conduct vehicle training.
    Chairman Levin. They were supposed to be training the 
Afghans. Right?
    Mr. Walker. No, sir.
    Chairman Levin. They were supposed to be training Afghans. 
That was their job.
    Mr. Walker. Not at that particular time. They were up there 
to change tires and learn how to take care of their vehicles.
    Chairman Levin. All right. Then why was it unauthorized? 
You said the training was unauthorized at the time.
    Mr. Walker. They were not supposed to be using weapons at 
that time.
    Chairman Levin. All right.
    Now, when you got this report, Mr. McCracken, from Mr. 
Walker saying that everybody showed poor judgment by allowing 
unauthorized training to occur and shared some fault, that 
Russell Cannon conducted unapproved, unauthorized training, 
there was no reason to have the weapon in the position that it 
was at the time. What did you do with your earlier report, Tab 
4, which said that they were conducting routine training and 
that a normal training evolution was going on? Did you correct 
your report?
    Mr. McCracken. No, Mr. Chairman. First of all, when I said 
it was routine training, it was not training for the Afghans. 
This was during one of the Eid holiday periods and we had no 
Afghan students. Mr. Walker, because of the different security 
situation that we found the Paravant employees in Afghanistan, 
organized training for the instructors to address certain 
contingencies that could occur over there. Such as, moving from 
one training site to another. Your vehicle breaks down, how do 
you safely get into the other vehicle? How do you change tires? 
That is what I meant by routine training. It was something we 
had not foreseen having to do, but once we had the men in place 
in Afghanistan, we found out that the reality was they would 
have to learn these types of skills. That is what I meant by 
routine and normal training, sir.
    Chairman Levin. But the report that you sent to the 
Government, our Government, said that members of the team were 
conducting routine training. Those are your words. When they 
get that report, they assumed what happened was routine, but it 
was unauthorized. It was not routine. You got that report from 
Mr. Walker who talked to the people who specifically informed 
you that someone who was seriously injured had to be medevaced 
to Germany and that everyone showed poor judgment, it was 
unauthorized training. What did you do then to correct the 
impression in your report that would be obvious that they were 
not conducting routine training? That was not routine. It was 
unauthorized.
    Mr. Walker. Actually, sir, if I could interrupt real quick.
    Chairman Levin. No. Let me ask this question of Mr. 
McCracken, if you do not mind. I am just asking about his 
report as to whether or not it was routine.
    Mr. McCracken. Sir, it was routine and authorized training. 
They were up there at Camp Dubs to practice contingency 
operations if their truck broke down and they had to get into 
another vehicle.
    Chairman Levin. What they were doing was unauthorized 
according to Mr. Walker's report to you.
    Mr. McCracken. Yes, sir. Jumping on the back of the vehicle 
was certainly unauthorized. I do not believe that anybody would 
condone that.
    Chairman Levin. But your report suggested, and this was 
sent to the Government, that this was routine training. They 
were conducting routine training. I am just asking you. Did you 
ever correct that? That is my question.
    Mr. McCracken. Sir, I would not have corrected that. That 
was in fact routine training. It was not training Afghan 
soldiers. It was doing training for themselves.
    Chairman Levin. Was the activity they were carrying out 
when this gun was discharged and wounded somebody, was that 
routine or was that unauthorized?
    Mr. McCracken. The initial part of it was routine.
    Chairman Levin. No. The event. When they were up there with 
a gun on the back of the vehicle, was that authorized?
    Mr. McCracken. No, sir. Nobody should have been on top of a 
vehicle that was going to move.
    Chairman Levin. Okay. When you were informed of that by Mr. 
Walker, did you then make it clear to the people who were 
getting this report in the Government that this event, the 
shooting was not during a routine procedure but during an 
unauthorized procedure? That is my question. Did you change 
this?
    Mr. McCracken. No, sir. The training they were doing in 
general was routine and normal and ongoing.
    Chairman Levin. I am sure it was, but----
    Mr. McCracken. But absolutely--I am sorry.
    Chairman Levin. When the gun went off, they were not 
engaged in a routine exercise. That was not normal for them to 
be on the back of a vehicle with an AK-47 not training anybody. 
Is that correct?
    Mr. McCracken. Mr. Cannon's actions were not consistent 
with the training. That is correct.
    Chairman Levin. They were not authorized. He was not 
engaged in an authorized act when that gun went off.
    Mr. McCracken. He was not doing what he should have been 
doing, but the rest of the team was, in fact, sir.
    Chairman Levin. Was he doing what he was authorized to do 
when that gun went off?
    Mr. McCracken. No, Mr. Chairman. He should not have been on 
the back of the vehicle.
    Chairman Levin. So what he was doing was not routine, but 
was unauthorized. Is that correct? What he was doing when that 
gun went off was not authorized.
    Mr. McCracken. That is correct, sir.
    Chairman Levin. Okay. Therefore, it was not routine.
    Mr. McCracken. I would characterize it differently, Mr. 
Chairman. The team was doing training that we thought was very 
important and necessary.
    Chairman Levin. I am not talking about the team. I am 
talking about what Russell Cannon did when he shot someone and 
sent them, in serious condition, to a hospital. That is what I 
am asking you about. That is the event we care about. We do not 
care about changing the tires. We care about doing something he 
was not authorized to do, which resulted in seriously wounding 
somebody. That is what we are focusing on. Would you agree that 
the act that he committed was not routine or authorized?
    Mr. McCracken. Yes, Mr. Chairman, I would agree that what 
Mr. Cannon did was not routine or authorized.
    Chairman Levin. Okay. Mr. Walker's report to you said 
everybody showed poor judgment. Okay? You seem to think to the 
contrary, but the report you got said everybody on the team 
showed poor judgment. My question is after you sent this 
report, which went to our Government, PEO STRI, did you do 
anything to change the impression that this was a routine act?
    Mr. McCracken. I did not change the report, sir.
    Chairman Levin. All right. We are going to recess for 15 
minutes. [Recess.]
    Our committee will come back to order.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today.
    Obviously, in a hearing of this type, it is always a 
question of what occurred and who was responsible or who was 
irresponsible with such occurrences.
    Obviously, training for the security protection of the 
Afghans is foremost in our minds because if the Afghans cannot 
provide for their own defense, it is going to be impossible for 
them to govern themselves as well. Without adequate security 
protection, the possibility of having any kind of democracy 
fades rapidly. So that is why what has happened and what will 
happen in the future is so critically important to the future 
of Afghanistan and the future of our and NATO's involvement in 
Afghanistan.
    Now, do we know what percentage of the ANP and the ANA are 
being trained by contractors and not the U.S. or NATO military 
members? What percentage? Does anyone know what percentage that 
might be? Colonel?
    Mr. Wakefield. No, sir, I do not. I would offer that within 
CSTC-A there was always Government involvement for the main 
programs of the ANA and ANP.
    Senator Ben Nelson. So it was established by the Government 
as opposed to established by the contractor. Is that fair?
    Mr. Wakefield. Yes, sir.
    Senator Ben Nelson. In that regard, do we know who trains 
the trainers, the contracting trainers?
    Mr. Wakefield. Sir, of the contracts that I was familiar 
with for the training programs that I was familiar with, the 
company was responsible to train and certify each of its 
employees. As to standardized training, I would offer that that 
would be provided through the continental United States (CONUS) 
Replacement Center (CRC) training at Fort Benning which 
provides using CENTCOM standardized training for all personnel 
entering the theater.
    Senator Ben Nelson. So we had some reason to believe that 
the contract trainers had some basic plan to follow in terms of 
what training they might provide. Is that fair or is it not 
fair?
    Mr. Wakefield. Sir, if I may. The NATO weapons training 
statement of work (SOW) was modified several times to cover an 
evolution in training programs which we elected to use the 
Paravant contractors for. So as the training program matured, 
relative to the use of Paravant, in each maturation there was a 
training development piece which identified both training 
required for the trainers and then the development of the 
training provided for the ANA.
    Senator Ben Nelson. Mr. McCracken or Mr. Walker, can you 
give us an idea from the company's perspective on how the 
training of the trainers occurred? The use of the analogy of 
riding stagecoach gives cowboys a bad name and we do not want 
that to happen. These were not cowboys. These were just 
reckless individuals, not respecting safety, and yet safety 
training was part of their responsibility. Is that fair, Mr. 
McCracken?
    Mr. McCracken. Yes, Senator Nelson, that is fair to say. 
The training which they received, especially this incident 
which happened on December 9, was from an evolving requirement. 
Colonel Wakefield alluded earlier that the training evolved 
while they were there. In fact, it still does to this day.
    The training they were doing on December 9 was the result 
of a difference in the reality in Afghanistan from what the 
Government and Paravant thought might actually be the case. For 
example, we did not anticipate that the Paravant trainers were 
going to have to leave the base to conduct training. As soon as 
they got there, they found out that they would have to leave at 
different times and attempt to go to different ranges and 
train. To address that contingency, that is why they were doing 
that training on December 9, sir.
    Senator Ben Nelson. So for their own protection, given the 
fact that they now had a security situation of their own, they 
decided to arm themselves unilaterally. This did not come from 
the top down or did it come from the top down to the trainers?
    Mr. McCracken. It did not come from the top down. We 
discussed this situation with the Army and the decision was 
made to get them weapons because it was a dangerous situation 
to be operating in Afghanistan outside the wires, outside of 
the protection of the confines of a base. It put people in a 
difficult situation. On the one hand, you do not want to have 
anybody at risk of some Afghans coming up out of nowhere and 
you not being armed.
    Also, quite honestly, you have up to 120 Afghan soldiers 
with NATO-issued M-16 rifles, and if you are not armed, it 
could be a somewhat risky situation, which nobody anticipated.
    Senator Ben Nelson. Were there any guidelines established 
by the company and the Army, the military, to deal with these 
individuals being armed as to what protocols might need to be 
in place for them for their own self-protection?
    Mr. McCracken. I discussed this issue with Colonel 
Wakefield and other military members in the fall of 2008, and 
we did decide we would try to find them some weapons they could 
have for protection on the range.
    Senator Ben Nelson. That deals with getting the protection, 
but it does not necessarily deal with the question of was there 
a protocol in place as to what they could do to protect 
themselves. Was it shoot first and ask questions later, I mean, 
that sort of a situation or something else?
    Mr. McCracken. Oh, absolutely not, sir. Prior to deploying 
to Afghanistan, all the instructors went through training at 
Blackwater's offices in Moyock, NC, where they were introduced 
to rules such as that. Also Mr. Walker, the program manager, 
gave them advice and told them what the rules were and how best 
to avoid any confrontation if possible, that kind of thing.
    Senator Ben Nelson. Colonel, were you satisfied at the time 
or are you satisfied now that the determination to provide 
weapons, the control of the weapons, and the use of the weapons 
were adequately discussed and agreed upon at the time, or has 
that happened subsequently if not at that time?
    Mr. Wakefield. Sir, if I may. The process that we were 
going through, prior to my departure in January 2009, was to 
propose allowing the Paravant contractors to wear sidearms 
while conducting training.
    Senator Ben Nelson. This was after the fact, while they 
were already doing it?
    Mr. Wakefield. No, sir. This was prior.
    Senator Ben Nelson. Prior.
    Mr. Wakefield. Right. Yes, sir.
    The process was first brief and then gain approval by the 
Commanding General, CSTC-A, then General Formica, to propose 
and gain approval by Commander of CENTCOM. When I left in mid-
January 2009, that was a project which was passed to my 
successor, and I am not sure of the results or what efforts 
they took. But it was very clear in my mind that the Commander 
of CENTCOM owned at least the first piece in the decision 
process to allow the arming of contractors.
    Senator Ben Nelson. Mr. McCracken and Mr. Walker, were you 
satisfied with the arrangement that the colonel is discussing?
    Mr. McCracken. If I may, sir, I know that Colonel Wakefield 
was working diligently to get the authorizations in place, and 
on more than one occasion, he advised me what he was doing to 
work on it. I was sure that he was doing everything he could to 
get the authorizations in place.
    However, at that time, the Paravant employees did have 
weapons on their person while they were conducting training.
    Senator Ben Nelson. Those were different than the weapons 
that they got from the military subsequently or later? When you 
say they were armed, where did those arms come from?
    Mr. McCracken. Those arms were issued to the Paravant 
employees at the Blackwater armory in Kabul, and it is my 
understanding that those arms came from a place called Bunker 
22.
    Senator Ben Nelson. For training purposes or for self-
security purposes?
    Mr. McCracken. For self-security purposes, sir. The Afghans 
had access to the NATO weapons which they were using for 
training.
    Senator Ben Nelson. I know my time is expired, but just to 
clear this point. So that was before Colonel Wakefield was 
working on a protocol or rules relating to the arming of the 
employees?
    Mr. McCracken. It occurred concurrently, sir.
    Senator Ben Nelson. Concurrent? I do not know what 
concurrent means either.
    Mr. McCracken. I am sorry. It happened at the same time, 
sir.
    Senator Ben Nelson. I know that, but it sounds to me like 
it was not finished before the colonel left. So it happened 
subsequent to that. But you say that they were armed, but were 
they armed before that agreement was reached?
    Mr. McCracken. Yes, Senator.
    Senator Ben Nelson. That was what I was trying to get to. 
So that was pre-protocol.
    Mr. McCracken. Yes, Senator.
    Senator Ben Nelson. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Bottom line, they were carrying arms 
without the authority that they were seeking. Is that correct?
    Mr. McCracken. Yes, Mr. Chairman.
    Chairman Levin. Thank you.
    Now, Senator Burr?
    Senator Burr. Thank you, Mr. Chairman. I would like to stay 
on the same lines, if I can, because I think there is still 
some misunderstanding.
    In September 2008, Mr. McCracken, you traveled to 
Afghanistan, and what I want to know is, is it your 
understanding that you perceived a general agreement among Army 
personnel and Paravant trainers that they faced real danger 
while in the training range and should be armed for self-
protection?
    Mr. McCracken. Yes, Senator, that is my understanding.
    Senator Burr. Is it commonplace for range instructors to be 
armed, including in the United States?
    Mr. McCracken. Yes, it is.
    Senator Burr. Colonel Wakefield, in or around November 
2008, you were in charge of the CSTC-A in Kabul and gave verbal 
authorization for trainers to be armed and pledged to secure 
amended letters of authorization (LOAs) with weapons 
authorization. Is that an accurate statement?
    Mr. Wakefield. No, sir, it is not.
    Senator Burr. Tell me where it is inaccurate.
    Mr. Wakefield. Yes, sir. Sir, I believe as described, the 
scope of my responsibilities was quite a bit less. I was the 
division leader for training and eduction as opposed to the----
    Senator Burr. Okay. Was the second half of that correct?
    Mr. Wakefield. Yes, sir.
    If I could give you the timeline. As the contract matured 
from our selection through the team's arrival, Mr. McCracken 
and I corresponded quite frequently, both in person during his 
travels, telephonically, and by email. It was was a result of 
this coordination that I received a request from Mr. McCracken 
to gain permission for the Paravant contractors to carry 
weapons.
    Senator Burr. Did you give verbal authorization?
    Mr. Wakefield. No, sir. I explained to Brian at that time 
that it was the sole----
    Senator Burr. Was that right? This was sometime in and 
around September 2008?
    Mr. Wakefield. Sir, I believe it was closer to November----
    Senator Burr. Okay.
    Mr. Wakefield.--because it was just prior to the lead 
elements arriving.
    Senator Burr. Colonel Nagasako replaced you. Is that right?
    Mr. Wakefield. Yes, sir.
    Senator Burr. He mentioned in a May 23, 2009, email--and I 
quote--``The requirement to arm the Paravant instructors was 
based on them being on live-fire range with ANA soldiers.'' So 
clearly, there had been a decision made at that point to arm 
Paravant instructors. Correct?
    [The information referred to follows:]

     [Information retained in committee files.]

    Mr. Wakefield. Sir, that was after--prior to my departure, 
there was no authority, and we had not asked----
    Senator Burr. What did you convey to Colonel Nagasako when 
he came in? Did you convey anything about the conversations you 
and Mr. McCracken had had or your actions that you had taken?
    Mr. Wakefield. Yes.
    Senator Burr. I think, Mr. Chairman, it should be noted 
that the subcontractor to Raytheon, Paravant, did not have the 
authority to interact directly with the contracting authority 
to obtain weapons. So this consulting process that we went 
through was the result of Paravant being a subcontractor.
    Let me move on. Mr. McCracken, were the weapons possessed 
by Paravant personnel for personal protection?
    Mr. McCracken. That was the intent of the weapons, sir.
    Senator Burr. Were the Paravant personnel training the ANA 
at remote locations in Afghanistan?
    Mr. McCracken. Yes, they were.
    Senator Burr. Did DOD provide protection at these remote 
locations, or were the Paravant personnel on their own until 
DOD could send troops to respond to a possible attack?
    Mr. McCracken. At least in certain situations, they were in 
fact on the ground. In fact, in January, I went to Kandahar, 
which is arguably considered the most dangerous area in 
Afghanistan, and at the location there in the city of Kandahar, 
the Paravant instructors actually had to leave the base and go 
out on the side of a road and conduct the training there. While 
I was there one morning in January, at least two, possibly 
three different vehicles drove up with Afghan civilians in 
them. Drove right up to the range ostensibly to ask if they 
could pick up the brass shell casings and things like that. But 
we really did not know if they were there for that purpose or 
if they were trying to gather some intelligence and possibly do 
something later. It was a very tense situation, and we had 
hoped to have some coalition forces there to provide security. 
That never really materialized.
    Senator Burr. After the May 5, 2009, shooting, did Paravant 
take action to disarm and collect all weapons from Paravant 
personnel?
    Mr. McCracken. Yes, they did.
    Senator Burr. Did Paravant and Blackwater take all action 
requested by you or Raytheon from the May 5 shooting?
    Mr. McCracken. They did, in fact, do everything we asked 
them to.
    Senator Burr. I appreciate that.
    Colonel Wakefield, did Paravant make its personnel 
available to the Army investigation?
    Mr. Wakefield. Sir, that incident, the May incident, 
occurred after I redeployed, so I have no knowledge.
    Senator Burr. Did Paravant and Blackwater fully cooperate 
with the Army? Do you know?
    Mr. Wakefield. Again, sir, I have no personal----
    Senator Burr. Okay.
    Mr. Chairman, I am through with my questions, and I hope--
if it is the chair's intent to get to the bottom of this, then 
I think it is appropriate to figure out where the DOD oversight 
was to figure out what, in fact, were the instructions. It is 
only reasonable to believe that a subcontractor that goes into 
a live-fire range is going to want to be armed. If, in fact, 
there was supposed to be DOD security, where was it? If there 
was not, then we ought to all question how we get 
subcontractors to go in unarmed into a very dangerous 
situation.
    The truth is that our use of contractors means that our 
assets can be used in the fight, and I fear that we are headed 
on a road that tries to put every contract in a box that says 
this is not a wise use of our resources. I would only tell you 
that the contractor world in total--I question without it 
whether we could continue at the pace we currently are in 
theater in Afghanistan and in Iraq. I think we should require 
DOD to do the appropriate oversight, but I think we also should 
expect that when we put people in dangerous positions, we have 
to allow them to either have their own tools to supply their 
security or to make sure that we have the security supplied for 
them.
    I thank the chair.
    Chairman Levin. We do have witnesses on the oversight 
question. On the question of whether they should be allowed to 
carry arms or not, that is a question which is a DOD question. 
They were very clear. General Petraeus was very clear. CENTCOM 
was very clear. They had to seek authority and have authority 
to carry arms. They acknowledged that they did not. At the time 
of the December incident in 2008, they sought it. They were not 
given the authority to carry the AK-47s or sidearms.
    There is an additional issue.
    Now, whether they should is a different question, but they 
clearly had to have authority in order to carry weapons and 
they clearly did not have that authority. They had sought it. 
So that is a question of abiding by the rules. If the rules are 
not good rules, then you can argue they ought to be changed, 
but the rules were very clear they had to get authority from 
CENTCOM and they did not have that at the time. That part I 
think is clear and uncontested.
    There is another issue here in terms of oversight. The 
weapons that they did get out of Bunker 22 belonged to 
Afghanistan not to the contractors and not to us. If they were 
to be given arms, the arms should come not from the ANP that we 
were trying to equip, but from their own source, a different 
source. It is also clear that Bunker 22 was the place where the 
ANP's arms were held. It was under our control.
    There are two issues there as well, but the oversight issue 
is an issue we will go into.
    Senator Burr. The chairman raises a couple of excellent 
points, and if I may just have one follow-up question of Mr. 
McCracken.
    I take for granted that Paravant trainers occasionally did 
have DOD personnel there. Am I correct?
    Mr. McCracken. On occasion, they did, sir.
    Senator Burr. Did the DOD personnel ever ask them to 
disarm?
    Mr. McCracken. No, they were never asked to disarm by the 
DOD personnel.
    Senator Burr. So there was likely an understanding from the 
DOD personnel there that it was okay, probably approved. I 
think the question is was there verbal approval or was there 
not. I cannot dispute what the chairman has said that there was 
not formal approval.
    Chairman Levin. There was not approval, period. They sought 
it and did not get it. As a matter of fact, they sought it just 
a few days before the December--let me stop because we have to 
go to other Senators.
    Senator McCaskill.
    Senator McCaskill. Thanks.
    Just following up on this, I want to make sure we make this 
clear. I have a copy of an email sent by you, Mr. McCracken on 
November 6, 2008, and I want to read it for the record and make 
sure that we are clear. On November 6, 2008, you said the 
following in writing: ``I got sidearms for everyone, 9 
millimeter Sigmas and holsters. We have not yet received formal 
permission from the Army to carry weapons yet, but I will take 
my chances. Pass the word. I will try to get out there in the 
morning with Bobby'' [Tab 6].
    Is that correct?
    Mr. McCracken. Yes, I wrote that email, ma'am.
    Senator McCaskill. Did you not at one time tell Mr. Walker 
to disarm?
    Mr. McCracken. I do not recall that, but perhaps you could 
reference me to a document that would have that.
    Senator McCaskill. I will come back to that.
    I am assuming that, Mr. Walker and Mr. McCracken, I know 
Colonel Wakefield--are you all veterans?
    Mr. McCracken. We are, ma'am.
    Senator McCaskill. Okay, and you, Mr.--I cannot pronounce 
your name. Help me.
    Mr. Ograyensek. Ograyensek. No, I am not a veteran.
    Senator McCaskill. Okay.
    To the veterans on the panel, if you disagree with this 
statement, I would appreciate it if you would just speak up: 
``The superiority of our military has rested on many things, 
including a clear chain of command and accountability.'' Would 
you all agree that that is an accurate statement?
    Mr. McCracken. Yes, ma'am.
    Senator McCaskill. Would any of you say that there was a 
clear chain of command and accountability as it related to the 
subcontractors or in this incident independent contractors who 
were carrying weapons without authority in Afghanistan?
    Mr. McCracken. I would say that there was, ma'am. It is my 
understanding that we had a verbal agreement with the 
Government that they would be armed. It was no secret. The 
military came out routinely and observed training. They knew 
that the Paravant instructors had weapons. Virtually everybody 
that is over in Afghanistan in the military carries a weapon 
with them all the time. Certainly people that are surrounded by 
Afghans that are armed would carry weapons.
    Senator McCaskill. Let me ask you this then. In December 
2008, we had at the time you were in charge of Paravant 
independent contractors.
    Mr. McCracken. Yes, ma'am.
    Senator McCaskill. Mr. Walker, were you on site in December 
2008 also?
    Mr. Walker. Yes, ma'am.
    Senator McCaskill. At that moment in time, we had Paravant 
personnel take AK-47s they were not entitled to, go out, and 
when they were supposed to be doing work on vehicles, one of 
those accidentally discharged and shot a guy in the head in 
2008. Is that correct? In December 2008?
    Mr. Walker. Yes.
    Senator McCaskill. Okay. Who was fired over that?
    Mr. McCracken. The gentleman who discharged the weapon when 
he should not have been discharging the weapon, Mr. Cannon.
    Senator McCaskill. Was there an investigation by the 
military?
    Mr. Walker. It happened on an Afghan base.
    Chairman Levin. Your mic. If you could turn that on, Mr. 
Walker. There is a button there.
    Mr. Walker. It looks like it is on.
    Chairman Levin. Good. Talk right into the mic, if you 
would.
    Mr. Walker. It happened on an Afghan base. We had an 
investigation by the ANA, and it was dismissed after that.
    Senator McCaskill. Okay.
    Colonel Wakefield, was there an investigation of that by 
DOD, by anybody at CSTC-A or Certification and Training 
Assessment Group (CTAG) or TF Phoenix? Did any of the people 
that were supposed to be overseeing the training of either the 
ANA or the ANP conduct an investigation after that shooting 
incident?
    Mr. Wakefield. Senator, I am unaware. I know that it was 
reported through the operations center and the CJ-3 was aware. 
I am not aware of what steps were taken.
    Senator McCaskill. When in this process did you tell Mr. 
Walker to disarm?
    Mr. Wakefield. That was in November.
    If I may. The initial team was on the ground, had just 
arrived that day into Kabul International Airport. I happened 
to be at Camp Phoenix for--I do not remember why I was there, 
but ran into them. I knew Johnnie by sight. He brought me over 
there and introduced me to several of the new arrivals. I 
noticed that some of them were carrying sidearms, and I told 
Johnnie that we did not have approval, that we would have to 
secure the weapons.
    Senator McCaskill. Okay. After they were told to disarm, we 
had an incident with AK-47s where someone was shot in the head. 
Correct?
    Mr. Wakefield. Yes, ma'am.
    Senator McCaskill. Was there anybody in the military that 
you would call accountable at this point? When I read the 
material and this diagram, I cannot tell who on here is the 
person--is it General Formica? Is it the one-stars at CTAG or 
TF Phoenix? Is it you? Who is it that should have, at that 
moment, when you realized that they are using AK-47s and 
someone has been shot in the head, that we better get out there 
and figure out what kind of situation we have? Who is it in 
this diagram that should have taken responsibility at that 
point and did not?
    Mr. Wakefield. Yes, ma'am. I am not aware of the particular 
slide, but if I may, I believe this to be two separate issues.
    One was the request to arm their personnel, the Paravant 
personnel, while conducting range training operations.
    The December incident was tied to training of the 
Counternarcotics Infantry Kandak (CNIK) which was an ANA 
battalion, the CNIK, which had the mission of securing the ANP 
poppy eradication force. So the training that was to be 
provided to the CNIK was on light infantry tactics, and we had 
a short-term requirement and a very short-notice requirement to 
train the CNIK. We elected to use one of the extra Paravant 
teams, and that is why that team happened to be at Camp Dubs 
conducting that training.
    While they were in support of the CNIK training, they were 
under the operational control of TF Phoenix, and I am unaware 
of what orders TF Phoenix issued which would have further 
delegated the responsibility for oversight of the contract 
personnel.
    Senator McCaskill. Was that kind of training in their work 
order, Mr. Ograyensek?
    Mr. Ograyensek. I am sorry. Can you clarify----
    Senator McCaskill. Was that kind of training--was the 
training, in terms of the narcotics training--was that even in 
the work order?
    Mr. Ograyensek. There was no training for narcotics, no.
    Senator McCaskill. Let me move on because I think that the 
point is that we had an incident that should have set off a red 
flashing light. It took another incident with all kinds of 
ramifications, in terms of who was involved in that incident, 
for people to get really ramped up about who was minding the 
store, as it related to this contract.
    Mr. Walker or Mr. McCracken, during this period of time, 
whose name was on your paycheck?
    Mr. McCracken. Blackwater's name was on the paycheck, 
ma'am.
    Senator McCaskill. Mr. Walker, whose name was on your 
paycheck?
    Mr. Walker. Direct deposit. I never saw it.
    Senator McCaskill. So you never saw it. Who did you think 
you were working for?
    Mr. Walker. Blackwater.
    Senator McCaskill. Everybody was working for Blackwater. 
Right?
    So what was Paravant? It was just a name?
    Mr. McCracken. I think that would be an accurate statement, 
ma'am.
    Senator McCaskill. They just put a name out there so there 
would not be the name Blackwater?
    Mr. McCracken. I was not involved in the formation of 
Paravant, so I would have to speculate about it if I were to 
answer that.
    Senator McCaskill. Okay.
    In the beginning of this contract, I know you managed this 
contract from Florida, was it clear to the military that 
Raytheon was going to subcontract this work to Blackwater, and 
was it clear that they were then going to try to use what they 
called independent contractors to actually be the people on the 
ground doing the work?
    Mr. Ograyensek. No, it was not clear at the initiation of 
this requirement that Raytheon was going to subcontract to any 
particular subcontractor. They selected Paravant through a 
competitive subcontracting process that was used by Raytheon's 
purchasing system.
    Senator McCaskill. But Raytheon was allowed to subcontract?
    Mr. Ograyensek. Correct.
    Senator McCaskill. Was there any thought of maybe including 
in the scope of the contract that certain requirements, as it 
related to subcontracting--so you knew that Raytheon was not 
going to do this work when you let the contract, that Raytheon 
was going to be a pass-through?
    Mr. Ograyensek. When we awarded the contract, we were aware 
that Raytheon was going to subcontract this work to Paravant.
    Senator McCaskill. Why not contract with Paravant? Why not 
just contract with Blackwater? What's the point of putting 
Raytheon in the middle other than to make this chain of command 
and accountability a little less clear?
    Mr. Ograyensek. We have the contract--the Warfighter FOCUS 
contract is for training services. It is with RTSC. They have 
the means to acquire other additional expertise through 
subcontracting if they cannot do the job themselves.
    Senator McCaskill. What is Raytheon doing in regards to 
training the ANP or the ANA?
    Mr. Ograyensek. In this particular case, they were managing 
the subcontract.
    Senator McCaskill. So this is just a classic middleman, 
that they are supposed to be managing but not providing any 
personnel to do the work.
    Mr. Ograyensek. Paravant also proposed management on the 
ground there to manage their own people. Raytheon also was in 
charge of managing the subcontract.
    Senator McCaskill. Raytheon took a cut for just ostensibly 
providing management oversight to these guys who had been 
discharged from the Army for bad conduct and were on the ground 
shooting people?
    Mr. Ograyensek. Raytheon has subcontract agreements with 
many different subcontractors. We were using rates that were 
established in the basic contract, in the basic Warfighter 
FOCUS contract. We were using those rates. The only other costs 
that were added to this particular contract were other direct 
costs. So Raytheon received some material overhead, general and 
administrative, and some fee on top of that for this particular 
effort.
    Senator McCaskill. Mr. Chairman, I am out of time. I am 
going to try to stick around if I can--I have another hearing--
because I have more. But I think this is a great example of 
layers of contracts that do not have meaning but cost us money 
that we do not really get any value out of. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Good afternoon or still good morning. Thanks for being here 
today.
    Colonel, I want to draw the lens back a little bit and ask 
you how we administer these contracts in general. Was it your 
responsibility for oversight of the contracts that we are 
talking about, or all of the contracts for folks who are 
working in Afghanistan? Are you responsible for overseeing 
those contracts?
    Mr. Wakefield. No, sir. My involvement was taking an 
identified requirement which could not be met through military 
sources, in this case, and writing the SOW which described what 
the Government expected the contractor to provide.
    Senator LeMieux. So who was responsible?
    Mr. Wakefield. For?
    Senator LeMieux. For overseeing all of the--my 
understanding is we have 33 percent more contractors in 
Afghanistan than we do troops. So we are talking about a huge 
number of people. Who is ultimately responsible at CENTCOM for 
overseeing these contractual arrangements?
    Mr. Wakefield. Sir, I do not know the answer to that.
    Senator LeMieux. Who did you report to on these issues?
    Mr. Wakefield. To the Commanding General (CG) of CSTC-A.
    Senator LeMieux. Your focus of mission was only writing the 
SOW for this particular engagement?
    Mr. Wakefield. Yes, sir, to design and develop the training 
programs and policies to facilitate ANA and ANP training and 
development.
    Senator LeMieux. Did you have responsibility, once you 
wrote the SOW, to follow up to make sure that the contract was 
being performed as you had dictated?
    Mr. Wakefield. No, sir.
    Senator LeMieux. Who had that responsibility?
    Mr. Wakefield. That was passed to TF Phoenix and to CTAG 
for the execution of the NATO weapons training. If I am 
answering your question correctly, Government supervision of 
the contractors I believe TF Phoenix had direct responsibility, 
ultimately----
    Senator LeMieux. Who is in charge of TF Phoenix?
    Mr. Wakefield. That time, sir, it was a regular colonel 
from the State of New York.
    Senator LeMieux. Who is in charge of it now, do you know?
    Mr. Wakefield. I do not know, sir.
    Senator LeMieux. I see the chairman is preparing something. 
I just want to make a point, Mr. Chairman. I think it would be 
useful to have a better understanding of who at CENTCOM or 
whoever in the chain of command is ultimately responsible for 
making sure that these contracts are performed in the way they 
are supposed to and that they are done efficiently and 
effectively. If there is 33 percent more contractors in 
Afghanistan than troops, by my rough math, that is 150,000 
contractors because we have about 100,000 troops. That is a 
statistic that I was given today. That is a lot of people 
performing a lot of important functions.
    I just have one final area.
    Chairman Levin. We are in total agreement on that. A lot of 
confusion over the accountability and the responsibility for 
overseeing contractors. That is kind of laid out in the longer 
statement that I put in the record, but you are absolutely 
right. That confusion was huge and hopefully now there has been 
some improvement in it. But at this time----
    Senator LeMieux. But whoever is in charge of it, Mr. 
Chairman, if that person at CENTCOM could come and speak to us 
to tell us how they administer these programs, what the 
accountability measures are, I think that would be helpful.
    In relation to this specific incident, Paravant was asking 
for the ability to carry weapons. Is that correct?
    Mr. Wakefield. Yes, sir.
    Senator LeMieux. When they were out doing this training 
operation and they did not yet have weapons, who was providing 
security for them?
    Mr. Wakefield. Sir, they were on a secured physical 
training area, Camp Dubs, that is guarded by the ANA and is the 
training location and billeting location for several coalition 
forces.
    Senator LeMieux. So they were with--inside of that 
facility?
    Mr. Wakefield. If they were at Camp Dubs, Darulaman, yes, 
sir.
    Senator LeMieux. All of their purposes and all of their 
function would have been held within the confines of that camp?
    Mr. Wakefield. That was the initial intent. I am not sure 
if it was modified.
    Senator LeMieux. Mr. McCracken, you were saying about being 
outside of the wire.
    Mr. McCracken. Yes, sir. At Camp Darulaman, otherwise known 
as Camp Dubs for the Americans, where that training was taking 
place, where they regularly trained the Afghans was actually 
outside the secure perimeter of the camp. Where the incident on 
December 9 happened, it happened at that very training site, 
which is outside the coverage area of Afghan security.
    Senator LeMieux. So I assume that the reason why you were 
requesting weapons is because you did not feel secure?
    Mr. McCracken. That is correct, sir.
    Senator LeMieux. Having traveled over to Afghanistan, I can 
imagine that you would need to feel like you needed to have 
weapons, and it is a very dangerous place. I am not going to 
get into why the request was denied. Certainly this was a 
tragedy and this should not have happened, but it does not make 
sense to me that folks would not have the ability to protect 
themselves. Would you agree with that, Colonel?
    Mr. Wakefield. Sir, I would. Thank you.
    The initial concept in the development of this requirement 
was that the contractors could conceivably operate on their own 
without any coalition force. The reason why we went to 
contractors was the additional training requirement for the 
NATO weapons training and the uparmored HMMWVs was in excess of 
the current fielded force's ability to manage the additional 
training, the reason why we went with the contractor.
    That being said, it was conceivable that other operational 
requirements could have taken away all of the coalition force 
coverage, leaving the contracted team on the range by 
themselves. So when Mr. McCracken--in what I seem to remember 
is November 2008--requested permission to arm, I personally 
believed that that was a reasonable request and conveyed to him 
it would be processed through to get approval.
    Senator LeMieux. That is all the questions I have. Thank 
you, Mr. Chairman.
    Chairman Levin. Senator Begich?
    Senator Begich. Thank you, Mr. Chairman. First, I apologize 
for being late. It sounds like it is a very interesting 
hearing, to say the least.
    First, I want to say I am trying to follow what Senator 
McCaskill was getting to, I do not think I heard the answer but 
I want to do two things, if I can. Mr. Chairman, if I can have 
just a little flexibility. We have a small group here.
    I just want to make sure I understood what Senator 
McCaskill was referring to on the chart because I was not clear 
on that chart and if she felt she got the answer because I will 
be very frank with you. I am looking at all four of you. I will 
use my words, and I came in midway here. But it just looked 
like a scam to continue to do the work for Blackwater under 
some other phony name in order to do the work. So I will just 
put that aside for a second.
    I just want to understand if Senator McCaskill can answer 
the question for me. I do not think I heard the answer of who 
was finally in charge, but I do not know what this chart was. 
So maybe, if I could, Mr. Chairman, just make sure I understand 
what was there that she was referring to.
    Chairman Levin. I think that is Senator McCaskill's chart?
    Senator Begich. Yes.
    Chairman Levin. Yes.
    [The information referred to follows:]

     [Information retained in committee files.]

    Senator McCaskill. It is a committee chart but it basically 
lays out the fact that--where the training command is, which is 
now General Caldwell, and the two components of that, the ANA 
and the ANP, and that Paravant fed into TF Phoenix, which is 
the ANA training. But it is not clear from this chart--and 
frankly, I still do not think it is clear in the hearing who in 
the military takes responsibility for the lack of oversight in 
this instance. That was the issue.
    Senator Begich. That is what I was wondering if you----
    Chairman Levin. If I could interrupt you, Senator Begich, 
because of something you said that I want to reinforce the 
point that Senator McCaskill also made. We interviewed Mr. 
McCracken, and this is what the interview said. This is the 
transcript of Ilona Cohen's, committee counsel, interview with 
Mr. McCracken.
    [The information referred to follows:]

    Ms. Cohen. Why was Paravant created?
    Mr. McCracken. It was created, I believe, to be like a company that 
didn't have any Blackwater on it, quite honestly, so they could go 
after some business that Raytheon was getting ready to hand out. So I 
think that's why it was created.
    Ms. Cohen. What was the concern about having the Blackwater name?
    Mr. McCracken. Oh, the reputation.
    Ms. Cohen. Okay.
    Mr. McCracken. The baggage.

    Chairman Levin. That is also in part the answer to Senator 
McCaskill's question, that Mr. McCracken said he did not know 
about the structure, but his previous testimony to us in that 
interview was, in his judgment, it was because of the 
Blackwater name, the baggage that that carried. So they just 
created another name.
    Senator Begich. A shell.
    Chairman Levin. A shell.
    Senator Begich. A scam. Those are my words.
    I guess I want to get to a two-part question here. One is 
the hiring practices, one incident where Blackwater had an 
individual on a no-hire list, and then later this new scam 
company appears and hired the same person. I want to ask you, 
Mr. McCracken, in just a second.
    Also from the military end, I want to get clear on what I 
understand is that you were clearly aware that there was going 
to be a subcontract with this company, which I am assuming you 
did some research on to know that it was Blackwater, and if you 
did not, to be honest with you, why the hell did you not do 
that?
    I mean, at least as a former mayor, when we had 
subcontractors working for a major contractor, we knew who the 
heck they were because sometimes they do these scams and they 
try to have a company that is just a shell. It has no 
oversight, no responsibility of any kind or claims to be, and 
has multiple limited liability issues. So they do not have to 
worry about the subcontractors, and they hire workers that are 
not paid properly and the list goes on and on.
    First to Mr. McCracken, if I can understand--and I will use 
one incident, and if I get the name wrong, I apologize. 
Sebastian Kucharski worked for Blackwater in Iraq until he was 
terminated September 22, 2006, after being involved in an 
alcohol incident, and Blackwater put him on a ``do not hire'' 
list. Then he in the ``new company,'' which really was not a 
new company, just a name that was put on stationery, was under 
contract for that new company. My understanding is, you were 
aware of that at some point, and then continued to keep him on 
the payroll.
    My issue is this process of hiring and who should be there, 
who should not be there. It was clear this person was not a 
desired employee from the original Blackwater, and Blackwater 
Lite, which is this other company, still kept him at a later 
date and hired him into a contract. How did that work?
    Mr. McCracken. I trusted the Blackwater recruiting arm who 
provides the people, and I asked about this Mr. Kucharski, and 
I was told that he was let go because of a personality 
conflict. That the charges were internal charges that were 
drummed up and that Kucharski was actually all right. That he 
had, like I said, a personality conflict with one of the 
supervisors on the big Blackwater contract. Given what I know 
about the big Blackwater contract in Iraq, which is I believe 
that is where he was, it did not surprise me that there may 
have been some vindictive charges brought up against somebody 
and maybe due process had not been followed in his case.
    Senator Begich. Let me ask you this. I am looking at an 
internal personnel record and I see his information here, but I 
do not see any notation that indicates a change in that. I will 
share this with you at some point.
    [The information referred to follows:]

     [Information retained in committee files.]

    Senator Begich. My point is there seems to be, at least 
from the review of some of the records that I have seen, an 
inconsistent effort in making sure that you have the right 
people working for you. We can argue first, I will do that in a 
second with the military folks, over the issue of the incident 
regarding who you hire and who you do not hire or who you keep 
on. Based on history, that was not only in Blackwater but 
Blackwater Lite. I am not going to give it the name that is in 
the record. It was really Blackwater Lite.
    So how do you respond to that?
    Mr. McCracken. Senator, I placed my trust in Blackwater's 
recruiting division that they were providing us with people 
that they had vetted and that they had checked out.
    Senator Begich. You had no other way to double check these. 
You just trusted them and hoped it all worked out?
    Mr. McCracken. I did place my trust in them. I met Mr. 
Kucharski while he was in processing, and I did ask him about 
that incident and he gave me a solid story. I told him it was 
important that he never have something like that happen again. 
Whether there was, in fact, a personality conflict or not, 
there just was not any room for that.
    Senator Begich. I have another document and I will, again, 
be happy to share it. It is pretty clear on the recommendation 
of this individual regarding his immediate termination in 2006 
[Tab 18]. You make it sound soft, that it was just all a 
misunderstanding. He had a little issue, and worked it all out.
    With the security issues, again, I know this from my own 
experience in managing a city of 3,000 employees with a 
significant police force. An incident like this, this person 
would not have been on the police force. He would not have been 
in our community officer program, which does not even carry a 
gun. They would not be part of the equation because of their 
past issues.
    I think there are a lot of issues around how you hire. I am 
going to hold you there for a second.
    I am still trying to figure out who is ultimately in charge 
when you were in operation. I will start with the subcontract 
first. Did you review who the subcontractor was going to be? 
Whoever wants to answer it because I do not know who is in 
charge of you two, so whoever is going to lay it out.
    Mr. Ograyensek. The TO under which the----
    Senator Begich. Is your mic on?
    Mr. Ograyensek. Yes, it is.
    Senator Begich. There it is, okay.
    Mr. Ograyensek. If Raytheon could not perform those 
services, they were permitted to subcontract those particular--
--
    Senator Begich. I understand that. Who reviewed that 
subcontractor from your group?
    Mr. Ograyensek. That was a competitive subcontract.
    Senator Begich. I understand that. You said it earlier. Who 
reviewed the contract once it was competitively awarded as 
Raytheon's subcontract? Who made sure that a subcontractor 
would do the work that we wanted Raytheon to do?
    Mr. Ograyensek. Raytheon selected the subcontractor.
    Senator Begich. So no one in your operation reviewed that 
subcontractor?
    Mr. Ograyensek. We did review the contract when it came in 
as the proposal. We reviewed the proposal as it was existing. 
There seemed to be no problems with it at all.
    Senator Begich. It did not raise any flags to you that this 
was really Blackwater Lite?
    Mr. Ograyensek. There was no indication that they were part 
of Blackwater.
    Senator Begich. Zero indication from your perspective.
    Mr. Ograyensek. Zero indication.
    Senator Begich. In the performance of who was part of the 
organization, what did you see there in the sense of when you 
reviewed the proposal?
    Mr. Ograyensek. What was proposed was a series of labor 
categories within the basic contract, within the basic 
Warfighter FOCUS contract. There were no names associated with 
those labor categories at the time of award.
    Senator Begich. I guess I want to ask you a little bit 
further then in that. So you see the proposal. You see no 
association of who might be part of this organization, but you 
have great faith in it that it will perform the job that 
Raytheon wanted. Had they performed any other security work?
    Mr. Ograyensek. This is not a private security contract. 
This is a training services contract.
    Senator Begich. I understand that. I am sorry. I used the 
wrong word. The training work. Had they done other training 
work?
    Mr. Ograyensek. There was other training work. They had a 
past performance volume in the subcontract proposal that we 
looked at. They did other training work for DOD and the 
Department of State (DOS), I believe, and for the Navy.
    Senator Begich. Was that work that they did or was it 
actually work that Blackwater had done, that they now claim as 
their credibility or their credit?
    Mr. Ograyensek. The indication was that it was Paravant's 
work.
    Senator Begich. Can you define what you mean by indication? 
Did you connect with those folks who had contracted with 
Paravant and check in with them and say who were these people 
that did this work? Did you do any of that?
    Mr. Ograyensek. We did not call those references.
    Senator Begich. You did not call any of those references.
    Mr. Ograyensek. It was the responsibility of Raytheon----
    Senator Begich. You can dice the words, but ultimately it 
is our responsibility, when we are contracting out, to make 
sure those contractors are doing the service. My understanding 
is the work that was performed and was used in their proposal 
was work that Blackwater did that Paravant had now attached 
their names to as their references. But you checked none of 
those references. I want to make sure I am right on this 
because if you did not check the references, how do you know 
they would perform the work that we wanted Raytheon to do, 
which they then subcontracted out?
    Mr. Ograyensek. The subcontract proposals were reviewed by 
subject-matter experts in CSTC-A. CSTC-A was available to 
review each of those subcontract proposals. We relied on the 
subject-matter expertise for CSTC-A to evaluate those proposals 
for us. When that proposal was selected by Raytheon and placed 
in our TO proposal, we found nothing wrong with that 
recommendation.
    Senator Begich. My time is up, I am learning a lot about 
the Federal Government and how they do their business and 
others that are associated with it. To be very frank with you, 
your excuse, what you have just given me, ``your 
explanation''--I will use that phrase more appropriately--would 
be clearly unsatisfactory for--it does not matter if it was a 
$10,000 contract we let in the city government to hundreds of 
millions of dollars contract to say, ``well, we let it to a 
contractor. They did the work, and then we kind of looked at 
it. They brought us a competitively bid subcontractor. We felt 
comfortable with it and off we went to the races.'' Maybe I am 
wrong about this. There was a lot of issues swirling around out 
there in the discussion of who provides the contractor work for 
the United States.
    I am disappointed, to say the least, and I am not satisfied 
with the response. At the end of the day, who was ultimately 
responsible to make these decisions?
    But I will leave it at that. My time has run out.
    Chairman Levin. Mr. Ograyensek, did you just say that you 
were not aware of the fact that Paravant and Blackwater were 
one and the same?
    Mr. Ograyensek. That is correct.
    Chairman Levin. Paravant had never done anything. They 
never had performed any training or any other function. Were 
you aware of that?
    Mr. Ograyensek. No, I was not.
    Chairman Levin. They represented in their proposal that 
they have 2,000 personnel deployed overseas. They did not have 
anybody deployed overseas. Were you aware of that?
    Mr. Ograyensek. I was not aware of that.
    Chairman Levin. Do we check those things out? Do we ask for 
references? They make representations here which are wildly 
false. It is Blackwater. It is just a shell. It is just the 
name changed. Mr. McCracken knew and everybody knew in the 
field it was Blackwater trying to get rid of a negative name. 
But you were not aware of that.
    Mr. Ograyensek. No, sir.
    Mr. Wakefield. Mr. Chairman, may I?
    Chairman Levin. Sure. Is it in answer to that question?
    Mr. Wakefield. Yes, sir.
    Chairman Levin. Okay.
    Mr. Wakefield. Once the proposal had been approved through 
CENTCOM and through the regulatory part that I am not fully 
clear of, I received from PEO STRI, I believe it was, either 
four or five offers. It was each company's proposal to meet the 
SOW requirements. The company name was redacted. It was listed 
as offeror 1, offeror 2. So there was no names associated.
    As was mentioned, we conducted a subject-matter expert 
review of each of the proposals. When I came to the proposal of 
offeror number 3, as an example, there were biographical 
summaries listed in each of the offeror's statements. One of 
the biographical summaries was that of the founder of 
Blackwater. I did not know the names of the companies that had 
provided offers, but knew that with his curriculum or with his 
biographical summary, I assumed that that was an offer from 
Blackwater.
    Chairman Levin. It turned out that that was the Paravant 
offer.
    Mr. Wakefield. As it turned out to be the Paravant offer.
    Chairman Levin. Everyone knew they were one and the same 
anyway.
    Mr. Wakefield. Correct.
    Chairman Levin. It may have been redacted, but you were 
aware of the fact that that was a Blackwater offer, in effect.
    Mr. Wakefield. Correct.
    If I may, I believe I was aware of the incident in Iraq 
only as it was reported through CNN and the Stars and Stripes. 
So when I saw that, I knew of Blackwater's reputation and I 
knew of the incident but did not have any indication or 
knowledge that they would not be able to provide the services 
which we required. So it did not raise a flag. I was not aware 
of the intricate details that perhaps the rest of the panel is 
of the incident in Iraq, but it was not a cause for concern.
    Chairman Levin. Now, Mr. McCracken, you indicated that you 
relied on Blackwater in terms of their personnel, but when it 
came to the hiring of Kucharski, you decided you were going to 
hire him despite Blackwater's own records, which said do not 
hire this guy. Is that correct?
    Mr. McCracken. After I consulted with Blackwater's 
recruiting people, they initially presented him to me and I 
said, ``well, it looks like he is a `do not use','' and then 
they told me, ``well, he is a `do not use,' but it is just a 
personality thing.''
    Chairman Levin. Oh, they told you. Blackwater told you to 
ignore their own document.
    Mr. McCracken. Yes, they did, sir.
    Chairman Levin. I see. Their own document said that he was 
involved in an alcohol-related incident which resulted in a 
physical altercation between himself and another Blackwater 
independent contractor. His ``actions and lack of prudent 
judgment in the consumption of alcohol resulted in an 
altercation not just between him and another independent 
contractor,'' but also after the physical altercation, he 
attempted to ``continue the confrontation and was once again 
stopped by guard force personnel.'' He ``then verbally 
threatened the other independent contractor and guard force 
personnel. His actions are an embarrassment to himself and 
Blackwater and there can be no other recommendation other than 
immediate termination'' [Tab 18]. Blackwater told you just 
ignore that?
    Mr. McCracken. Sir, that is the first time I recall ever 
hearing that, what you have just read.
    Chairman Levin. Did you check the record?
    Mr. McCracken. I was not privy to that record, sir. He 
worked for DOS----
    Chairman Levin. Who at Blackwater told you to ignore that?
    Mr. McCracken. Nobody told me----
    Chairman Levin. Who told you to ignore the fact that he was 
on the ``do not use'' list?
    Mr. McCracken. Some people in the recruiting department, 
but I have never seen that document before, sir.
    Chairman Levin. Okay. When you say you were not privy to 
the record, you were head of recruiting at Blackwater, were you 
not?
    Mr. McCracken. I was, but that record would have been kept 
by what is called the Worldwide Personal Protective Services.
    Chairman Levin. Did you ask to see the record before you 
decided to hire this guy despite being on the ``do not use'' 
list, particularly since you say you relied and trusted 
Blackwater?
    Mr. McCracken. I asked people from the DOS program, which 
is what I believe he was working on, what the situation was 
with him. I was told he was just wrapped up in a personality 
conflict, but I have never seen that document before, sir.
    Chairman Levin. Did you have access to it as a recruiter 
for Blackwater?
    Mr. McCracken. No, I did not. They compartmentalized a lot 
of things.
    Chairman Levin. I see.
    Now, going back to the question of whether or not the folks 
working for Blackwater-Paravant had authority to have AK-47s or 
sidearms, Colonel, let me ask you this question. It was clear 
they did not have the authority. Whether it was reasonable that 
they sought it or not, they did not have authority to carry 
weapons. Is that correct?
    Mr. Wakefield. Sir, during my tenure, that is correct.
    Chairman Levin. All right. They sought authority 
repeatedly. Is that correct?
    Mr. Wakefield. Yes, sir.
    Chairman Levin. It was not given to them?
    Mr. Wakefield. Correct.
    Chairman Levin. They knew they needed it?
    Mr. Wakefield. Yes, sir.
    Chairman Levin. They knew they did not have it or they 
would not have sought it?
    Mr. Wakefield. Yes, sir.
    Chairman Levin. Now, is it reasonable that the Army, when 
there are contractors in the battlefield space that are going 
to be armed, would want to know who is carrying arms in their 
battlefield space?
    Mr. Wakefield. Yes, sir, I believe that is correct.
    Chairman Levin. It is reasonable that there be such a 
requirement. Whether or not the request in this case was 
reasonable or not, we know it was not granted and argue whether 
it should have been. But we know it is reasonable that it is 
required and that they did not have authority to carry it. Is 
that true?
    Mr. Wakefield. Yes, sir.
    Chairman Levin. Now, Mr. Ograyensek, let me ask you this 
question next. This incident report that Mr. McCracken wrote 
out was forwarded to you or to your office according to this 
email message from Rhoda Shanick [Tab 4], who I believe was 
from Raytheon. She emailed a report to you that described the 
December 9 incident. On this report, it checks certain things 
like operating equipment improperly, improper technique, 
policies not followed, and safety training not followed.
    When your office got that report, did you act on it?
    Mr. Ograyensek. No, sir, I did not. I regret not acting on 
that memo. I was on temporary duty on another assignment when 
that memo came in. When I got back, I had over 287 messages 
that I had not read. For some reason, I did not notice the 
severity of that memo. It was not marked urgent. It was not 
marked with any particular emphasis. We missed it, and I regret 
missing it.
    Chairman Levin. Did the Army investigate this matter? I 
want to go back to a question I think that Senator McCaskill 
raised. Do you know whether or not this shooting incident where 
a man was partially paralyzed through an unauthorized action 
was ever investigated by the Army? Do you know whether they 
did?
    Mr. Ograyensek. I am not aware that they have investigated 
it.
    Chairman Levin. Colonel, you are not aware of it either?
    Mr. Wakefield. Sir, I am not.
    Chairman Levin. On December 3, 2008, before the December 
shooting, Raytheon actually requested PEO STRI project 
managers, Linda Comfort and Dave Christianson [Tab 26] 
authorization ``for the Paravant employees to allow them to 
carry arms in Afghanistan.'' Did they get that authorization, 
Mr. Ograyensek?
    Mr. Ograyensek. No, sir, they did not.
    Chairman Levin. They were seeking it again, days before the 
event?
    Now, after the event--my time is up.
    Senator McCaskill.
    Senator McCaskill. Let me make a point that Blackwater 
acting as Paravant was, in fact, removed from this contract as 
a subcontractor by Raytheon in the fall of last year. Correct?
    Mr. McCracken. Yes, ma'am. I believe September 15 
approximately.
    Senator McCaskill. At that point in time, MPRI took over as 
a subcontractor for Raytheon. Is that correct?
    Mr. McCracken. Yes, ma'am. They continue to do the work to 
this day.
    Senator McCaskill. It is true that they are not armed?
    Mr. McCracken. They are not armed, ma'am.
    Senator McCaskill. Is it also true that a couple of dozen 
of the people that used to work for Paravant, also known as 
Blackwater, are now working for MPRI?
    Mr. McCracken. Yes. I think that is an approximate number, 
but it is probably pretty accurate, about 24 or 20 of them.
    Senator McCaskill. Did they know, when they were going over 
to work for MPRI, that they were not going to be armed?
    Mr. McCracken. Yes, they did, ma'am.
    Senator McCaskill. Yet, they still took that contract.
    Mr. McCracken. These 20 or 24 decided to. There were 
several that decided not to continue to work in Afghanistan, 
but these ones have accepted that challenge.
    Senator McCaskill. Having just come back from Afghanistan, 
I can certainly assume there are a lot of reasons you would not 
want to continue to work in Afghanistan. It is not exactly a 
vacation spot right now.
    Let me acknowledge that Blackwater provided security when I 
was over there, and let me acknowledge how many veterans are 
working for these companies that are doing great services, 
putting themselves in harm's way, and helping us achieve a 
mission that, frankly, we could not achieve with the number of 
boots-on-the-ground we can get there in a fairly quick time 
period. I do not want to make this all about anybody who takes 
up one of these contracts is a bad guy. That is not the case.
    The difference is when I said in my first round of 
questioning, I bet you if I had people who worked for 
Blackwater, just boots-on-the-ground for Blackwater, who are 
seen interchangeably as American soldiers in the roles they are 
doing, that they would admit that there is not the chain of 
command and accountability in terms of the rules that they have 
in the military. Would that be a fair statement?
    Mr. McCracken. It is difficult for me to put words in 
somebody else's mouth, but from my own experience, I think I 
would agree with that.
    Senator McCaskill. So really what we have here is we have--
where the hearts and minds of the Afghan people are incredibly 
important to this mission, we have two groups of people, both 
Americans, both being seen as a unified front in terms of what 
they are doing in this country. We have one group of people 
that if one of the Army had gone out there with an AK-47 they 
were not supposed to have on top of a moving vehicle and shot a 
guy in the head and paralyzed him, something would have 
happened in that chain of command.
    If they had kept somebody on the force that had been using 
cocaine, that had been drunk, that had been charged with 
larceny, that had done all these things these guys had done, 
that went out and killed Afghan people in the spring of 2009, 
something would have happened to them if they we're in the 
military. Correct, Colonel?
    Mr. Wakefield. Yes, ma'am.
    Senator McCaskill. I mean, this would have been a huge deal 
inside the military, that somebody wearing the uniform would be 
engaged in this kind of conduct.
    What is killing me about this problem with Blackwater is we 
have two sets of rules and one image. As long as we have two 
sets of rules and one image, we are in trouble on this mission. 
Until the contractors are held to the same standard as the men 
and women that are there in uniform, we are going to continue 
to come back at this. I do not care how many names they make up 
for Blackwater. I do not care how many different titles they 
put on the company. It is still going to be the same problem. 
Until the military gets that, until the military takes this 
problem more seriously in terms of what happens, whether it is 
you not following up on that memo or whether it is this 
question of who was responsible for the investigation after the 
incident in December, we are going to be back in this hearing 
room and we are going to continue to be stalled on progress 
accomplishing this mission. I think it is really important that 
we get that. I am going to take it up with CENTCOM. I am going 
to take it up with General McChrystal.
    Who was the contracting representative (COR) on this 
contract within the unit, Colonel Wakefield?
    Mr. Wakefield. Ma'am, during my tenure, I do not believe 
that there was a COR on ground.
    Senator McCaskill. I was just told by General Caldwell that 
they had made great progress on CORs. Here we have one of the 
key categories, training of the ANP and the ANA, being done by 
contractors, and you are telling me that when you were there, 
there was not a COR that was responsible for it?
    Mr. Wakefield. As I understand the term ``contracting 
representative.''
    Senator McCaskill. A COR is what it is called, the acronym.
    Mr. Wakefield. Right. I do not believe that there was.
    Senator McCaskill. Have you heard of that acronym?
    Mr. Wakefield. Yes, ma'am.
    Senator McCaskill. Okay. Okay, that is good. If you had not 
heard of it, I was going to really panic.
    But it is not good that we have something that is so 
fundamental to this mission and they are telling me that the 
CORs are a lot better, that these CORs are now getting trained 
and they are really on the job in terms of contract oversight, 
and clearly this is a huge, gaping hole.
    Mr. McCracken. Ma'am, may I add something to your point?
    Senator McCaskill. Yes.
    Mr. McCracken. First of all, I agree with everything you 
said. I believe on this panel I am the only person who is in 
Afghanistan right now. I can tell you that since May of last 
year, PEO STRI has done a very good job, as has the Army, with 
providing oversight to the contractors, at least the ones that 
I deal with. I have had the opportunity to serve with two 
outstanding officers that served as CORs.
    Senator McCaskill. So it is better.
    Mr. McCracken. Yes, ma'am. It is much better. I hope that 
PEO STRI and CENTCOM have an opportunity to demonstrate how 
much better it is, and I hope that next time you come over on a 
congressional delegation----
    Senator McCaskill. I have to tell you, I was feeling better 
until I started digging into the documents on this hearing, and 
then all of a sudden, I panicked that maybe this was just a 
really good PowerPoint presentation, as the military can always 
do a great PowerPoint presentation, without the meat on the 
bone. I am glad to hear you say that, Mr. McCracken, that it is 
better, and I am going to continue to follow up.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    I want to go back to the hiring practices and the vetting 
issue. The Paravant proposal for ANA training said that ``each 
instructor must have on file a copy of the military service 
record,'' which is a DD-214, if that instructor has prior 
military experience. Blackwater has told the committee that it 
does not have the DD-214 forms for Drotleff or Cannon. These 
were the two guys who were indicted for the May 5, 2009, 
shooting in which two Afghan civilians were killed.
    Let me ask you, Mr. McCracken. Did you review the military 
records of Paravant contractors before they were hired? Was 
that your responsibility?
    Mr. McCracken. It was not my responsibility, sir, and I did 
not review every single one of them, no.
    Chairman Levin. Do you know if anyone reviewed the records?
    Mr. McCracken. I do not know if anybody reviewed the 
records. I know they had a process in place to do so, however.
    Chairman Levin. Let me just tell you about Mr. Drotleff's 
military record. This is a guy who was hired, was involved in 
that May shooting 2009, and we know what the ramifications 
are--and they are still reverberating--of that shooting in 
terms of Afghan public distrust of so many of our activities 
there still. We have to overcome that. We gradually are. Our 
whole strategy is to protect the public, to show them that we 
are not there to dominate. We are not there to control. We are 
there to help them control their own country against the menace 
that they face.
    But his record, which apparently was ignored, included 
assault, failure to obey order or regulation, larceny, wrongful 
appropriation, and insubordinate conduct. That is the record 
that he had when he was hired by Blackwater.
    That is the problem, that kind of sloppy vetting puts us in 
a position where we are hiring people who, again, as I said in 
my opening statement and as others have said, are seen as 
representing America. This guy is seen as representing America. 
He does not and he never should be allowed to be put in a 
position where he is viewed that way. For him, Mr. Drotleff, 
with a record like that--and Justin Cannon, who was indicted 
for that May 2009 shooting, we are talking mainly about the 
December 9, 2008, shooting which should have been investigated 
but was not by the Army. But if that investigation had taken 
place, hopefully the May incident would not have happened. We 
would have taken action to change that whole environment.
    The other guy, Justin Cannon, was discharged from the 
military after he went AWOL and he tested positive for cocaine.
    I want to go back to one more thing about these weapons. It 
is important, and I think Colonel Wakefield told us this and 
others would agree, if you are going to have contractors armed, 
the Army better know about them. The Army needs to know who in 
their battle space is armed so in case they are called in, they 
can tell who are the bad guys and who are the good guys, if 
nothing else. That does not mean he is a bad guy. That means he 
could be a contractor. They have to have a plan for that. They 
have to be notified. They have to be informed.
    Let me ask you, Mr. McCracken, since you took 
responsibility for arming these folks, did you file plans with 
the military when they were moving about?
    Mr. McCracken. It was Blackwater-Paravant's policy to 
notify the military whenever they made a movement off the base.
    Chairman Levin. Did they? Were they notified about this 
movement that we are talking about in December? Do you know, 
Mr. Walker, if they were notified?
    Mr. Walker. They were still on the base at Camp Darulaman. 
They did not move off the base.
    Chairman Levin. I thought they were outside the wire.
    Mr. Walker. Outside the wire, but still within the confines 
of Camp Darulaman. There is no fence around an Afghan base.
    Chairman Levin. All right. So they did not move off the 
base.
    Mr. Walker. They were up on a range north of Camp 
Darulaman.
    Chairman Levin. It was north of the camp.
    Mr. Walker. Yes, sir.
    Chairman Levin. So should they have notified the military, 
do you know?
    Mr. Walker. No, I do not.
    Chairman Levin. Should they have notified under the special 
requirements that apply in war zones where contractors 
authorized to carry sidearms or AK-47s, that they notify 
military forces? Do you know whether that notice was given by 
Paravant?
    Mr. McCracken. I do not know, but in that case they would 
have not have notified the U.S. forces because they are working 
just off of an Afghan base, and they would have--they should 
have notified the Afghan range control that they are going to 
be on that particular range.
    Chairman Levin. You do not know whether, when they had 
arms, that they notified our military. They were supposed to, 
but do you know whether they did?
    Mr. McCracken. In that case, I would be very surprised if 
they notified the American military because they were not 
leaving the----
    Chairman Levin. But in other cases, do you know whether 
they formally used a notice that they were moving around if 
they were armed?
    Mr. McCracken. I know that Blackwater had a policy for them 
to do that. I do not know how often it was adhered to or if it 
was never adhered to.
    Chairman Levin. Does anybody here know whether or not they 
notified our military when they moved off base with arms?
    Mr. Walker. We had a vehicle policy, vehicle movement 
policy.
    Chairman Levin. Not the vehicle moving. That they were 
armed. Do you know whether or not----
    Mr. Walker. No, sir.
    Chairman Levin. Pardon?
    Mr. Walker. No, sir, we did not inform the military that we 
were moving with ammunition or arms.
    Chairman Levin. That is a critical point because I think 
everyone would agree that there is a purpose to the requirement 
that they get authorization, and one of the purposes is so that 
the military then would know, hopefully. But the only way the 
military would know if an armed contractor is moving away from 
a base is if they are informed. There was not even a policy on 
the part of Paravant here.
    Mr. Walker. But that would say that it was an American 
base.
    Chairman Levin. All right. When they were moving away from 
the base, you are saying that they did not inform the military. 
Is that right?
    Mr. Walker. Exactly.
    Chairman Levin. Did we just hear you correctly? Did I just 
hear you correctly?
    Mr. Walker. Let us go over it again.
    Chairman Levin. Did Paravant inform our military when they 
moved away from a base armed?
    Mr. Walker. From a base?
    Chairman Levin. Yes.
    Mr. Walker. American base?
    Chairman Levin. Either one, either one.
    Mr. Walker. No, we did not.
    Chairman Levin. Now, Mr. McCracken, you did take 
responsibility for providing arms to people who were not 
authorized to carry arms. Did you remind them at the time that 
they better notify our military when they are moving with arms?
    Mr. McCracken. Sir, I do not think I take responsibility 
for arming these----
    Chairman Levin. Did you not say ``go ahead and do it, I 
will take responsibility,'' was that not the email? [Tab 6].
    Mr. McCracken. I am not sure if those are my words, but I 
operated under the assumption that the military was allowing us 
to do that. As we understand, the military knew about them 
being armed, and it was not my decision solely. I do not have 
that kind of authority. The military had given us what we 
considered approval to have these weapons.
    Chairman Levin. You considered you had approval, and yet 
over and over again, you requested approval, including a few 
days before this December incident. Approval was requested and 
not given. So you can say that you assumed you had it, but the 
people who were there did not assume that they had it because 
they continually requested it. How many times did you request 
approval?
    Mr. McCracken. Very many times, sir.
    Chairman Levin. All right. So if you thought you had 
approval, you would not be requesting approval presumably. You 
wanted approval because you knew you needed it and did not get 
it, and you took responsibility in an email for--you said, ``I 
got sidearms for everyone, 9 millimeter Sigmas and holsters. We 
have not yet received formal permission from the Army to carry 
weapons. I will take my chances'' [Tab 6]. You were not just 
taking your chances. You were taking chances for others when 
you said that. ``Pass the word.''
    It is the kind of lawlessness and failure to follow 
regulations and rules which gets us into trouble. Others can 
argue whether or not permission should have been granted. You 
can argue that and I am not here to argue it one way or 
another. Permission was needed for good reasons. The Army is in 
danger when we have people who are contractors representing 
America in the eyes of the Afghans, who are armed. The Army may 
have to come to rescue those folks, and they need to know who 
is armed. You took it on yourself, at least in that email, to 
say go ahead and do something which you knew was not authorized 
because you repeatedly sought that authority. It seems to me in 
doing so, you did not act responsibly.
    Just a couple more questions for this panel, and then we 
are going to go on to the next panel.
    Let me just go back to you, Mr. Walker. After this December 
2008 incident, did you talk to Colonel Wakefield about it?
    Mr. Walker. The incident was discussed, yes, sir.
    Chairman Levin. With Colonel Wakefield?
    Mr. Walker. Yes, sir.
    Chairman Levin. That was orally?
    Mr. Walker. Orally.
    Chairman Levin. In addition to your written message which 
went to Mr. McCracken, you had conversations about this with 
Colonel Wakefield. What did you tell him?
    Mr. Walker. That we had had an incident on Camp Darulaman.
    Chairman Levin. Talk into the mic, if you would.
    Mr. Walker. We had had an incident out on Camp Darulaman.
    Chairman Levin. Was this during casual conversation or was 
this in his office or where was it?
    Mr. Walker. This was in his office, sir.
    Chairman Levin. Did he say he was going to take any action, 
or did you ask him to take any action?
    Mr. Walker. No, sir, I did not ask him to take any action.
    Chairman Levin. Okay. So why did you inform him?
    Mr. Walker. He was in my chain of command and he needed to 
know.
    Chairman Levin. All right.
    Mr. Walker. However, there was an incident report that was 
written.
    Chairman Levin. Right. That is the one we have talked 
about.
    Mr. Walker. I am not sure it is the one that you have.
    Chairman Levin. Is there an additional incident report? Do 
you have it?
    Mr. Walker. I am not sure I have it. I could find it.
    Chairman Levin. Who wrote it?
    Mr. Walker. I did.
    Chairman Levin. In addition to the one that we have 
referred that you sent to Mr. McCracken?
    Mr. Walker. Yes, sir.
    Chairman Levin. That is the one we referred to which is at 
Tab 3. [Pause.]
    Mr. Walker, take a look, if you would, at Tab 3. This is 
the memo that we have referred to where it came from you to Mr. 
McCracken where you talked about how they were engaged in 
unauthorized training, showed poor judgment, and no reason to 
have had that weapon in the position it was. Are you saying in 
addition to that, there was a memo that you wrote?
    Mr. Walker. Yes, sir.
    Chairman Levin. All right. Would you have a copy of that 
memo somewhere?
    Mr. Walker. I will give my best shot to look it up, sir.
    Chairman Levin. All right. Thank you.
    Who is that to?
    Mr. Walker. I would say it was just a report. It was not 
directed to anyone. It was an incident report.
    Chairman Levin. Was it handed to somebody, given to 
somebody, or sent to somebody?
    Mr. Walker. I would have to look that up for you, sir.
    Chairman Levin. It could have been a report you wrote for 
yourself. Is that what you are saying?
    Mr. Walker. No, sir. It was not written for myself. I wrote 
it--it was an incident. It is standard procedure to write an 
incident report.
    Chairman Levin. Then who do you send that report to as a 
standard procedure?
    Mr. Walker. I would say it was attached as a file in an 
email and sent back to Moyock.
    Chairman Levin. To whom?
    Mr. Walker. Moyock, Blackwater.
    Chairman Levin. Sent to Blackwater, as far as you can 
remember.
    Mr. Walker. It went to Moyock, yes, sir.
    Chairman Levin. Can you check your files to see if you can 
come up with that report, which is, as you say, in addition to 
the December 10th report? Would you do that?
    Mr. Walker. Yes, sir, I will.
    [The information referred to follows:]

     Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.

    Chairman Levin. Thank you.
    Now, Colonel Wakefield, do you remember discussing this 
incident with Mr. Walker?
    Mr. Wakefield. Yes, sir, I do.
    Chairman Levin. Was that in your office?
    Mr. Wakefield. It was--I thought that it was outside, but 
it was on Camp Eggers and it was a day or 2 after the incident. 
I queried whether the report had been generated and then later 
confirmed that the CJ3, the operations center, had received the 
report.
    Chairman Levin. That report is Tab 3?
    Mr. Wakefield. No, sir. I do not know in what format the 
operations center----
    Chairman Levin. But you had confirmed that they had 
received a report from Mr. Walker?
    Mr. Wakefield. They would have received and should have 
received the report through TF Phoenix.
    Chairman Levin. Would that have been Mr. Walker's report?
    Mr. Wakefield. Again, sir, that should have been a separate 
generated report from the TF Phoenix.
    Chairman Levin. Okay.
    Mr. Wakefield. I am not sure if it was sent telephonically 
or in writing or----
    Chairman Levin. It could have been an oral report?
    Mr. Wakefield. Yes, sir. The team, the Paravant team, 
should have been under the direct supervision of a TF Phoenix 
element while conducting preparatory training at Camp Dubs, or 
Darulaman.
    Chairman Levin. Mr. McCracken, on November 25, the 
Blackwater country manager, Ricky Chambers, emailed you that 
Paravant should not approach the Bunker 22 issue with 
Wakefield. Do you remember that?
    Mr. McCracken. I have seen documents to that effect, sir.
    Chairman Levin. Did you ask Ricky Chambers why he did not 
want to tell Colonel Wakefield about the Bunker 22 issue?
    Mr. McCracken. I am not sure if I did or not, sir. Maybe I 
did.
    Chairman Levin. Why would you know that the company would 
want to hide this issue from Colonel Wakefield?
    Mr. McCracken. I do not know why the company would want to 
hide from Colonel Wakefield.
    Chairman Levin. But you got an email saying do not talk to 
Colonel Wakefield about the Bunker 22 issue?
    Mr. McCracken. I am not sure why he would have said that.
    Chairman Levin. Did you ever talk to him?
    Mr. McCracken. Colonel Wakefield, sir?
    Chairman Levin. No. The person who wrote you, Ricky 
Chambers.
    Mr. McCracken. I do not recall asking Ricky about that, no.
    Chairman Levin. As to why he would ask you not to do that. 
Did you talk to Colonel Wakefield about the Bunker 22 issue?
    Mr. McCracken. I informed Colonel Wakefield that we were 
able to get weapons through Blackwater.
    Chairman Levin. Did you say from Bunker 22?
    Mr. McCracken. I do not believe I told him from Bunker 22. 
To me they were just weapons from Blackwater.
    Chairman Levin. All right. [Pause.]
    Mr. Walker, we are just looking for one document.
    The person who was the shooter at that December 2008 
incident, I gathered he was fired. Was he also removed from the 
country or was he sent out of the country?
    Mr. Walker. He was sent out of the country, yes, sir.
    Chairman Levin. Whose decision was that?
    Mr. Walker. I had recommended to Mr. McCracken that I 
relieve him of his duties and send him home right away. Mr. 
McCracken agreed with me. As soon as we were happy with the 
investigation, we got him on the next plane.
    Chairman Levin. Was there a policy to get people who were 
involved in incidents out of the country quickly because 
incidents would go away if that happened?
    Mr. Walker. No, sir. You would be saying that we had 
incidents that we were trying to remove people from. When we 
had a problem with someone, I would recommend to Mr. McCracken 
that the person be relieved. He agreed with me and we got him 
an airplane ticket home.
    Chairman Levin. Was one of the reasons that incidents would 
tend to go away if people left the country?
    Mr. Walker. No, sir.
    Chairman Levin. My staff says that you told them something 
different. Do you remember telling my staff that incidents 
would tend to go away if the people who were involved in the 
incidents left the country? Do you remember telling my staff 
that?
    Mr. Walker. That would have been under the May issue----
    Chairman Levin. Do you remember telling my staff that for 
either incident?
    Mr. Walker. No, sir.
    Chairman Levin. Okay.
    Gentlemen, thank you. We appreciate your coming here today, 
and you are excused.
    We will now go to panel 2. [Pause.]
    Our second panel is the following: Fred Roitz. Am I 
pronouncing your name correctly, Mr. Roitz?
    Mr. Roitz. Yes, Mr. Chairman.
    Chairman Levin. Thank you. Fred Roitz, former Blackwater 
Vice President for Contracts and Compliance and the current Xe 
Services Executive Vice President of Contracts and Chief Sales 
Officer; and Dr. James Blake, who is the Program Executive 
Officer and head of contracting at PEO STRI.
    Thank you, gentlemen, for coming today.
    Mr. Roitz, I gather that you signed the Paravant contract, 
is that correct, with Raytheon?
    Mr. Roitz. Yes, Mr. Chairman.
    Chairman Levin. Yes, thank you for reminding me. Did either 
of you have an opening statement?
    Mr. Roitz. Yes, Mr. Chairman.
    Chairman Levin. Thank you very much. I am sorry I jumped 
over that.
    Mr. Roitz.

 STATEMENT OF FRED ROITZ, FORMER VICE PRESIDENT FOR CONTRACTS 
AND COMPLIANCE, BLACKWATER; CURRENT EXECUTIVE VICE PRESIDENT OF 
      CONTRACTS AND CHIEF SALES OFFICER, XE SERVICES, LLC

    Mr. Roitz. Chairman Levin, Ranking Member McCain, Senators, 
my name is Fred Roitz. I am the Executive Vice President and 
Chief Sales Officer of Xe Services LLC.
    Chairman Levin. Did you hear my comment about a 5-minute 
opening statement?
    Mr. Roitz. Yes, Mr. Chairman.
    Chairman Levin. Thank you.
    Mr. Roitz. Xe Services is the parent company of Paravant 
LLC. Before joining the company, I was in the U.S. Army. I 
retired as a lieutenant colonel after 20 years of service with 
my last assignment as the Commander of the Northern Region 
Contracting Center.
    I have personally seen the transformations at Xe Services 
under our new President and Chief Executive Officer (CEO), Joe 
Yorio. I am an executive of the old company, and I have 
witnessed the company moving forward from an entrepreneurial 
business to a company with a world-class corporate governance 
philosophy.
    At the outset, I want to express for myself and Xe Services 
our most profound condolences and deep sadness for the terrible 
loss of life and injury on May 5, 2009. The independent 
contractors' actions that night clearly violated company 
policies against the use of alcohol, unauthorized use of 
vehicles, and taking weapons outside the training area. Those 
contractors are being held accountable by the law, as they 
should be.
    Xe Services will continue to provide security for U.S. 
diplomats, civil servants, congressional delegations, and other 
official visitors. Our work has been highly commended, most 
recently in 2009 by the Inspector General of DOS who said our 
personnel security specialists are well-trained and highly 
professional.
    But the heart of the company is providing training, 
training for the U.S. domestic police forces, for the U.S. 
military forces, as well as the Afghan forces. In 2009 alone, 
we trained more than 38,000 troops in the ANA which is critical 
to the success of the U.S. mission in Afghanistan.
    Blackwater was an entrepreneurial company that experienced 
significant growth in a short period of time, largely in 
connection with supporting critical U.S. diplomatic and 
military missions in Iraq and Afghanistan. Much of that work 
occurred in a high tempo, dangerous environment. Unfortunately, 
there were times when some members of the old company supported 
those missions at the expense of complying with important 
administrative and regulatory requirements.
    Today Xe is a reformed company with a different approach. 
While we are just as focused as before on the success of the 
mission, we have strengthened our focus on corporate governance 
and accountability. Immediately after taking charge in 2009, 
Mr. Yorio and the new management team engaged in an intensive 
top-to-bottom review of all company contracts. They identified 
the company's operational performance was exceptional and well-
received by our customers. However, they identified gaps in the 
performance of regulatory and administrative functions. As a 
result of that review, which continues, 9 vice presidents, more 
than half of the total, and 16 directors have left the company.
    Xe is developing and implementing new compliance guidelines 
and training, including the new anticorruption policy. The 
company has instituted a new anonymous whistleblower hotline 
operated in multiple languages by a well-respected and 
independent third party.
    Finally, the company has instituted a new corporate 
governance structure that will include a board of directors 
with a majority of independent directors, including the 
chairman of the board.
    I would like to turn my attention now to the Raytheon/
Paravant contract. I want to stress our personnel operated in a 
high-threat environment where the training locations were 
unsecure and the Afghan troops were fully armed. We should not 
minimize the risk of the Paravant personnel and the 
environment. This is particularly a concern to a company that 
has lost 37 individuals in support of our country's overseas 
mission.
    In my detailed written statement, I have been very candid 
about the lessons we have learned and the changes we have 
implemented in working toward the goal of ensuring those 
mistakes never happen again. To summarize, policies and 
procedures were not followed because of Paravant's prior 
management. Paravant's leadership ultimately reported to me, 
and I accept my share of responsibility. That leadership and 
the company director failed to keep me adequately informed that 
well-established basic policies and practices were not 
followed. These include a training requirement for independent 
contractors before they are sent to Afghanistan, incomplete 
vetting of independent contractors, and permitting independent 
contractors to possess weapons without the proper 
authorization. Although Raytheon and the military were aware of 
the weapons and were in the process of obtaining those 
authorizations, the contractor should not have possessed those 
weapons without the proper regulatory authorization.
    I can assure the committee that this new Xe Services would 
act differently today. We simply will not send our personnel 
overseas without the proper authorization for a weapon, where 
needed, and without full compliance with all requirements. We 
have put in place new leadership and procedures to help ensure 
this commitment is met.
    Let me close with an important point about the tragic May 
5, 2009, event. The project manager, team leader, and assistant 
team leader were relieved of their responsibilities shortly 
before that incident. The individuals involved in that incident 
violated expressed, existing, and clear company policies not to 
use alcohol, not to take a company vehicle for unauthorized 
use, and not to take weapons outside the training range.
    Xe Services will continue to serve the U.S. Government and 
all our customers with professionalism the new management 
demands. Thank you.
    [The prepared statement of Mr. Roitz follows:]
                    Prepared Statement by Fred Roitz
    Chairman Levin, Ranking Member McCain, Senators. My name is Fred 
Roitz and I am an Executive Vice President and the Chief Sales Officer 
of Xe Services LLC. Xe Services is the parent of Paravant LLC. Before 
joining the company I was in the U.S. Army. I retired as a lieutenant 
colonel following service as commander of the Northern Region 
Contracting Center for the Army Contracting Agency and the commander of 
Defense Contract Management Agency Raytheon Fort Wayne.
    Before I begin, let me express my condolences for the May 5, 2009, 
incident. I am, personally, deeply saddened by the terrible loss of 
life and injury. The independent contractors' actions that night were 
in clear violation of many company policies, such as alcohol use, 
unofficial vehicle use, and weapons policies. Those independent 
contractors are being held accountable by the law, as they should be. 
Mr. Chairman and Senators, I express my personal condolences--and 
condolences on behalf of Xe Services--for that terrible and regrettable 
loss of life and injury.
    On behalf of Xe Services and its new management team, I thank the 
committee for the opportunity to appear today and to assist the 
committee in its factfinding mission. For the last 7 months, Xe 
Services has been cooperating with the committee's investigation of 
security contractors in Iraq and Afghanistan. The company will continue 
to support the committee's work.
    While providing testimony today is consistent with the company's 
support of the committee's work, the company was initially informed 
weeks ago that the committee was not seeking testimony from a company 
executive. Other witnesses were asked to appear as early as February 1, 
2010, but I received the committee's letter on February 17, 2010. We 
regret that, for whatever reason, we did not have the same opportunity 
to prepare for this hearing as others. We also regret that the 
committee did not allow my colleague, Mrs. Danielle Esposito, the 
company's new Executive Vice President and Chief Operating Officer to 
appear alongside me. To the extent the committee makes inquiries 
regarding the operational changes implemented by the company's new 
management team, including personnel actions and reforms taken in 
connection with Paravant LLC, Mrs. Esposito would be able to provide 
the most comprehensive responses.
    Having said that, I will do my best to answer the committee's 
questions. If I am unable to answer any particular question, my 
colleagues and I will work to find the answer and report to the 
committee as soon as we are able.
    I would like to touch briefly on three topics. First, I would like 
to discuss the significant reforms that have occurred at Xe Services, 
which is, in many significant ways, a new company when compared to the 
old Blackwater. Second, I would like to describe the nature of the work 
that Xe Services performs in support of critical U.S. Government 
missions around the world, including the work Paravant was performing 
under its subcontract with Raytheon. Finally, I would like to address 
the Paravant program generally, including the company's lessons 
learned, as well as the May 5, 2009, incident in Kabul, which is one of 
the subjects of this hearing.
                   xe services is a reformed company
    Blackwater was an entrepreneurial company that experienced 
significant growth in a short period of time. The great majority of 
that growth occurred in connection with supporting critical U.S. 
diplomatic and military missions in Iraq and Afghanistan. Much of that 
work occurred in high-tempo and dangerous environments. Unfortunately, 
there were times when the first priority of some members of the former 
leadership of the company was supporting those missions, even at the 
expense of complying with administrative and regulatory requirements. 
That will not happen under the company's new leadership team, which 
emphasizes core values of honesty, integrity, reliability, and 
accountability. At Xe Services, our leaders, employees, and independent 
contractors remain just as focused on the success of the mission as 
before--that is, on providing the best possible service to the U.S. 
Government--but only with full compliance and accountability.
    This focus has been instilled by our President and Chief Executive 
Officer, Joe Yorio, who joined the company in March of last year. Mr. 
Yorio brings to Xe Services more than 9 years of U.S. Army Special 
Forces experience, as well as 18 years in senior leadership roles in 
multinational companies like Unisource Worldwide, Corporate Express, 
and DHL, where he gained the reputation of a leader who fixes problems. 
In addition to his focus on responsibility and accountability, he is 
working to rationalize and professionalize all aspects of the company's 
business. He is a hands-on leader, who travels frequently to 
Afghanistan and the other countries where the company operates to 
supervise and oversee its employees and independent contractors, as 
well as to ensure that the company is meeting the requirements of our 
U.S. Government customers.
    Also appointed to the company's senior management in March 2009 was 
Executive Vice President and Chief Operating Officer Danielle Esposito. 
Mrs. Esposito, who has been with the company for 10 years, has been one 
of the key managers historically pushing for reforms inside the 
company. In recognition of her efforts, unique knowledge, and skills, 
Mrs. Esposito has overall responsibility for leading the company's 
operations in training and security, among other areas.
    Immediately after taking charge in March 2009, Mr. Yorio and Mrs. 
Esposito have engaged in an intensive top-to-bottom review of all 
company programs and leadership with a focus on performance, 
accountability, and responsibility for administrative and regulatory 
compliance. They identified that the company's operational performance 
was exceptional and well-received by its customers. However, they 
identified some gaps in performance of regulatory and administrative 
functions. As a consequence of this review, which continues, 9 vice 
presidents (more than half of the total) and 16 directors have left the 
company.
    To give the committee some idea of the scope of the task facing the 
new management team in early March 2009, the company had an estimated 
700 employees in North Carolina, 1,200 independent contractors 
performing personal protective services in Iraq and Afghanistan, 100 
independent contractors providing aviation services in Iraq and 
Afghanistan, and 200 independent contractors training the Afghan Border 
Police (ABP) and Narcotics Interdiction Unit (NIU). Paravant's training 
of the Afghan National Army (ANA) represented an additional 72 
independent contractors in Afghanistan and 3 employees at the company 
headquarters in North Carolina. Senior management's review was 
intensive and their reforms were rapid.
    Recognizing that compliance must be a cornerstone of the new 
company and its new culture, Mr. Yorio and Mrs. Esposito quickly 
restructured Xe's legal department, first by retaining a partner from 
Crowell & Moring, a law firm with a top-tier government contracts 
practice, as its Acting General Counsel, and then by recruiting and 
hiring a new General Counsel, Christian Bonat, who most recently served 
as Senior Counsel to the General Counsel of the Department of Defense 
(DOD) during the Obama administration and previously as the Deputy 
General Counsel, Legal Counsel, of DOD in the Bush administration.
    The company has adopted a new anticorruption policy, and it is in 
the process of developing and implementing comprehensive compliance 
guidelines and training, to help to ensure that all personnel are 
responsive to the requirements of U.S. law. The company also is 
responding to recent public allegations of violations of the Foreign 
Corrupt Practices Act. While the company believes that there is no 
basis to these allegations--the funds referenced in the allegations 
were intended to be and actually were used to make condolence payments 
to Iraqi families with the authorization and encouragement of the 
Department of State (DOS)--it nonetheless is taking them seriously and 
is fully cooperating with the subsequent Department of Justice (DOJ) 
investigation.
    The company's commitment to accountability is further reflected in 
the hiring of Karen Jones, Vice President for Export Compliance, who 
reports to me. In previous years, the company's export compliance 
program was inadequate to address the regulatory requirements for 
exports of defense articles and services in support of U.S. Government 
missions. The company has taken responsibility for those shortcomings 
by fully cooperating with DOS and its investigation, and by instituting 
a comprehensive compliance program under Ms. Jones' leadership and the 
oversight of an independent Export Compliance Committee, consisting of 
a former Congressman and a former Federal judge. The company dedicates 
substantial resources to what is now a world-class export compliance 
program.
    The company has instituted a new anonymous hotline program operated 
by a well-respected and independent third party vendor, Ethical 
Advocate. Under the new web-based hotline program, anyone may file an 
anonymous complaint or allegation. The complaint or allegation is first 
screened for any conflict of interest, and then reviewed, investigated 
(using outside legal counsel where warranted), and formally closed out 
with appropriate action also where warranted. The Web-based hotline 
includes a reporting tool that informs the anonymous filer of the 
status of the complaint and its outcome. The third party vendor is 
capable of receiving complaints in multiple languages and dialects, 
which will soon include the ability to translate a number of Afghan 
dialects. The company wants to ensure that non-English speaking 
individuals are not inhibited or prevented from using the reporting 
mechanism.
    In addition to these changes in leadership and policy, the 
company's maturation is reflected in ongoing changes to Xe Services' 
ownership and corporate governance. I mentioned that the company has 
approximately 700 employees based for the most part in Moyock, NC. The 
vast majority of these employees are engaged in typical corporate 
functions, including human resources, information technology, 
accounting and finance, quality assurance, legal and compliance, food 
services, maintenance, janitorial, and other services. Approximately 
one-third are involved in operational and operational support roles. 
The company and our employees are good corporate citizens, supporting 
numerous charitable and civic organizations in the region, including 
the Special Olympics, the United Service Organization, the Boy Scouts, 
and local nonprofit food service organizations.
    In recognition of the importance of our employees to the company's 
overall success in supporting critical U.S. Government missions, the 
company is in the process of creating an Employee Stock Ownership Plan 
under which the company's employees will own approximately 30 percent 
of its equity. Employees will be represented by Employee Stock 
Ownership Plan trustees, and the company's management will owe 
fiduciary duties to its employee-owners.
    With new ownership, the company also will institute new corporate 
governance in the form of a board of directors that will include a 
majority of independent directors with backgrounds that will bring the 
highest integrity to the governance of our new company. The Chairman of 
the Board will be an independent director.
    These changes in personnel, attitude, focus, policy and practice, 
ownership, and governance represent a break from the past. The new Xe 
Services remains committed to our Nation's critical missions. We are 
equally committed, however, to a culture of compliance that in all 
circumstances reflects a responsible U.S. Government contractor.
         xe services supports critical u.s. government missions
    Many people believe that the company got its start after September 
11, 2001, and that it began by providing personal protective services. 
But this is not the case. In fact, the company was awarded its first 
significant government contract after the attack on the USS Cole on 
October 12, 2000, under which it trained U.S. Navy sailors to protect 
their ships against similar attacks in the future.
    While Xe Services will continue to provide security and expand into 
other areas of service, the company remains--at its heart--a training 
company. That is one of our core competencies, it is how we are 
currently supporting the U.S. military's mission in Afghanistan, and it 
is how we hope to continue to support the U.S. mission in Afghanistan 
in the future. The need for training of Afghan troops and police is 
critical. Recent press coverage of the Marja offensive has highlighted 
the importance of quality training of Afghan troops. Such training of 
the ANA is critical to the success of the U.S. mission there. We are 
dedicated to supporting this mission. In 2009, we trained 38,657 ANA 
troops, through the Paravant program. We performed this training in a 
high-threat environment where the training locations were unsecured. Xe 
Services also trained and graduated 3,700 ABP personnel and 5,708 NIU 
personnel in 2009. This training is done in hazardous and often remote 
environments.
    We not only have trained foreign military and police personnel at 
the behest of the U.S. Government overseas, we also trained 
approximately 20,000 military, State and local law enforcement, and 
civilian personnel, at our three U.S. training facilities in 2009.
    Xe Services, through its subsidiary Presidential Airways, provides 
aviation support and medical evacuation services to DOD personnel in 
Africa. Just last week, our personnel evacuated a congressman from 
Niger during civil unrest.
    The company continues to protect the lives of U.S. diplomats and 
other government personnel in Afghanistan, including congressional 
delegations. According to an August 2009 Performance Audit by DOS 
Inspector General (IG), we have ``met each of [the Bureau of Diplomatic 
Security's] security goals'' in fulfillment of our DOS security 
contract in Afghanistan. The Office of the IG further reports that our 
personal security specialists are well-trained and highly-professional, 
and that our customers--the U.S. personnel the company protects--state 
that our personnel are professional, make them feel secure, and are 
respectful to both officials under chief of mission authority and their 
Afghan counterparts. Through more than 4 years of personal protective 
work in Afghanistan, no one under our protection has been killed, and 
the company work under DOS contract has never experienced a lethal 
escalation of the use of force. For reference, we performed 2,730 
personal protective missions in Afghanistan during 2008 alone.
    In the process of carrying out our work for the U.S. Government in 
incredibly challenging environments, we have lost 37 of our colleagues, 
who have sacrificed their lives in support of our country's missions.
    The thread that runs through all of these services is that our 
company and its subsidiaries, provide mission-critical services to the 
U.S. Government both at home and in the world's most challenging 
operational environment. Our performance is highly regarded by those we 
train, transport, and protect. Indeed, we seek to exceed minimum 
standards of conduct, for example, by implementing General Stanley 
McChrystal's Counterinsurgency Guidance for all our deployed personnel 
in Afghanistan. That document, which is binding on NATO forces but not 
necessarily on contractors, directs personnel to be conscious of the 
need to protect Afghan nationals in all circumstances, as well as 
constantly to be aware of the need to win their hearts and minds. Xe 
personnel are directed to follow this guidance in performing our 
missions in Afghanistan. The new Xe Services is focused on adding to 
our record of performance the accountability and responsibility 
demanded by the company's new management.
                       raytheon-paravant contract
    I will discuss the Raytheon-Paravant contract in general terms 
first, including the company's lessons learned, before addressing the 
May 5, 2009, incident.
    The new management team's review of all company programs included a 
thorough review of the Paravant program. Almost immediately after Mr. 
Yorio and Mrs. Esposito's arrival at Xe, a number of issues requiring 
further investigation were identified, including, for example, the 
absence of Letters of Authorization (LOAs) that approved the possession 
and use of weapons by Paravant's independent contractors before being 
deployed to Afghanistan. Xe Services was working to understand and 
address such issues when the May 5 incident occurred. Indeed, the 
company's new management understood, and the documents provided to the 
committee support, that Raytheon's leadership and CSTC-A and PEO STRI 
were not only aware of the weapons possessed by Paravant personnel, but 
they were actively seeking to amend the LOAs to approve their use.
    As a wholly-owned subsidiary of Xe Services, Paravant had required 
polices, procedures, and practices. It is clear in retrospect, however, 
that these rules were not always followed. In my view, the failure to 
commence this program following well-established policy was a failure 
of Paravant's former leadership and the company director overseeing 
that program. That leadership and company director reported to me at 
the time, and I accept my share of the responsibility. That leadership 
and company director failed to keep me adequately informed that well-
established basic policies and practices were not being followed. I 
believe they were concerned with performing the mission--which we have 
been told by the U.S. military that Paravant performed superbly--but 
there clearly was a failure to take other important steps, which I will 
describe.
    I can commit to this committee that the new Xe Services would not 
act in the same way today. Deploying personnel overseas with the 
assumption that problems will be resolved after deployment is not the 
way this company operates today.
    It is important for the committee to understand how the contracting 
and subcontracting process worked with respect to this contract. For 
example, Paravant as a subcontractor did not have the authority to 
interact directly with the contracting authority (PEO STRI) to obtain 
weapons authorization. It was up to the prime contractor, Raytheon, to 
work with PEO STRI to obtain such authorization.
    I will now discuss each of the Paravant issues our new management 
identified and discuss the lessons the company has learned.
                              crc training
    The policy of the company--both during the performance of the 
Raytheon-Paravant subcontract and today--is not to deploy independent 
contractors without any required CONUS Replacement Center (CRC) 
training. CRC training is a 1-week course that includes, among other 
things, medical, dental, and vision exams; a physical fitness test; and 
cultural sensitivity training. Quite simply, the company's policy was 
largely ignored by the Paravant leadership, although Mr. McCracken was 
working to obtain a waiver that would have allowed CRC training to be 
provided to independent contractors at our facility in North Carolina, 
as was approved with respect to other company contracts. The company 
today is authorized to provide CRC training for all U.S. Government 
programs and personnel, including for individuals affiliated with other 
contractors. While the documents sent to the committee indicate that 
Raytheon and the military were aware that Paravant had deployed 
personnel without CRC training, that is no excuse.
    Today, our company would not permit deployment of independent 
contractors without CRC training if required by the contract. Moreover, 
the current culture encourages program leadership to elevate any 
potential noncompliance, and additional and vigorous oversight, 
primarily in the operational side of the company, ensures that the 
policy is followed. A program manager or any individual who violates 
this policy will be disciplined, up to and including prompt 
termination.
                   vetting of independent contractors
    New management also identified failures in the Paravant program 
related to the vetting of independent contractor candidates. It is 
company policy to verify the military record, including discharge 
status, of all prospective independent contractors who are veterans. 
This is done by requiring that the individual submit a Form DD-214, 
which is a form listing the vital data of an individual's military 
career, including training, assignments, deployments, and discharge 
status. It appears that Paravant required prospective independent 
contractors to sign written statements attesting to this information. 
With respect to the two independent contractors involved in the May 5, 
2009, incident, each signed a statement indicating that he had been 
honorably discharged from military service. Apparently, Mr. McCracken 
did not always verify these statements by requiring submission of Form 
DD-214. The documents submitted to the committee indicate that the 
company had a written policy to obtain Form DD-214s in November 2008 
and that Mr. McCracken at least started requiring DD-214s on new 
recruits as of December 17, 2008. To the extent that the Paravant 
program failed to obtain such forms, it was a violation of company 
policy then, and it would be a violation of company policy today.
    The company has taken a number of steps to ensure proper vetting of 
independent contractor candidates. First, immediately following the May 
5, 2009, incident, the company revetted all Paravant personnel. Second, 
the company under new management has an ongoing process of periodically 
revetting all Xe Services independent contractors worldwide. Third, 
immediately following the May 5, 2009, incident, the new management 
restructured company's centralized recruiting office and made it part 
of the human resources division to ensure adherence to standard 
operating procedures. Finally, the head of human resources has been 
elevated to a vice presidential position and reports directly to the 
CEO. This reflects the company's commitment to appropriate vetting, and 
ensures that human resources policies, procedures, and practices are 
respected.
                         weapons authorizations
    It has been and remains company policy that employees and 
independent contractors deployed overseas may not possess firearms 
unless they hold appropriate authorizations for the relevant theater 
and contract. In the case of a DOD contract in Afghanistan, it is 
necessary to have an LOA that includes a weapons authorization, as well 
as an arming agreement issued by CENTCOM. This policy was not followed 
by the then-Paravant leadership, which elected to direct the issuance 
of weapons to Paravant independent contractors despite the absence of 
proper authorization. As previously mentioned, however, the company's 
new management was in the process of trying to understand the current 
status of weapons authorization given that both Raytheon and CSTC-A 
were well aware of the Paravant weapons and were seeking to revise the 
LOA to formally authorize the use of such weapons. Indeed, it is the 
responsibility of the prime contractor to seek this authorization from 
the contracting authority if it is necessary for performance of the 
contract. We are not aware of an instance where Raytheon or the U.S. 
military told Paravant independent contractors not to carry weapons. 
Moreover, the documents submitted to the committee support that after 
an incident involving unapproved use of weapons at a firing range in 
December 2008 (resulting in the termination of a team leader), 
Paravant's leadership directed the limited use of such weapons while 
formal approval was being sought by Raytheon and CSTC-A from PEO-STRI, 
including that they were not to be used outside of the forward 
operating base and locked up when not being used on the range. However, 
this is not an excuse for failure to comply with applicable U.S. 
Government requirements.
    Today, in a situation where the company believed that possession of 
weapons for personal protection was necessary to the safety of our 
independent contractors, and LOAs with weapons authorization had not 
been issued, we simply would not deploy our independent contractors to 
theater without appropriate weapons authorizations. In addition, we 
would work harder with the prime contractor, in this case Raytheon, to 
have the contracting authority amend our independent contractors' LOAs. 
Similarly, should the company determine that the safety of any 
personnel deployed without a weapons authorization is in jeopardy, the 
company would order its personnel to stay in their forward operating 
bases until authorization was given, and if it were not given, we would 
request a termination for convenience.
    Other policy changes make it highly unlikely that individuals 
lacking appropriate authorization would obtain weapons from the 
company's secure weapons facility in Afghanistan. Current weapons 
policies do not permit issuance of weapons to individuals without 
appropriate written authorization. Additionally, regular inventories 
are performed to confirm the location of weapons in the company's 
custody. Our management team is vigorously enforcing our new weapons 
policies.
                           bunker 22 weapons
    It is my understanding that there is nothing inherently wrong with 
Xe Services or other contractors receiving weapons from Bunker 22 for 
use in U.S. Government contracts. Bunker 22 is a weapons facility under 
the control of the ANA and the mentorship of the U.S. Army. With the 
assistance of the U.S. military mentor assigned to Bunker 22, the 
company obtained weapons in bulk for use on a number of U.S. Government 
contracts. The use of the Bunker 22 weapons was not limited to 
Paravant, and included other company programs where the LOAs authorized 
the personnel to possess a weapon. However, the manner in which Bunker 
22 weapons were provided to the company lacked appropriate controls and 
oversight.
    Today, if after authorization by appropriate military officials, 
the company were issued weapons from Bunker 22, our new weapons 
policies and controls would apply. That is, they would be accounted for 
in our quarterly inventories, and no weapon would be issued without 
appropriate written authorization, which, for a DOD contract, includes 
an LOA with weapons authorization and a CENTCOM issued Arming 
Agreement.
    The company has voluntarily returned many of the firearms it 
obtained from Bunker 22 to the Afghan Government under the supervision 
of the Disbandment of Illegal Armed Groups. The remainder have been or 
will be either: (a) turned over to the U.S. Army for destruction; or 
(b) turned in to Bunker 22 under the supervision of CSTC-A. For 
independent contractors performing other contracts for which weapons 
authorization has been obtained, replacement weapons were purchased by 
the company in the United States and were exported to Afghanistan with 
a valid export license. We understand from the Disbandment of Illegal 
Armed Groups that Xe Services is the only contractor that obtained 
weapons from Bunker 22 that has returned such weapons. Paravant 
independent contractors were never rearmed.
                       the may 5, 2009, incident
    Xe Services' actions in the days surrounding the tragic May 5, 
2009, incident reflect our company's new approach and focus. From mid-
February to mid-March 2009, Mr. McCracken was transitioning from his 
role as head of Paravant to Raytheon's in-country manager. As a result 
of the company's new management reviewing the Paravant program, the new 
Director of Paravant, Mr. Hugh Middleton, traveled to Afghanistan on 
April 28, 2009, for the purpose of relieving the in-country program 
manager, evaluating other personnel, and instructing Paravant personnel 
regarding certain company policies and procedures.
    Mr. Middleton delivered a briefing on May 1, 2009, to all Paravant 
team leaders, the substance of which was to be passed down to all 
independent contractors. Among other things, the briefing expressly 
restated a number of crucial company polices, several of which were 
subsequently violated by the off-duty independent contractors involved 
in the May 5 incident. He reiterated the company's no alcohol policy, a 
policy that each independent contractor signed before starting 
performance. He also instructed the Paravant personnel that weapons 
could not be carried away from the training range. Finally, he directed 
that vehicles were to be used for company business only. My 
understanding is that the four off-duty independent contractors 
involved in the incident drank alcohol, carried weapons off the 
training range, and utilized a company vehicle for an unauthorized 
purpose unrelated to contract performance.
    After reviewing Paravant's leadership on the ground, Mr. Middleton 
informed Raytheon that it was relieving Paravant's in-country program 
manager, Mr. Walker. Mr. McCracken, in his new capacity with Raytheon, 
opposed Paravant's replacement of Mr. Walker, whom he had selected 
while working for Paravant. Mr. Middleton, several days later, 
terminated a team leader and an assistant team leader for performance 
reasons. These terminations occurred on May 5, 2009.
    The company recognized the potential consequences that this tragic 
incident may have on the U.S. military's counter-insurgency efforts and 
strategy in Afghanistan. To that end, the company promptly notified and 
met with ANP and Ministry of Interior officials, and fully cooperated 
with all U.S. and Afghan law enforcement officials. At company 
initiative, and with the encouragement and facilitation of U.S. Army 
counter-insurgency personnel, the company's in-country program 
management met with families of the victims shortly after the incident 
and provided compensation for their losses. The company's new President 
and CEO also traveled to Kabul to meet with the families and express, 
personally and on behalf of the company, his deepest condolences for 
their loss.
    The morning after the incident, the company's management took the 
initiative and ordered the immediate collection of all weapons from 
Paravant personnel. A vice president and a director of U.S. Training 
Center, another Xe Services subsidiary, traveled to Afghanistan the day 
after the incident to ensure that weapons were collected and that all 
personnel were cooperating with the military and Afghan investigations. 
The company also promptly terminated the four off-duty independent 
contractors involved in the incident.
    I, and my colleagues at Xe Services, regret that the efforts of the 
new management team to address and correct legacy issues at Paravant 
had not been fully completed prior to the tragic loss of life and 
injury to Afghan civilians on May 5, 2009. However, it is important to 
point out that it is an unfortunate reality that it is difficult, if 
not impossible, to prevent tragedy when a number of individuals 
consciously choose to violate strong policies. The four off-duty 
independent contractors involved in the incident chose to breach a 
number of key company policies--they drank alcohol in contravention of 
the strict no alcohol policy; they left the forward operating base late 
at night and without authorization; they used a company vehicle for a 
unofficial purpose; and they carried weapons off-duty and away from the 
training range.
    Thank you.

    Chairman Levin. Thank you.
    Dr. Blake.

STATEMENT OF DR. JAMES T. BLAKE, PROGRAM EXECUTIVE OFFICER AND 
   HEAD OF CONTRACTING ACTIVITY, U.S. ARMY PROGRAM EXECUTIVE 
      OFFICE FOR SIMULATION, TRAINING, AND INSTRUMENTATION

    Dr. Blake. Thank you for the opportunity to provide 
testimony today on the important issue of oversight of RTSC and 
their subcontractor, Paravant LLC, under the Warfighter FOCUS 
contract.
    I serve as the Program Executive Officer and Head of 
Contracting Activity, U.S. Army PEO STRI. I am responsible for 
providing material solutions and services and modeling, 
simulation, training, and test instrumentation to support our 
soldiers.
    The PEO STRI executes a $3 billion program annually. More 
than 1,230 military, Government, civilian, and service support 
contractors perform this important mission. In addition, the 
PEO STRI's FMS program supports more than 40 countries.
    Warfighter FOCUS, a contract for training services, was 
awarded on June 6, 2007, to a team led by RTSC, the prime 
contractor. The contract does not provide private security 
contractors.
    The ANA weapons training program was awarded to Raytheon 
under the Warfighter FOCUS contract on September 5, 2008.
    There was a shooting incident in Kabul on May 5, 2009, and 
on May 7, 2009, Raytheon informed PEO STRI of this tragic 
event. I deeply regret the loss of life suffered by the two 
Afghan citizens and the sorrow this has brought to their 
families.
    On July 17, 2009, in response to PEO STRI's letter of 
concern, Raytheon informed PEO STRI that they would not renew 
the Paravant subcontract. Effective September 15, 2009, 
Paravant LLC was no longer performing under the Warfighter 
FOCUS contract.
    Thank you again for this opportunity to appear before you 
today and for the support Congress and the members of this 
committee have provided our soldiers, sailors, airmen, and 
marines. I am happy to answer any questions you may have.
    Chairman Levin. Thank you very much, Dr. Blake.
    Now, Mr. Roitz, first, in your statement to the committee 
that you had previously made, you said that CENTCOM rules 
relating to arming contractors were not followed by the then-
Paravant leadership which elected to direct the issuance of 
weapons to Paravant independent contractors despite the absence 
of proper authorization.
    Were you personally aware that Paravant trainers were 
armed?
    Mr. Roitz. I became aware, I believe, based on my 
recollection, Mr. Chairman, that they were armed in the 
December timeframe based on the incident that occurred on the 
training range.
    Chairman Levin. Did you know that they were armed without 
authorization before that?
    Mr. Roitz. No, Mr. Chairman. In fact, my assumption even in 
December would have been that they were armed with proper 
authorization because that procedure to become armed under a 
DOD contract is a very standard procedure. You have an LOA and 
you have the letter that is eventually signed by CENTCOM to 
allow the personnel to carry weapons.
    Chairman Levin. So you were not aware that there was a 
repeated request to CENTCOM which was rejected to arm those 
contractors.
    Mr. Roitz. No, Chairman, I do not believe I was aware.
    Chairman Levin. When do you think you first became aware?
    Mr. Roitz. I first became aware when Mr. McCracken was 
transitioning out. I believe that was the February-March 
timeframe. During the transition, Mr. LaDelfa was put in charge 
of Paravant. At that point, Mr. Yorio was also doing a bottoms-
up review with our new chief operating officer, Ms. Esposito, 
and that concern was raised by Mr. LaDelfa to the new 
management team. The information that I received was through 
Ms. Esposito.
    Right after that, Ms. Esposito directed that they get to 
the bottom of the issues: are we authorized to be carrying 
weapons or not and are there issues with the arming agreements?
    Mr. LaDelfa went down to Raytheon shortly thereafter, 
discussed this, and dispatched one of his personnel over to 
Afghanistan to meet with the people on the ground to ascertain 
whether there was any type of waiver or other authority 
granting them carrying the weapons.
    Chairman Levin. Now, the former Vice President for 
International Training and Operations, Jeff Gibson, told the 
committee that he made the decision to arm Paravant personnel 
without CENTCOM authority. Everyone knew about his decision and 
he definitely spoke with you about that decision. Is that true?
    Mr. Roitz. I do not recall any type of conversation of 
that.
    Chairman Levin. Do you deny that it happened?
    Mr. Roitz. I do not recall the conversation, Mr. Chairman.
    Chairman Levin. Paravant's contract with the military's 
arming regulations requires that armed contractors file a plan 
that spells out how contractors will coordinate with military 
authorities and request assistance in the event that they are 
attacked. Mr. Walker said that Paravant did not coordinate 
movements of its personnel with the military. He repeated that 
today.
    Do you know if that plan was ever filed by Paravant?
    Mr. Roitz. I do not know.
    Chairman Levin. Did you ever check to see if it was filed?
    Mr. Roitz. No, and I believe that that really would fall 
under the operational control of the leaders of Paravant, as 
well as Mr. Gibson in his role in operations.
    Chairman Levin. Blackwater acquired hundreds of AK-47s from 
Bunker 22 for its own personnel to use. General Petraeus has 
written us saying there is no policy or directive or order or 
instruction that allows U.S. military contractors or 
subcontractors to use weapons stored at 22 Bunker. That is what 
General Petraeus has told us [Tab 8].
    Were you aware that Blackwater acquired weapons from Bunker 
22 for its own contractor use?
    Mr. Roitz. Mr. Chairman, I believe the first I became aware 
of the Bunker 22--or the term Bunker 22 was during an inventory 
directed for export compliance in the April-May timeframe. It 
was an inventory for all defense-related articles overseas. 
When we received the list from Afghanistan, there was a 
significant amount of weapons on there that, from an export 
compliance point of view, we could not ascertain where they 
were sent. That caused a significant review by Ms. Esposito on 
the Bunker 22 issue, as well as our acting general counsel, Mr. 
Hammond.
    Chairman Levin. When did you first find out about that?
    Mr. Roitz. The investigation, Mr. Chairman?
    Chairman Levin. No. When did you first find out that 
Paravant and Blackwater were getting AK-47s from Bunker 22 for 
their own personnel?
    Mr. Roitz. I believe the first I had heard of Bunker 22 
weapons was, with Paravant, after the incident in May.
    Chairman Levin. Incident in May.
    Mr. Roitz. Yes.
    Chairman Levin. You were not aware of that fact before 
that?
    Mr. Roitz. I do not believe so, Mr. Chairman.
    Chairman Levin. When was the first time you found out that 
those weapons from Bunker 22 were going, or had been taken by 
Blackwater?
    Mr. Roitz. I believe, Mr. Chairman, it would still fall 
under the auspices of when we inventoried those weapons in the 
April-May timeframe.
    Chairman Levin. That would be May 2009.
    Mr. Roitz. April-May, correct.
    Chairman Levin. Now, in February of this year, we got a 
letter from your lawyer, which is Tab 15. It says that 
Blackwater is still using 53 weapons. Are you familiar with 
that letter?
    Mr. Roitz. I am familiar that a letter was sent. I am not 
familiar with its contents.
    Chairman Levin. Is that accurate?
    Mr. Roitz. I do not know, Mr. Chairman.
    Chairman Levin. You are responsible, are you not, for Xe's 
contract compliance?
    Mr. Roitz. That is correct, Mr. Chairman.
    Chairman Levin. The contract requires you to abide by all 
of the rules of CENTCOM?
    Mr. Roitz. We have multiple contracts, some deal with 
CENTCOM and DOD, others with DOS and obviously other agencies.
    Chairman Levin. It includes contracts that require you to 
comply with the CENTCOM rules and regulations?
    Mr. Roitz. Absolutely, Mr. Chairman.
    Chairman Levin. You are aware that there is a rule that you 
may not use weapons without authority and that you have no 
authority to use weapons from Bunker 22. You are aware of that?
    Mr. Roitz. I am not aware of the authority surrounding the 
Bunker 22 weapons. I am aware that arming agreements and 
information have to be provided by CENTCOM, and those rules are 
very strictly followed.
    Chairman Levin. The 53 weapons that you still have, do you 
know how many of those came from Bunker 22?
    Mr. Roitz. No, Mr. Chairman.
    Chairman Levin. Do you know that if you have such weapons, 
it is not permitted?
    Mr. Roitz. Mr. Chairman, I do not know if weapons from 
Bunker 22 are permitted or not. I was not aware of the General 
Petraeus email or the message.
    Chairman Levin. I thought you said you became aware after 
this May or April time period that Bunker 22 weapons are for 
the Afghan forces, not for our contractors.
    Mr. Roitz. No, Mr. Chairman. I think maybe I need to 
clarify. I became aware that Bunker 22 weapons were being used 
in the April-May timeframe. What they were authorized or not 
authorized for I was not aware.
    Chairman Levin. So until today, you have not been aware of 
the fact that those weapons are not for contractor use. They 
are for the ANSF.
    Mr. Roitz. Until General Petraeus' message was articulated, 
I was under the----
    Chairman Levin. Which was today, right, the first time you 
heard it?
    Mr. Roitz. I was under the impression that they were 
authorized for use for some of our operations in Afghanistan.
    Chairman Levin. Senator McCaskill?
    Senator McCaskill. That is a problem.
    Chairman Levin. It is more than a problem. You are the 
compliance officer, right?
    Mr. Roitz. For contracts compliance. We have all----
    Chairman Levin. The contracts include statements that you 
have to comply with CENTCOM rules. Right?
    Mr. Roitz. It is compliance with certain regulations 
regarding CENTCOM. That is correct.
    Chairman Levin. Okay, and one of those rules is, and 
Petraeus made it clear in this letter, something that you say 
you never heard of before, that those weapons in that bunker 
are for Afghan forces. We are trying to equip those forces so 
they can take responsibility for their own security. You are 
saying until today you were not aware of the fact that those 
weapons were not for use by contractors but were intended for 
ANSF. Is that correct?
    Mr. Roitz. That is correct, Mr. Chairman, but also I 
believe that the coordination, the paperwork withdrawing those 
weapons from Bunker 22, was not adequate or sufficient in its 
documentation. I believe the U.S. military was a part of the 
transfer of Bunker 22 weapons with their knowledge or with 
their consent in country in Afghanistan when they went to 
Blackwater.
    Chairman Levin. So, what you are saying is, if you got 
weapons, it was with the consent of the U.S. military and you 
were not aware, until today, that you were not supposed to get 
those weapons. Is that what you are telling us?
    I mean, look, you signed the contract. The contract says 
specifically that you have to comply with applicable law, 
treaties, and directives, including specifically CENTCOM's. 
What you are saying is you were not aware of that CENTCOM rule 
until today. That is what you are telling us.
    Mr. Roitz. Yes, Mr. Chairman, that is what I am telling 
you.
    Chairman Levin. Thank you.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    When I say it is a problem, it is not just a Blackwater 
problem, it is also a military problem that we have one thing 
coming from the top and the impression, I think, that not just 
you, Mr. Roitz, but Mr. McCracken and Mr. Walker were giving in 
the previous panel was that maybe you were not supposed to have 
the guns and maybe you were not supposed to be getting access 
to the guns and maybe you were not supposed to be carrying the 
guns, but you were doing this under the watchful eye of 
military that was around in the vicinity and no one was saying, 
``what are you doing getting anything out of Bunker 22.'' Is 
that correct?
    Mr. Roitz. I think there are two issues, Senator. The first 
issue is the arming of the personnel. As I articulated earlier 
in my oral statement and in my written statement, the personnel 
should not have been armed without the appropriate approval in 
their LOAs and CENTCOM LOA or to carry those weapons. That is a 
separate issue and that should not have happened, and it would 
not happen today.
    Senator McCaskill. Okay.
    Let us talk a little bit about Paravant and how it came 
about. Based on the public documents of last year, it says that 
Paravant had $80,000 in income. Is that accurate?
    Mr. Roitz. Last year being 2009?
    Senator McCaskill. Yes.
    Mr. Roitz. I could not see how that would be accurate. It 
would be more than that.
    Senator McCaskill. That is part of the problem here. Are 
there other cover corporations besides Paravant out there where 
you are putting a name on something so that people, like the 
previous witness, that was looking at these contracts, he said 
in the hearing today that he had no idea that Paravant was 
Blackwater. But yet, the people that were working for you in 
the theater said, ``well, yeah, we worked for Blackwater. 
Everybody knew we worked for Blackwater. Our paychecks came 
from Blackwater. We were Blackwater.'' Blackwater, Blackwater, 
Blackwater, Blackwater. Paravant just appears to be a classic 
example of a cover corporation in order for the people who were 
doing the contract not to know who they were really contracting 
with.
    Mr. Roitz. Senator, that is a very good question. I think 
that there was, as you discussed earlier, multiple layers of 
Raytheon and then the U.S. Government. Raytheon, from my 
understanding, requested that a company name be other than 
Blackwater. It was at Raytheon's request.
    Senator McCaskill. Okay. So now we are getting to the meat 
of the matter. You are saying on the record that Raytheon 
requested that Blackwater make up a name for a company so they 
could enter into a contract with Raytheon.
    Mr. Roitz. I am saying, Senator, that my understanding is 
that request for a company other than Blackwater, did come from 
Raytheon.
    Senator McCaskill. Something is really rotten in Denmark. 
The fact that the military was allowing this kind of cover 
corporation, if Blackwater is a problem, then we either have to 
admit that we are going to continue to contract with Blackwater 
and fix it or we cannot contract with them anymore. The 
American people have the right to be outraged that we are 
playing this kind of game with contracting. It is wrong. It is 
flat wrong.
    Now, I read your testimony that Xe has turned over a brand 
new leaf. Let us talk about background checks. Was Xe in 
existence in May 2009?
    Mr. Roitz. Yes, Senator.
    Senator McCaskill. So this brand new leaf, let me see if I 
get this straight. We had one guy--and I am going to put this 
in the record because I think it is important.
    [The information referred to follows:]

     [See Tab 38.]

    Senator McCaskill. We had Chris Drotleff that was hired. 
His military record included assault, insubordinate conduct, 
absence without leave, failure to obey an order, larceny, and 
wrongful appropriation. His criminal record, following his 
discharge from the Army, included convictions for reckless 
driving, disturbing the peace, assault and battery, driving 
while intoxicated, resisting arrest, and trespassing. Now, that 
is one of the people that you hired with this new leaf, Xe. It 
is one of the people you hired that shot innocent Afghan 
people.
    The other one, Justin Cannon, a trainer for Paravant, which 
we now know is nothing other than a made-up name on behalf of 
Blackwater, indicted also in the shooting. He was discharged 
from the U.S. military after he was absent without leave and 
tested positive for cocaine.
    It says in the contract that the company maintained a copy 
of military service records for the people it hired, but your 
company has informed the committee that it does not have the 
records of these two individuals in their files.
    Did you or did you not have the records when you hired 
these people to go over, who then allegedly inappropriately, 
and in a criminal fashion, have been indicted for killing 
innocent civilians in a country where we are trying to win the 
hearts and minds as one of our very top military priorities.
    Mr. Roitz. Senator, there are multiple issues, and I would 
like to address each one.
    First, I believe the two individuals that you have cited 
were hired as independent contractors in the November-December 
timeframe of 2008. That would have been prior to Mr. Yorio's 
arrival, as well as Ms. Esposito's taking over the chief 
operating officer position. The vetting of those personnel was 
not in accordance with the policies that were established then 
or the policies of today to vet the independent contractor 
personnel.
    Since Mr. Yorio took over, we moved the recruiting division 
underneath the human resources department and elevated that 
position and charged that to a vice president from a commercial 
organization that reports directly to Mr. Yorio to, one, 
highlight the importance of the recruiting and vetting process 
and, two, to give the direct line to the CEO to prevent issues 
that occurred back in the past.
    Senator McCaskill. Is every single person who is working 
for Blackwater now had the kind of background check that these 
two yahoos did not have?
    Mr. Roitz. Ma'am, we went back and rescreened all 
personnel.
    Senator McCaskill. Do you have military records for all of 
them?
    Mr. Roitz. I believe we do, ma'am.
    Senator McCaskill. Do you have military records for these 
two individuals who killed people?
    Mr. Roitz. We do not have those military records, ma'am.
    Senator McCaskill. All right.
    At the time that this happened, you were vice president of 
training and contracts. Right?
    Mr. Roitz. Contracts and compliance, ma'am.
    Senator McCaskill. Yes, okay.
    Now, let us talk about independent contractors. It keeps 
being referenced as independent contractors. That is 
fascinating to me that you would call these men--I am assuming 
maybe there are some women in the group--independent 
contractors, especially in light of the fact that there was a 
strict prohibition of your using independent contractors in the 
contract with Raytheon.
    Now, my legal background tells me that when you have 
somebody who is an independent contractor, it is usually 
because you want to avoid liability. Why in the world were you 
all using these people as independent contractors instead of 
employees?
    Mr. Roitz. Senator, the use of independent contractors 
precedes my work with Blackwater. I think the chairman asked a 
question about our Internal Revenue Service (IRS) filings, 
which we are fully cooperating with, and it has been going on 
for a number of years. We issue 1099s to the individuals. The 
actual rationale for it today, of why we use independent 
contractors, is a legacy item that goes back many years.
    Senator McCaskill. This letter in June 2009, after this 
occurred, your company or the pretend company, Paravant, took 
the legal position after these yahoos shot innocent people--you 
took the position that you had no responsibility for these 
folks because they were independent contractors. Is that true? 
[Tab 21].
    Mr. Roitz. I am not familiar with the document you are 
referring to.
    Senator McCaskill. I am now reading a letter that was 
written to the director of contracts at Paravant, which is your 
company. Right? [Tab 22].
    Mr. Roitz. Yes, ma'am.
    Senator McCaskill. This is from the manager of subcontracts 
at Raytheon. The letter says and especially troubling is 
Paravant's legal position, regarding the limits of its 
contractual responsibility for its trainers, grounded on the 
assertion that they are independent contractors.
    So you have to be aware that you all asserted a defense in 
terms of any liability under what happened, the negligence in 
not vetting these guys, putting them in theater without even 
checking their background, and not having their military files 
with the kind of backgrounds they have. You used the legal 
representation that they were independent contractors to say, 
``not us, not our fault, we have no responsibility.'' Is that 
not a fair statement?
    Mr. Roitz. Senator, I would like to review those documents 
and get back to the committee on them [Tab 37].
    Senator McCaskill. I think it is important that we get to 
this independent contractor thing, and I think it is something 
that we need to follow up with in terms of people in your 
position, Dr. Blake. If we are actually going to be putting on 
the battlefield, for training purposes, people who are working 
for private companies and going to be seen as our soldiers in 
terms of what they do and their actions are going to be held to 
the United States of America for accountability, it is very 
important that the company that hires them has a clear line of 
responsibility for what they do.
    We have already had this problem in Iraq where we have a 
contractor that killed one of our soldiers through their 
negligence and now is running around, even though they are 
still getting contracts from our Government. If you are going 
to get the contracts, Mr. Roitz--is that how you say your name?
    Mr. Roitz. Roitz.
    Senator McCaskill. Mr. Roitz, if you are going to get the 
contracts and make the money, you have to take the 
responsibility for what these guys do. I think Raytheon was 
correct when they said you had no right to call them 
independent contractors under the subcontract, and I want to 
make sure going forward that that is clear.
    Are there any other corporations that have new names that 
are actually Blackwater besides Xe and Paravant? Are there any 
others we should know about so we can identify them for what 
they are?
    Mr. Roitz. Senator, the corporate structure of what was 
formerly EP Investments, also known as Blackwater Worldwide, 
underwent a rebranding that the U.S. Training Center provides 
significant training services and security services to the U.S. 
Government.
    Senator McCaskill. I just want a list of all the names. If 
there are more names, I just want a list of all the names.
    Mr. Roitz. I think better, so I do not forget any, Senator, 
would be to provide the committee with an organizational chart 
with all the names on it.
    Senator McCaskill. Okay, that is great. Are there more than 
five? Are there 10, 20? Can you give me a ballpark number of 
how many different names there are under the umbrella?
    Mr. Roitz. We have many names from the different 
components. We have, for example, Aviation Worldwide Services, 
which provides aviation services to Transportation Command. We 
have Presidential Airways. We have Greystone.
    Senator McCaskill. Okay. Let us get the list.
    [The information referred to follows:]

     [See Tab 37.]

    Senator McCaskill. I know my time is expired. I just have 
one other question.
    Have you gotten any award fees for your work in Afghanistan 
as it relates to training?
    Mr. Roitz. I do not believe we have any award fee 
contracts, ma'am.
    Senator McCaskill. Okay.
    Thank you, Mr. Chairman.
    Chairman Levin. The contract which was submitted to 
Raytheon was signed by you. Is that correct?
    Mr. Roitz. Yes, Mr. Chairman.
    Chairman Levin. That was submitted in June 2008. Right? It 
is June 8 from Paravant. You signed it.
    Now, that proposal which went to Raytheon, when did 
Paravant come into existence?
    Mr. Roitz. It was shortly before that timeframe, I believe.
    Chairman Levin. I just want to drive home this point, 
Senator McCaskill, about just how fake this was. I know Senator 
McCaskill is going to be interested as well to hear this.
    This is a contract that was submitted by Paravant, which is 
a shell company, to Raytheon on June 8, 2008. It says in the 
proposal the following: ``Paravant has many years of experience 
in identifying and selecting top candidates for training.'' As 
a matter of fact, Paravant did not even exist for many years. 
Is that not right, Mr. Roitz?
    [The information referred to follows:]

     [Information retained in committee files.]

    Mr. Roitz. I believe what that statement was attributing to 
was the recruiting and vetting functions that service all of 
the companies.
    Chairman Levin. Paravant came into existence in 2008. 
Right?
    Mr. Roitz. That is correct.
    Chairman Levin. It could not have many years of experience 
at anything. That is your contract proposal. How can you 
possibly suggest in writing, other than the fact that Raytheon 
was very well aware of the fact that Paravant came into 
existence exactly so that they would not have to have a 
letterhead that came from Blackwater. Instead, you got a 
letterhead coming from Paravant.
    I am just asking you the question. Your proposal says 
something which is not true. Is that correct?
    Mr. Roitz. I believe, Mr. Chairman, if you reference the 
past performance sections of the proposal, it does reference 
Blackwater contracts.
    Chairman Levin. All right. But this document--Paravant has 
many years of experience--is not accurate. Is that correct?
    Mr. Roitz. It could have been much better worded.
    Chairman Levin. Can your answer be much better worded right 
now? Your answer could be much more direct, frankly. It could 
not be true that Paravant had many years of experience if they 
did not come into existence until the same year. Is that not 
true?
    Mr. Roitz. That is true.
    Chairman Levin. We are looking for transparency here, and 
we had an effort to cover up who is really doing the 
contracting. It may have been at the request of Raytheon, and 
Raytheon will have to answer to that. There is clearly an 
effort to cover up that Blackwater was the real contractor 
here, and in terms of holding folks accountable, there is an 
effort made here to create an impression that some company 
named Paravant for years had been doing something which it had 
not been doing.
    You look at another reference in this contract. It says 
here that Paravant, there are two pages straight, ``We have 
over 2,000 personnel deployed overseas.'' Then the next page, 
``Many years of experience.''
    Now, you were working there as the contracting and 
compliance officer, did this trouble you at all that you were 
making statements that were not accurate in order to cover up 
the fact that it was a Blackwater operation here instead of 
something else? Were you troubled by that?
    Mr. Roitz. I am troubled today as I read it.
    Chairman Levin. Were you troubled then?
    Mr. Roitz. No, because I think my understanding was 
Raytheon specifically knew who exactly they were contracting 
with.
    Chairman Levin. Why they were asking for a different name. 
You knew why. They did not want the name Blackwater.
    Mr. Roitz. They did not want the name Blackwater, as I 
understood it.
    Chairman Levin. By the way, who was it at Raytheon who told 
you they did not want to deal with Blackwater?
    Mr. Roitz. We will have to get that for the committee [Tab 
37].
    Chairman Levin. You do not know.
    Mr. Roitz. I do not know.
    Chairman Levin. Was it your responsibility to screen the 
trainers which were hired?
    Mr. Roitz. No. That would have been what we term as the 
operational support unit, which Mr. McCracken ran prior to his 
taking over.
    Chairman Levin. All right. So that if the military record 
of Mr. Drotleff was not reviewed and you do not have that 
military record, that is something you were not involved in.
    Mr. Roitz. No. It was an error or it was unacceptable that 
we did not receive the DD-214s. There was a policy in place 
that they were to get the DD-214s.
    Chairman Levin. But it did not happen in that case?
    Mr. Roitz. It did not happen in that case.
    Chairman Levin. What about Mr. Kucharski? Are you familiar 
with that issue?
    Mr. Roitz. He was the one referenced----
    Chairman Levin. He was on the ``do not use'' list.
    Mr. Roitz. That policy is very clear within the company 
that if they are a ``do not use'' person, they are not to be 
used. Mr. McCracken, based on his testimony this morning, I am 
not surprised, but clearly he violated the intent of that 
policy.
    Chairman Levin. Are you familiar with a letter which came 
from General Formica which said that the Army investigation 
which occurred after the May event, there was none after the 
December event, and if there had been one, as there should have 
been, there maybe never would have been a May event. But in any 
event, General Formica said in his June 2009 letter that the 
Army's investigation ``has raised serious issues concerning an 
apparent lack of contractor oversight'' [Tab 1]. Are you 
familiar with that letter?
    Mr. Roitz. I am not familiar with that specific letter, I 
do not believe.
    Chairman Levin. Do you know a Jim Sierawski?
    Mr. Roitz. Sierawski?
    Chairman Levin. Sierawski.
    Mr. Roitz. Yes, sir.
    Chairman Levin. Senior Vice President of Blackwater.
    There were some talking points which he used in a May 11 
meeting shortly after the May event which said the following, 
that Paravant management in Afghanistan created an environment 
with ``no regard for policies, rules, or adherence to 
regulations in country'' [Tab 2]. Would you agree with that?
    Mr. Roitz. Based on my review in preparation for the 
hearing, I would agree.
    Chairman Levin. You would agree? All right.
    In terms of this independent contractor issue, which 
Senator McCaskill has raised, it is a very, very critical 
issue. Those of us who are lawyers would not blink an eyelash 
in saying that these are not independent contractors. There is 
no way that these folks are independent contractors. You can 
call them whatever you want and you did it, I think, to limit 
your own liability and for a number of other reasons. But there 
is no way that they can be called independent contractors when 
they have a continuing relationship or the workers work for 
long and fixed hours. They are under the supervision and 
control of the company. They have to comply with instructions, 
rules, and regulations. Just looking through what the criteria 
are for independent contractors, I do not think that these 
folks could be characterized as that. I understand there is an 
inquiry that is being made into that issue.
    When you filed a worker's compensation claim with the 
Department of Labor's Office of Worker's Compensation, 
Blackwater told the Department of Labor that the injury 
occurred, you are talking about the December 9, 2008, event 
during usual work. Do you remember that? Are you familiar with 
that? [Tab 31].
    Mr. Roitz. I am not familiar with that report. I am 
familiar with the incident.
    Chairman Levin. Let me quickly ask Dr. Blake some 
questions.
    By the way, you made reference to the independent 
contractor as a legacy issue. Is there a plan at Xe to end this 
practice or to review this practice, do you know?
    Mr. Roitz. We are reviewing it currently.
    Chairman Levin. Do you believe that Blackwater has an 
obligation to supervise its personnel operating in Afghanistan?
    Mr. Roitz. Is that my question, Mr. Chairman?
    Chairman Levin. Yes. I made a mistake. I said I was going 
to ask Dr. Blake, which I intend to do, but this is for you, 
Mr. Roitz.
    Mr. Roitz. Yes, I believe that there is a responsibility to 
supervise the personnel in Afghanistan.
    Chairman Levin. Now, Blackwater wrote Raytheon--this is Tab 
21--saying that if Raytheon believes that Paravant has an 
obligation to supervise all subcontractor personnel at all 
times, it is going to increase the cost. You are going to 
charge them for that.
    Mr. Roitz. There are really two components of that.
    Chairman Levin. Okay.
    Mr. Roitz. The first component is staffing. Was there 
adequate staffing with the proper management in place to----
    Chairman Levin. Under your contract, do you believe you had 
the obligation to supervise subcontractor personnel?
    Mr. Roitz. Correct. I think there was adequate staffing in 
place for, I believe, it is 72 personnel.
    Chairman Levin. Then you said that you are going to need 
more money if you are going to do that.
    Mr. Roitz. I believe that what this is referring to in that 
document is the alluding to Raytheon wanting personnel to 
supervise them 24/7 when they are not working under performance 
of the contract. You have the terms of the contract happening 
and then you have outside the scope of the contract. What we 
believed that they were asking for was outside the scope of the 
contract.
    Chairman Levin. That they do not have to supervise their 
personnel when they are not performing contract functions?
    Mr. Roitz. There is an expectation that they have general 
supervision of those personnel, but what we believe Raytheon 
was asking for was greater than that. We have policies----
    Chairman Levin. Did you clarify that? Did you ever clarify 
that with Raytheon? Did you ever get an answer back?
    Mr. Roitz. Our legal department was working with Raytheon's 
legal department on that, Mr. Chairman.
    Chairman Levin. This might be my final question. We will 
turn it back to Senator McCaskill.
    Xe does not withhold income tax from these contractors, 
does not pay Social Security for these so-called contractor 
employees, but we will call them personnel, and does not pay 
Medicare taxes, does not pay unemployment tax on payments that 
are made. So Uncle Sam is out all of that revenue, the 
withholding, the Social Security, the Medicare taxes. Is that 
correct?
    Mr. Roitz. I do not believe so.
    Chairman Levin. You believe it is not correct?
    Mr. Roitz. I do not believe so. I am not a lawyer, and I 
would have to have a little assistance from my legal staff. But 
we will issue them a 1099 which my understanding is----
    Chairman Levin. Do you withhold income tax?
    Mr. Roitz. No, we do not.
    Chairman Levin. Do you pay Social Security tax?
    Mr. Roitz. I do not believe so.
    Chairman Levin. Do you pay Medicare tax?
    Mr. Roitz. I do not believe so.
    Chairman Levin. Okay. That is what I was asking.
    Senator McCaskill.
    Senator McCaskill. I assume that the point you were trying 
to make, Mr. Roitz, is that it is their obligation to pay that 
based on their 1099.
    Mr. Roitz. Yes, Senator.
    Senator McCaskill. That is one of the reasons the IRS takes 
a hard look at independent contractors, and it is very hard in 
terms of resources to stay on top of how many of those folks 
actually pay all the money they are obligated to pay.
    Once again, you have American soldiers in uniform training 
the ANA and the ANP, and then you have Blackwater folks looking 
the same, doing the same job. Out of every paycheck that 
military person has, their pay is docked for the same kind of 
things that most of us have our pay docked for. The question is 
whether or not we have that same level of accountability.
    How many independent contractors did you have in 
Afghanistan working on these contracts?
    Mr. Roitz. On the Paravant contract? I believe it was 
approximately 70.
    Senator McCaskill. Seventy? So it was not an overwhelming 
number in terms of checking up on them.
    Mr. Roitz. No, ma'am. We had quite a significant role in 
the Afghan Border Patrol training, the Narcotics Interdiction 
Unit training in Afghanistan, as well as performing services 
for DOS, which you referenced earlier in your statement.
    Senator McCaskill. How many personnel do you have on the 
ground in Afghanistan right now through all the various named 
companies?
    Mr. Roitz. We would have to get back to the committee on 
that [Tab 37].
    Senator McCaskill. Ballpark. You have to know ballpark. Is 
it hundreds? Is it thousands?
    Mr. Roitz. It is in the hundreds, ma'am.
    Senator McCaskill. It is in the hundreds? Okay.
    Dr. Blake, we have been showing an awful lot of attention 
to Mr. Roitz. I am going to ask you some tough questions now.
    This is essentially with Raytheon. We now know from this 
hearing that Raytheon requested Blackwater change their name to 
cover the fact that they were really hiring Blackwater, which 
should be a problem, obviously, because Raytheon is a major 
defense contractor. That is very troubling that their company 
would do that and we have to sort that out. I want Raytheon to 
be able to defend themselves. But according to the testimony 
that we have received, the people at Blackwater said they 
changed their name and made representations in the contract 
about how long they have worked because Raytheon knew they were 
really Blackwater. This was just putting another name in the 
contract to pretend like they were Blackwater so they could say 
they had all this experience, they had trained all these 
people, and they had this really good vetting process because 
Raytheon knew that it was not really Paravant, because it was 
Blackwater.
    Here is my question to you. This was essentially a pass-
through contract with Raytheon. The only function Raytheon had, 
as it related to the work of Blackwater, that we have talked 
about in this hearing, was oversight. Is that correct?
    You need to put your microphone on, Dr. Blake.
    Dr. Blake. Excuse me. Raytheon served as the prime 
contractor. This was one TO of many, many TOs.
    Senator McCaskill. Right.
    Dr. Blake. The subcontractor on that team was Paravant. So 
the responsibility for subcontractor management, which was in 
the solicitation and the award, rested with Raytheon. They were 
responsible for managing the activities of the sub.
    Senator McCaskill. So as I say, as it relates to this part 
of their work, their only responsibility was oversight. I know 
they had a lot of other TOs under the $11 billion contract, but 
for this part of the contract, they did not put anybody in the 
field to do training. This was all about a subcontract that 
they had with Paravant at the time, that they now have with the 
other company I referenced earlier, MPRI.
    Dr. Blake. That is my understanding.
    Senator McCaskill. Knowing that their only job was 
oversight and knowing what occurred during this period of time, 
whether it is them getting guns they were not authorized to 
get, an accidental discharge that paralyzed somebody because of 
being shot in the head, people that have criminal records that 
have been discharged from the Army that obviously have huge 
problems in their background, or being indicted criminally for 
killing innocent citizens during this period of time. Raytheon 
got not only an award fee for the performance, they got an 
increase in their award fee. Is that not correct?
    Dr. Blake. The performance of Raytheon under the contract 
and the performance of Paravant was not included. This TO was 
not part of the award fee consideration.
    Senator McCaskill. So they did not get any award fee for 
this part.
    Dr. Blake. That is correct.
    Senator McCaskill. How is that delineated? How would we be 
able to track that?
    Dr. Blake. The award fee plans are put together in advance, 
and we decide on what particular activities that are of 
sufficient concern to us that we want to track or have 
improvements made. That is normally done on the firm fixed 
price core work that we do and select customer work. Normally 
if there is an award fee associated with it, the customer would 
contribute to that pool, the award fee pool. In this particular 
case, that did not.
    Senator McCaskill. That was confusing to me. I think this 
is important because in this committee hearing room we have 
gone through a lot of testimony about award fees. We had bad 
things happen in Iraq about award fees. There was really 
subperformance on many, many contracts, and these contracts all 
got award fees, which really are supposed to act like bonuses 
for good work. What we found out is that everybody just got 
them. It did not matter what kind of work they had done. They 
just got them.
    What I am trying to figure out now, clearly Raytheon failed 
in overseeing this contract. I think anybody I went up to and 
talked to at my grocery store, if I told them the story we have 
heard in this hearing, they would say Raytheon failed during 
that period of time in overseeing this contract.
    Did they suffer one penny because of that failure?
    Dr. Blake. The contract with Raytheon continued on. The 
work that Paravant was contracted to do with this particular TO 
was performed. The training was conducted for the ANA. There 
were no penalties, if that is the question that you are asking, 
associated with that.
    Senator McCaskill. Should there be? Should there be 
penalties for this kind of failure of oversight, that the 
subcontractor had not even bothered to vet the people?
    Dr. Blake. This is a question we will have to look into. 
That was not in the contract at the time. This issue was not 
envisioned.
    I would like to make one clarification on the earlier 
statement. The responsibility for the prime contractor to 
monitor what was going on with the subcontract also included 
all of the information associated with managing that, to ensure 
that all the rules and regulations were complied with, that 
they were properly vetted and properly supervised. I do not 
view it as a pass-through, as you described it.
    Senator McCaskill. Right. I guess that is my point. Either 
it is a pass-through and the fact that they failed in oversight 
is irrelevant, or they had responsibility for oversight and 
they failed because in either way there is a problem here. That 
is what I am getting at. The fact, Dr. Blake, if you just step 
back from it and look at it from a distance, they received an 
increase in their performance fee during this period of time. 
That dog don't hunt where I come from.
    Dr. Blake. As a clarification, the award fee again was not 
based on the work being down in southwest Asia.
    Senator McCaskill. So you did not take into account their 
failure on one part of the contract as you decided whether or 
not they should get award fees for the other parts of the 
contract?
    Dr. Blake. It was not built into the award fee plan.
    Senator McCaskill. Why would that be? Why would you not 
want to hold these guys accountable through the only mechanism 
we have, which is money? What would be the reasoning for that, 
do you know?
    Dr. Blake. No, I do not.
    Senator McCaskill. Does it make sense to you?
    Dr. Blake. The award fee plan is done in advance. We are 
looking backward into this activity that happened.
    Senator McCaskill. Let us look forward. Going forward, 
would it make sense to you that you would have a contractor 
fail in their oversight capacity which they were being paid to 
do, good money, serious money to oversee and they did not have 
anybody on the ground in Afghanistan. These guys went into the 
field, they had not even been vetted and they were getting 
weapons they were not even supposed to have their hands on, and 
they were accidentally discharging them and shooting people.
    What I am trying to get at here is, we are trying to fix 
something here. This is not just about beating up on 
Blackwater, although it probably feels like it to Mr. Roitz. 
This is about fixing things. What I need to hear from you is, 
we have to fix this. We cannot be giving bonuses to companies 
who have failed in this part of it. We did okay over here. We 
go ahead and give them a lot of money and they do not suffer 
anything for failing over here. You follow my train of thought 
here?
    Dr. Blake. I do and it is an issue that we should look at. 
We agree that they should not be rewarded for poor behavior. We 
do have a subcontracting performance plan in place with them, 
and that would be a subject of how we would do the ratings for 
the performance of Raytheon.
    Senator McCaskill. We have two kinds of organizations that 
are performing the same functions. One responds to money and 
the other responds to duty. If we are going to hold these 
contractors accountable, we better get busy with making sure it 
hurts when they do things like this and fail to do things like 
this, if we do not respond that there are consequences. Let me 
close with this because I think I have certainly had an 
opportunity to ask a lot of questions, and I have learned a 
lot. I think we can follow up with some of this with the 
subcommittee on contracting.
    It is not so simple, Mr. Roitz, as changing your name. If 
it could be so simple. There are a lot of people who have been 
through this building who made big mistakes who would have 
liked to just change their name and make it all better. The way 
you restore your reputation is not by changing your name. The 
way you restore your reputation is by changing the way you do 
business. This is a good example of while the name had changed, 
the underbelly of the beast had not significantly changed 
because you did not even do the basics of checking whether or 
not you had people who had no business over there in positions 
of responsibility.
    I think you are wasting a lot of money on lawyers changing 
names. I think you could invest that money in quality control 
and accountability and probably do much better for your company 
than just thinking you can do it by changing a name.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Mr. Roitz. Mr. Chairman?
    Chairman Levin. Yes.
    Mr. Roitz. Can I address that, please?
    Chairman Levin. Sure, if you can do it quickly.
    Mr. Roitz. I will do it quickly.
    The change to Xe, while it is a name change, Senator--I do 
not believe that is--that is true that we have changed our 
name. But I have seen the old company, and I discussed it both 
in my written testimony and my oral testimony. The company of 
2008 is not the company of today. There is much more structure 
in the compliance. There is a philosophy of compliance. An 
example of that is I stopped defense-related training on a 
major program in Afghanistan much to the angst of the customers 
because we identified we were out of compliance on an export 
control matter. That probably would not have happened in 2008, 
and that happened in 2009.
    Unfortunately, the new management that came in March 2009 
did not have enough time to do the top-to-bottom review before 
that May 5 incident, we truly regret that.
    Senator McCaskill. I appreciate that. As time goes on, I am 
just telling you nobody around here is going to be convinced by 
new names. So as time goes on, it is how you perform and 
whether or not these problems are cleared up and whether or not 
you are willing to call these people employees instead of 
independent contractors because there is no reason you call 
them that for any other reason than avoiding liability for 
their actions.
    Mr. Roitz. Thank you, Senator.
    Chairman Levin. The committee invited J.D. Stratton to 
testify today about his role in acquiring and distributing 
weapons to Blackwater personnel. He invoked the Fifth 
Amendment, which he had a right to do. Is Mr. Stratton still 
employed by your company?
    Mr. Roitz. I was informed he is. Yes, Mr. Chairman.
    Chairman Levin. Does that mean yes?
    Mr. Roitz. Yes. I understand he is.
    Chairman Levin. You were doing the same thing back a couple 
years ago as you are doing now?
    Mr. Roitz. No. My role has really changed.
    Chairman Levin. All right. But you were employed then and 
you are still employed by the same company. So you are one 
employee at least they did not change.
    Mr. Roitz. That is correct.
    Chairman Levin. Mr. Stratton is another employee they did 
not change.
    Now, a few months before, this goes to you, Dr. Blake, PEO 
STRI approved that Raytheon could subcontract with Paravant, 
and DOS evaluated Blackwater's performance in Iraq. Are you 
familiar with that evaluation?
    Dr. Blake. No, Senator, I am not.
    Chairman Levin. Now, the evaluation by DOS, which is again 
before your office approved this subcontractor Paravant, that 
DOS evaluation said that actions by Blackwater personnel during 
the late summer and fall of 2007 had led DOS--and these are 
DOS's words ``to lose confidence in Blackwater's credibility 
and management ability'' [Tab 29].
    Should that not have been taken into consideration by you, 
an Army contracting office, before you or your office approved 
this subcontract with Blackwater?
    Dr. Blake. I believe, as Mr. Ograyensek testified earlier, 
he was not aware that the firm that won the bid was a 
Blackwater-affiliated firm. I certainly was not either. I was 
not aware of this contract until after the shooting incident.
    Chairman Levin. All right. So here we have a situation 
where the change of the name is deceptive, and I think we all 
ought to understand what we are talking about here. It resulted 
in a DOS assessment about a firm not being brought to the 
attention of our contracting people because the name had 
changed.
    This is some very serious business we are talking about 
here. I do not now what exactly we can do except to put in 
every application, that goes in here for a proposal for a 
contract or asking for approval of a subcontractor, a question 
whether or not that subcontractor has changed its name or was 
operating under a different name.
    This is deception here. This gets into a very serious issue 
because people in our Government who have the responsibility of 
approving a subcontract or not were not informed that another 
agency of our Government said they have no longer any 
credibility. DOS says they have no credibility in Blackwater in 
2007. DOD approves a subcontract for Blackwater's new shell 
corporation Paravant in 2008. That is serious business.
    I just want to let you know that, Mr. Roitz, because then 
it is a misrepresentation to the Government in order to get a 
contract. It is not a technical issue. It is a very serious, 
substantive issue that needs to be addressed by DOD and it 
needs to be looked at by DOJ. We will refer that matter to DOJ, 
as well as ask DOD to take steps to make sure that that can 
never happen again.
    I want to go to your ratings issue. When you said this 
award fee was approved, it did not include this TO, is that 
what you said Dr. Blake?
    Dr. Blake. The award fee pool did not include that TO.
    Chairman Levin. But it has as a criteria here, it is a 
whole period. It is May 2008 to October 2008 for period 2, and 
then it is period 3, November 2008 to April 2009. So that 
includes the period of that December shooting. Where does it 
say what is excluded from here? Would a TO be included in here 
but not specifically identified, or it is just not included?
    Dr. Blake. Only selected tasks are included in that 
evaluation plan. You have a summary.
    Chairman Levin. Does it say that in here somewhere?
    Dr. Blake. In the development of the plan and the award fee 
pool, it would be, sir. I believe you are looking at a summary.
    Chairman Levin. Somewhere in there you could show us a 
document which would show that this particular TO was not 
included for consideration in that award fee.
    Dr. Blake. I would show you a document on what items were 
included in the determination.
    [The information referred to follows:]

     Dr. Blake did not respond in time for printing. When received, 
answer will be retained in committee files.

    Chairman Levin. What were, okay.
    My last question goes to Mr. Roitz.
    Mr. Roitz, you were the contracts compliance officer for 
Blackwater back in December 2008, which was the first shooting 
which we focused on here today. In an email chain on that day, 
you indicated that you had been briefed on the shooting. Is 
that correct?
    As the contracts compliance officer, did you direct any 
kind of investigation to determine whether or not firing AK-47s 
off the top of a moving vehicle had anything at all to do with 
training the ANA in the proper use of weapons? Did you take any 
steps?
    Mr. Roitz. Mr. Chairman, when I was briefed, I was briefed 
that it was not approved training. At that point, it was 
already decided that it was not approved and should not have 
happened.
    Chairman Levin. Did you direct any kind of investigation?
    Mr. Roitz. There was an incident report and I believe Mr. 
Gibson conducted some form of remedial action. I think there 
was a safety stand-down day. One person was fired. I am not 
sure of all the actions taken.
    Chairman Levin. You said it was approved training?
    Mr. Roitz. No. It was not approved training.
    Chairman Levin. It was not approved, nor was it routine.
    Mr. Roitz. No.
    Mr. Chairman, I do have one--my counsel has pointed out 
that I apparently misunderstood one of your earlier questions 
regarding General Petraeus. I misunderstood you to say that 
there was new guidance today which bars contractors from using 
Bunker 22 weapons. It is my understanding that Bunker 22 
weapons may be an appropriate source of weapons. That does not 
undercut, in the case of Paravant, they should not have weapons 
without authorization. I wanted to be sure I did not leave a 
misinterpretation.
    Chairman Levin. All right. Thank you for that 
clarification.
    Documents that are in this binder will be made part of the 
record. The correspondence with witnesses who advised us that 
they would take the Fifth Amendment will be made part of the 
record and, as I said before, the entire lengthy opening 
statement which I summarized here.
    We again thank our witnesses for being here. We will stand 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                inadequate vetting of paravant personnel
    1. Senator Levin. Mr. McCracken, Sebastian Kucharski was fired from 
Blackwater in September 2006 for his involvement in an alcohol-fueled 
fight with another Blackwater independent contractor and was placed on 
Blackwater's own ``Do Not Use'' list at that time. You told the 
committee that Blackwater's recruiting department presented him to you 
during in-processing for the Paravant contract. You stated that you 
were told that he had been fired from Blackwater for a ``personality 
thing.'' With whom did you discuss Mr. Kucharski at the time of his in-
processing?
    Mr. McCracken. The ``Do Not Use'' classification was very 
arbitrary, in my experience. I was told that Mr. Kucharski was a 
program ``Do Not Use,'' in other words he could not go back to that 
particular program, in this case the Blackwater Worldwide Personal 
Protective Service program. When I asked Blackwater about this, I was 
told that Mr. Kucharski was a ``Program Do Not Use'' based upon a 
personality conflict with another individual. I do not recall the name 
of the Blackwater individual, however.

    2. Senator Levin. Mr. McCracken, you testified to the committee 
that you did not have access to Mr. Kucharski's records, showing the 
reasons he was added to the ``Do Not Use'' list. Those records also 
show that on November 20, 2008, after Mr. Kucharski was hired by 
Paravant, his status on the ``Do Not Use'' list was changed by 
``asmith'' or Alexis Smith, the only other Paravant employee at the 
time.
    a. Were you aware that Ms. Smith changed Mr. Kucharski's status?
    Mr. McCracken. No, I do not recall being aware of that change.

    b. Senator Levin. What was the purpose of the change?
    Mr. McCracken. I do not recall being aware of the change.

    c. Senator Levin. Did you discuss changing Mr. Kucharski's status 
with Ms. Smith?
    Mr. McCracken. I do not recall discussing Mr. Kucharski's status 
with Ms. Smith.

    3. Senator Levin. Mr. Roitz, Blackwater's proposal for the Paravant 
contract describes a recruitment process to identify and vet 
candidates, whose key attributes are ``character, integrity, 
reliability, and professionalism.'' The proposal says that candidates 
will be selected by the Vice President of Contracts and others.
    a. Were you the Vice President of Contracts at that time?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz was Blackwater USA's Vice President of Contracts and 
Compliance at the time of the Paravant proposal. The reference 
``Compliance'' in the title was intended to reflect contract 
compliance.

    b. Did you participate in the selection of personnel for Paravant?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz has no recollection of participating in the ``Instructor 
Section Panel'' referenced in the Paravant proposal. The proposal was 
not incorporated into the Paravant subcontract.

    c. The proposal says that ``each instructor must have on file a 
copy of DD214 (a servicemember's military record) if that instructor 
has prior military experience.'' In your written testimony, you said 
that ``Apparently, Mr. McCracken did not always verify these statements 
by requiring submission of a Form DD214.'' If you were the Vice 
President of Contracts at the time, what steps, if any, did you take to 
ensure that the Form DD214 was considered as part of the recruitment 
and hiring process?
    Mr. Roitz. As a contractual matter, the Paravant subcontract did 
not require DD214s. However, the company's November 2008 recruiting 
policy included an express requirement to request a copy of a DD214 
from each selected candidate with military service. As the former head 
of Blackwater USA's Operational Support Unit, which recruits and vets 
candidates under that policy, Mr. McCracken would have had direct 
knowledge of this policy. As the original Program Manger of the 
Paravant program when candidates were selected, Mr. McCracken would 
also know that the requirement for DD214s applied to his program. The 
program is also responsible for ensuring that files contain DD214s (See 
Senate Armed Services Committee (SASC))-034029--retained in committee 
files.) (Mr. McCracken, in his role as the management official in 
charge of Paravant, instructed Paravant's Program Manager assistant to 
obtain DD214 before Mr. McCracken ``give[s] the go-ahead to place them 
in CRC'').

                     blackwater's past performance
    4. Senator Levin. Mr. Ograyensek, on July 1, 2008, just a few 
months before the Army approved Blackwater-Paravant to perform the 
Afghan National Army (ANA) training contract, the Department of State 
(DOS) reviewed Blackwater's performance in Iraq and concluded that they 
had lost ``confidence in [Blackwater's] credibility and management 
ability.''
    a. Are contractor performance evaluations produced by the DOS 
available to you?
    Mr. Ograyensek. Past performance evaluations produced by the DOS 
are not provided directly to the Department of Defense (DOD). The 
Contractor Performance Assessment Reporting System (CAPRS) is the 
system primarily used by DOD. Effective July 1, 2009, the Federal 
Acquisition Regulation (FAR) required agencies to post all contractor 
performance evaluations in the Federal-wide Past Performance 
Information Retrieval System contractor performance evaluations that 
comply with the current FAR requirement are available to the Program 
Executive Office for Simulation, Training, and Instrumentation (PEO 
STRI).

    b. In evaluating contract proposals do you consider performance 
evaluations conducted by other U.S. Government agencies?
    Mr. Ograyensek. PEO STRI contracting officers may consider past 
performance information from any source as long as the performance 
being evaluated is recent and relevant to the services being acquired.

                   companies operating as blackwater
    5. Senator Levin. Mr. Roitz, you testified that Raytheon requested 
that Blackwater perform the ANA training contract under a separate 
name.
    a. Who at Raytheon made the request that Blackwater operate under a 
separate name?
    b. To whom was that request made?
    c. Who at Raytheon and/or Blackwater participated in discussions 
about that issue?
    d. When did those discussion(s) occur?
    e. Who at Blackwater approved the decision to use the Paravant name 
in submitting its proposal for this government contract?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Please see Mr. Roitz's letter to Chairman Levin of March 10, 2010, 
addressing these issues [Tab 37.]

    6. Senator Levin. Mr. Roitz, of the following companies currently 
operating as subsidiaries of the Prince Group LLC or Xe Services LLC 
(formerly known as Blackwater Worldwide), please identify when 
Blackwater began conducting business under the name of each subsidiary 
and the date(s) on which any proposal was submitted for a government 
contract or subcontract under each name.
    a. Apex Management Solutions LLC (10/21/05)
    b. Aviation Worldwide Services LLC (11/16/00) and its subsidiaries 
(Air Quest Inc., (10/23/00), Presidential Airways Inc., (6/10/98), 
Guardian Flight Systems LLC (1/6/06) (now a subsidiary of X3), STI 
Aviation Inc.) (3/19/02)
    c. Backup Training LLC (8/9/07)
    d. Blackwater Proshop LLC (11/21/05) (6/2/06)
    e. BWT Services LLC (6/2/06)
    f. E & J Holdings LLC (1/1/97)
    g. E & J Leasing LLC (9/25/98)
    h. EP Aviation LLC (11/15/01)
    i. EP Management Services LLC (11/16/06)
    j. GSD Manufacturing LLC (10/16/00)
    k. Pelagian Maritime LLC (2/2/07)
    l. Raven Development Group LLC (9/3/04-cancelled 8/12/09)
    m. Samurus Co. LTD (10/12/06) and its subsidiaries Greystone LTD 
(5/13/04), Greystone SRL (9/3/07), Salamis Aviation LLC (8/27/04), Al-
Zulama Company) (5/2/06) \1\
---------------------------------------------------------------------------
    \1\ The dates are based on a translation of an Arabic document.
---------------------------------------------------------------------------
    n. Total Intelligence Solutions (11/28/06)
    o. Technical Defense, Inc. (11/29/00)
    p. Terrorism Research Center, Inc. (1/30/97)
    q. U.S. Training Center, Inc. (12/26/96) and its subsidiaries 
Blackwater West LLC (5/15/06), and Blackwater Security Consulting LLC) 
(1/22/02)
    r. XPG LLC (5/28/08)
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The dates of incorporation of the above entities are identified in 
the above parenthetical. The company previously produced in response to 
the chairman's June 18, 2009, letter request: (1) a chart (SASC-014705-
014711--retained in committee files) identifying all contracts and 
subcontract to perform private security functions in Afghanistan, 
including the period of performance; (2) copies of those contracts; and 
(3) copies of proposals for those contracts.

                responsibilities of blackwater's armorer
    7. Senator Levin. Mr. Roitz, you testified to the committee that 
Mr. Jerry D. Stratton, Jr. is still employed by Xe Services. Lawyers 
for Xe Services informed committee staff that as of July 2009, however, 
Mr. Stratton no longer had responsibilities as the company's armorer. 
However, in his February 19, 2010, written responses to the committee's 
questions, Chief Warrant Officer Gregory Sailer informed the committee 
that he was ``approached by Mr. Stratton on 16 February 2010 asking how 
[Mr. Stratton] could turn in weapons that he claimed belonged to 
Combined Security Transition Command-Afghanistan (CSTC-A).''
    a. What responsibilities did Mr. Stratton have since July 2009, 
including responsibilities relating to weapons?
    b. Why did Mr. Stratton attempt to contact Chief Warrant Officer 
Sailer on February 16, 2010?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Beginning in or around July 2009, Mr. Stratton was no longer 
responsible for the company's central weapons storage facility in 
Afghanistan. He was transferred to the Quality Control team for the 
Afghanistan Border Patrol (ABP) program and is now primarily 
responsible for the collection of biometric data for Afghan students. 
We have been unable to interview Mr. Stratton regarding whether he 
contacted Chief Warrant Officer Sailer on February 16, 2010. In 
declining to provide additional information to the company on this and 
other issues, Mr. Stratton has raised through his counsel concerns that 
his cooperation with the company investigation may be considered a 
waiver of any applicable privileges or rights. In order to address that 
concern and obtain the information that the committee has requested, 
the company on behalf of Mr. Stratton's counsel has asked committee 
staff to provide written assurance that information provided by 
individuals to company counsel would not be relied upon in any 
subsequent claim of waiver. No such assurances have been provided as of 
the date of this letter.

                        payment to mrs. drotleff
    8. Senator Levin. Mr. Roitz, after the May 5, 2009, shooting 
involving Blackwater/Paravant personnel, Justin Cannon and Christopher 
Drotleff, Blackwater acknowledged in a May 27, 2009, letter to Mr. 
Drotleff's wife that it had a ``legal obligation'' and was under direct 
orders from DOD not to take any action to facilitate Mr. Drotleff's 
departure from Afghanistan. In its May 27th letter to Mrs. Drotleff, 
the company advised her, however, that Mr. Drotleff could leave 
Afghanistan ``using his own resources.'' At that time, Blackwater also 
sent Mrs. Drotleff a check for $4,850. Mr. Drotleff left the country 
the next day. [Retained in committee files.]
    a. Why was that money sent?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The May 27, 2009, letter states the purpose of the payment: ``This 
payment to you was based on the company's recognition of your family's 
short-term needs and to recognize that your husband has shouldered more 
burden associated with this cooperation with the government's 
investigation tha[n] the other three individuals involved in the 
incident, two of which left the company's facility at night without any 
notice or assistance from the company and against its instructions.''
    The company terminated Mr. Drotleff and withheld all payments due 
him under his contract as a result of his breach of contract. The 
company's actions left Mrs. Drotleff and her children without any 
financial support. Mr. Drotleff repeatedly expressed concern that by 
agreeing to return to Afghanistan, he remained unable to earn any 
income and had no way to financially support his family, which 
increased his flight risk. As indicated in the May 27, 2009, letter, 
the payment, made payable only to Mrs. Drotleff, was strictly 
humanitarian-based to allow Mrs. Drotleff to support her children and 
the family's domestic financial obligations during extended 
deliberations among the U.S. Army, DOS, and the Afghan Ministries of 
Interior and Justice on whether to grant permission for Mr. Drotleff to 
leave Afghanistan. In making the payment, there was no intent for the 
funds paid to Mrs. Drotleff to be used for any other purpose.
    The funds were sent to Mrs. Drotleff on May 27, 2009, by overnight 
mail to arrive on May 28, 2009. Given the time zone differences, the 
company understands that Mr. Drotleff left the company's facility in 
Kabul on his own accord well before Mrs. Drotleff received the 
overnight package, with the May 27, 2009, letter and the check. The 
company does not know how Mr. Drotleff was able to depart the country.
    If the company wanted Mr. Drotleff to depart Afghanistan, it would 
never have escorted him back to Afghanistan to cooperate with the 
investigation. Mr. Drotleff was never reinterviewed by any U.S. or 
Afghan law enforcement personnel after returning to Afghanistan.

    b. Did the company advise DOD personnel of that payment at the 
time? If so, who did the company advise and when?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company did not advise DOD personnel of the payment and is not 
aware of any obligation to do so. The company was advising DOD and DOS 
of the company's concern over Mr. Drotleff's increasing despondency and 
restlessness while he waited for permission to depart Afghanistan.

                 paravant's performance on the contract
    9. Senator Levin. Dr. Blake, please advise the committee whether 
PEO STRI was aware of each of the following performance-related issues 
on the Raytheon-Paravant contract:
    a. In mid-April 2009, concerns were raised to CSTC-A and to newly 
arrived Raytheon country manager, Brian McCracken, about a shortage of 
Paravant personnel at a training site and whether the Paravant 
personnel were performing up to U.S. Army standards;
    Dr. Blake. My staff has advised me that CSTC-A CJ7 did not inform 
us of any personnel shortages. Raytheon Technical Services Company 
(RTSC) did not report any issues with their subcontractor performing to 
standard.

    b. On May 4, 2009, a Paravant Team Leader and an assistant Team 
Leader were thrown off the contract by the U.S. Army, after the Team 
Leader attempted to pull rank on an U.S. Army lieutenant. The newly 
appointed Paravant program manager, Tom Adams, reported of the entire 
Paravant team that they all are so average and the U.S. Army can't 
stand any of them;
    Dr. Blake. After inquiring throughout my organization, I have found 
no one in my organization who reports that they were aware of this 
incident. I found no indication that either the CSTC-A CJ7 or RTSC ever 
reported the incident to PEO STRI.

    c. On May 5, 2009, military personnel in Gardez reported concerns 
to Raytheon about the maturity level and experience level of some of 
the Paravant personnel;
    Dr. Blake. I received no reports of concerns regarding the maturity 
level or experience of Paravant personnel. My staff reports that no 
concerns regarding qualifications of Paravant personnel specifically at 
Gardez were identified from either CSTC-A CJ7 or RTSC. One of the 
Technical Oversight Representatives (TORs) from a unit of CSTC-A, Major 
Van Westen, in June 2009 reported that some Paravant employees were 
``young ex-marines'' and ``little experience.'' PEO STRI immediately 
addressed this concern and the issue was resolved. PEO STRI received no 
other report concerning qualifications of Paravant personnel from 
either CSTC-A CJ7 or RTSC. During this period, my staff had almost 
daily contact via telephone and email with CSTC-A CJ7 and RTSC, and the 
qualifications of Paravant employees was not raised as an issue.

    d. In May 2009, Paravant reported to Raytheon that they were having 
``a low qualification rate in almost every class;''
    Dr. Blake. It was not reported to me, and my staff indicates PEO 
STRI received no reports from RTSC regarding any problems or 
deficiencies in ANA qualifications. In contrast, RTSC reported to CSTC-
A (with Paravant present) during the April 2009 Program Management 
Review (PMR) that over 12,000 Afghanistan National Army (ANA) soldiers 
had been trained to date and that the ANA units had achieved passing 
rates of over 90 percent. The CSTC-A CJ7 never reported low 
qualification rates to the on-site PEO STRI Alternate Contracting 
Officer Representative (ACOR) or the PEO STRI management team.

    e. In mid-May 2009, concerns were raised to CSTC-A and to Raytheon 
country manager, Brian McCracken, about the effectiveness of the 
Paravant personnel and their ``capabilities to teach the ANA the proper 
methods and standards according to Army standards;''
    Dr. Blake. I was not personally aware of this and my staff reports 
receiving no information from either CSTC-A CJ7 or RTSC regarding a 
lack of effectiveness of Paravant personnel in contract performance.

    f. On June 15, 2009, Major Marco Van Westen reported that in the 
``last 8 months [Paravant] trainers were young ex-marines with little 
experience;''
    Dr. Blake. Yes, the PEO STRI on-site ACOR reported Major Van 
Westen's comments to the COR located in Orlando, FL. However, 
clarification of Major Van Westen's comments revealed that he was not 
commenting on the former-Marines' lack of experience with weapons 
training, but their lack of Army experience. The lack of personnel with 
Army experience was immediately corrected as noted in the same report 
of Major Van Westen's comments. Paravant assigned a former senior Army 
NCO as the team leader to provide the needed Army experience. Excerpt 
from report: ``The last week's significant changes have been made and 
now trainings are at standard.''

    g. In August 2009, because of export control violations, Paravant 
was forced to stop performance of their training of the ANA.
    Dr. Blake. Yes, on August 1, 2009, the PEO STRI on-site ACOR 
reported that Paravant stopped training due to concerns regarding 
export control violations. Paravant had been working under the 
assumption that Foreign Military Sales (FMS) cases do not require 
export licenses. However, since this effort was funded with Afghanistan 
Security Forces Funds (ASFF) appropriations it did require export 
licenses. Paravant was ordered to stop performance on the training of 
the ANA on August 1, 2009. Paravant remained on the stop work order 
until the license was received, which occurred on August 5, 2009. 
During August 1-5, 2009, trained ANA soldiers/cadre, supervised by U.S. 
Military personnel, conducted the training of ANA trainees. The CSTC-A 
CJ7 reported in an August 4, 2009, conference call that CSTC-A was 
satisfied with the interim solution and that the lack of an export 
control license did not result in any negative impact to training.
                                 ______
                                 
               Questions Submitted by Senator John McCain
            combined security transition command-afghanistan
    10. Senator McCain. Colonel Wakefield, based on your experience, 
can the CSTC-A train the ANA adequately and rapidly without relying on 
contractors?
    Despite repeated requests, Colonel Wakefield did not respond in 
time for printing. When received, answer will be retained in committee 
files.

                 paravant's performance on the contract
    11. Senator McCain. Mr. Walker and Mr. McCracken, did you receive 
any feedback from the military as to how well Paravant performed on the 
contract?
    Despite repeated requests, Mr. Walker did not respond in time for 
printing. When received, answer will be retained in committee files.
    Mr. McCracken. Yes.

    12. Senator McCain. Mr. Walker and Mr. McCracken, what kind of 
feedback did you get?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. I received frequent feedback that the military was 
pleased with Paravant's performance on the contract. While I cannot 
recall any specific comments, it was my understanding that the military 
was satisfied.

    13. Senator McCain. Mr. Walker and Mr. McCracken, how many ANA 
soldiers did Paravant train over the course of the contract and to what 
standard?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Over the course of the contract, Paravant trained 
approximately 38,600 ANA soldiers to be zeroed and qualified with their 
weapons.

    14. Senator McCain. Mr. Walker and Mr. McCracken, did the military 
ask you to expand the training program beyond the basic North Atlantic 
Treaty Organization (NATO) rifles?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes. The military requested that Paravant train the 
ANA soldiers in small infantry tactics, mortars, and artillery and to 
conduct noncommissioned officer training.

    15. Senator McCain. Mr. Walker and Mr. McCracken, did Paravant 
continue to train ANA soldiers even after the May 5, 2009, shooting 
incident, and if so, how many?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes. After the May 5, 2009, incident, as I 
understand it, Paravant trained approximately 21,800 ANA soldiers, 
which is over 50 percent of the soldiers trained by Paravant throughout 
the Warfighter Field Operations Customer Support (FOCUS) contract.

                     dangerous operating conditions
    16. Senator McCain. Mr. Walker and Mr. McCracken, before you went 
to Afghanistan on the Paravant contract, did you believe that the U.S. 
military would provide you force protection on the training ranges?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes.

    17. Senator McCain. Mr. Walker and Mr. McCracken, who did, in fact, 
provide force protection on the training ranges?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. On certain training ranges, Paravant had to provide 
its own force protection. For example, in January 2009, I witnessed 
Paravant providing its own force protection at the training center in 
Kandahar because there was no coalition military available to provide 
it for them. I was informed that this was a common occurrence.

    18. Senator McCain. Mr. Walker and Mr. McCracken, did you believe 
that you would be living and working on a U.S. military facility in 
Afghanistan?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes, I initially believed that the Paravant 
instructors would be living and working on U.S. military facilities in 
Afghanistan and that I would be living and working under the same 
conditions during my visits to Afghanistan in the fall of 2008 and 
winter of 2009.

    19. Senator McCain. Mr. Walker and Mr. McCracken, where did you, in 
fact, live and work?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. The Paravant instructors lived on U.S. military 
bases under U.S. protection, but worked on Afghan bases, often with 
little or no protection by U.S. military. From April 2009 to the 
present, I have lived off base in an apartment near Camp Eggers in 
Kabul, Afghanistan. I work at Camp Eggers and travel throughout the 
region to oversee the Warfighter FOCUS contract.

    20. Senator McCain. Mr. Walker and Mr. McCracken, were the training 
ranges enclosed by a perimeter fence?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. At least two training ranges (in Kandahar and 
Darulaman) were not enclosed by a perimeter fence. In addition, the 
training rages at Kabul Military Training Center (KMTC) and Black Horse 
could also be accessed freely by Afghans.

    21. Senator McCain. Mr. Walker and Mr. McCracken, were those ranges 
on the base or outside the base fence?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. The training ranges in Kandahar and Darulaman were 
outside the base fence. The other training ranges were inside the base 
fence; however, local Afghans were able to travel through the training 
areas.

    22. Senator McCain. Mr. Walker and Mr. McCracken, could 
unauthorized personnel easily access those training ranges?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes. Unauthorized personnel could easily access the 
Kandahar and Darulaman training ranges. I witnessed unauthorized 
personnel do so repeatedly during my visits to Kandahar and Darulaman. 
At KMTC and Black Horse, Afghans frequently drove through the training 
ranges. In fact, an Afghan civilian was killed by an improvised 
explosive device inside the Black Horse training range.

    23. Senator McCain. Mr. Walker and Mr. McCracken, how many Afghan 
trainees would be on the range in a given instruction group?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. An average of approximately 100 Afghan trainees 
would be on the range in a given instruction group, and in some 
instances approximately 800 Afghan trainees per group.

    24. Senator McCain. Mr. Walker and Mr. McCracken, how many American 
or coalition instructors were there for the number of Afghan trainees?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. There were approximately 8 to 12 Paravant 
instructors for each group of Afghan trainees.

    25. Senator McCain. Mr. Walker and Mr. McCracken, did the trainees 
have access to weapons and live ammunition?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes. The trainees had access to both weapons and 
live ammunition. Paravant attempted to control access to live 
ammunition by only distributing magazines containing 12 rounds to the 
Afghan trainees immediately prior to a shooting exercise.

    26. Senator McCain. Mr. Walker and Mr. McCracken, are you familiar 
with any incident where an Afghan trainee threatened or attacked an 
American or coalition instructor?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes, I am aware of a number of such incidents. In 
Gardeyz, in January 2009, an Afghan trainee pointed his weapon at a 
coalition instructor. At KMTC, in May 2009, an Afghan trainee pointed 
his weapon at a U.S. soldier during the course of a training session. 
Moreover, in March 2009, in Mazar-I-Sharif, three U.S. soldiers were 
shot while they were jogging past ANA soldiers. Similarly, in November 
2009, five British instructors were shot inside a checkpoint by an ANA 
soldier, who thereafter fled.

    27. Senator McCain. Mr. Walker and Mr. McCracken, did all Paravant 
employees go through some kind of Continental United States (CONUS) 
Replacement Center (CRC) training?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes. All Paravant employees received Central Command 
(CENTCOM)-certified CRC training at Blackwater's facility in Moyock, 
NC.

    28. Senator McCain. Mr. Walker and Mr. McCracken, did all Paravant 
employees receive training on the Rules of Engagement (ROE) for 
military personnel, the Rules on the Use of Force (RUF) for contractor 
personnel, and the difference between the two?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Yes, the ROE for military personnel and the RUF for 
contractor personnel are part of the CRC curriculum at Moyock, NC.

    29. Senator McCain. Mr. Walker and Mr. McCracken, was this training 
on RUF adequate?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. Blackwater's training on RUF has been certified by 
CENTCOM and is, in my view, adequate. Although I did not personally 
attend the RUF training session for each Paravant instructor, it is my 
understanding that the instructors received RUF training in accordance 
with the curriculum standards.

            paravant personnel qualifications and standards
    30. Senator McCain. Mr. McCracken, at the hearing, you mentioned 
that roughly 24 independent contractors who had previously worked for 
Paravant on the NATO Weapons Training contract had transitioned to MPRI 
to continue the same work. Do you or anyone at Raytheon know whether 
any of these independent contractors had previously separated from the 
military with a discharge that was not characterized as an honorable 
discharge (i.e. whether any of these independent contractors had 
received a general, other-than-honorable, bad conduct, or dishonorable 
discharge)? If so, how many and what kind of a discharge did that 
person receive?
    Mr. McCracken. I am not personally aware of any former Paravant 
independent contractors (who thereafter transitioned to MPRI) who 
separated from the military with a less than honorable discharge.

    31. Senator McCain. Mr. McCracken, do you or anyone at Raytheon 
know whether any of these independent contractors had previously been 
convicted at a court-martial during any period of prior military 
service? If so, how many?
    Mr. McCracken. Not to my knowledge.

    32. Senator McCain. Mr. McCracken, what was that person convicted 
for and what type of court-martial was it (i.e. Summary, Special, or 
General)?
    Mr. McCracken. N/A.

    33. Senator McCain. Mr. McCracken, do you or anyone at Raytheon 
know whether any of these independent contractors had previously been 
convicted at State or Federal civilian criminal trial? If so, how many? 
What was that person convicted for? In what type of court (State or 
Federal)?
    Mr. McCracken. During the course of my work at Raytheon, I learned 
that an MPRI instructor (who had transitioned from Paravant) had been 
convicted of driving under the influence in the State of Ohio at some 
time after the conclusion of his military service but before his 
Paravant employment commenced.

    34. Senator McCain. Mr. McCracken, do you or anyone at Raytheon 
know whether any of these independent contractors had previously 
received any form of non-judicial punishment (e.g. an Article 15 in the 
Army) during any period of prior military service? If so, how many? For 
what offense(s) was that person punished for?
    Mr. McCracken. I am not aware of any such nonjudicial punishment.

    35. Senator McCain. Mr. McCracken, if any former Paravant IC had a 
poor disciplinary record--to include conviction at a court-martial, 
conviction at a State or Federal civilian criminal trial, or record of 
non-judicial punishment--why did MPRI continue to allow that person to 
work on the NATO Weapons Training contract?
    Mr. McCracken. My understanding is that MPRI continued the 
employment because the individual has been doing very good work. I have 
verified this myself as recently as last week.

    36. Senator McCain. Mr. McCracken, did you or anyone at Raytheon 
have any input into MPRI's decision?
    Mr. McCracken. I did not have such input.

    37. Senator McCain. Mr. McCracken, generally speaking, how have 
these 24 or so former Paravant independent contractors performed for 
MPRI?
    Mr. McCracken. As I understand it, all of the former Paravant 
independent contractors have performed very well for MPRI.

    38. Senator McCain. Mr. McCracken, have there been any discipline 
problems from them?
    Mr. McCracken. Not to my knowledge.

    39. Senator McCain. Mr. McCracken, have any of them been fired by 
MPRI, and, if so, for what reason?
    Mr. McCracken. None has been fired to my knowledge.

    40. Senator McCain. Mr. McCracken, are these former Paravant 
independent contractors also working as independent contractors for 
MPRI or are they MPRI employees?
    Mr. McCracken. As I understand it, they are MPRI employees, not 
independent contractors.

    41. Senator McCain. Mr. McCracken, did you or anyone at Raytheon 
have any input as to whether they would be hired by MPRI as employees 
or independent contractors?
    Mr. McCracken. I did not have input on that issue.

    42. Senator McCain. Mr. McCracken, what lessons learned from your 
experience with Paravant have you incorporated into your oversight of 
MPRI's performance on the NATO Weapons Training contract?
    Mr. McCracken. I have incorporated a variety of new oversight 
methods as a result of my experience with Paravant. For example, all of 
the MPRI instructors have been disarmed and I have made it clear to all 
personnel that they are permitted to refuse to do any act that they 
regard as too dangerous. I make regular and unannounced safety 
inspections at the training sites and another Raytheon employee (a 
retired U.S. Army first sergeant) will soon be joining me in this 
effort. I solicit input directly from the Afghans on the quality of the 
training. Finally, at every training location, the U.S. military has 
designated and trained oversight representatives who are required to 
provide periodic reports to the government.

    43. Senator McCain. Mr. McCracken, what lessons learned from your 
experience with Paravant have you incorporated into your oversight of 
other contractors you oversee in Afghanistan?
    Mr. McCracken. All of the contractors that I oversee in Afghanistan 
are supervised to the same standards.

                   oversight of the paravant contract
    44. Senator McCain. Dr. Blake, what are your responsibilities at 
PEO STRI?
    Dr. Blake. I am the Program Executive Officer and Head of 
Contracting Activity, U.S. Army PEO STRI. My organization is 
responsible for providing material solutions and services in modeling, 
simulation, training, and test/instrumentation to support our soldiers. 
The PEO STRI executes approximately $3 billion in programs annually. I 
am responsible for managing more than 1,230 military, government, 
civilian, and service support contractors. I am also responsible for 
FMS programs that support more than 40 countries.
    As the PEO, I am the responsible management official to provide 
overall direction and guidance regarding the programs in my portfolio. 
I directly control assigned program managers. On an annual basis, the 
PEO STRI portfolio contains several hundred individual programs and 
their associated acquisition actions.
    As the Humanitarian and Civic Assistance (HCA), I am responsible to 
ensure all purchases subject to provisions of the FAR, Defense Federal 
Acquisition Regulation, and Army Federal Acquisition Regulation are 
made in accordance with the appropriate regulations and policies.
    As part of this HCA responsibility, I have appointed a Principal 
Assistant Responsible for Contracting (PARC). The PARC serves as the 
senior staff official for contracting functions and reports directly to 
the HCA. The PARC has direct access to the personnel and other 
essential resources necessary to perform all the functions assigned by 
me. As part of his responsibilities, he has established an organization 
that is composed of five contracting divisions and multiple supporting 
activities within the PARC office that include a Policy Team, Systems 
Team, and Cost and Pricing Teams. The Acquisition Center executes 
several thousand contract actions annually.

    45. Senator McCain. Dr. Blake, did you have any direct supervisory 
or oversight responsibilities for the Paravant contract? If not, who in 
your organization does?
    Dr. Blake. I did not have direct supervisory or oversight 
responsibilities of the Paravant contract.
    Within PEO STRI, government management and oversight is assigned to 
the Program Manager, Field Operations (PM Field OPS). PM Field OPS 
manages approximately $1 billion of training services worldwide. Within 
PM Field OPS, a team of individuals, lead by the Project Director for 
Southwest Asia, executed the programmatic management and oversight of 
this specific portion of the Warfighter FOCUS contract. This team 
worked in close coordination with the requiring activity, CSTC-A. The 
program management team had almost daily communications via telephone 
and email with CSTC-A, conducted regular PMRs, and conducted numerous 
site visits to observe various portions of the contract performance.
    The Warfighter FOCUS prime contractor is RTSC. They subcontracted 
the CSTC-A ANA Weapons Training effort to Paravant. The day-to-day 
oversight and direct supervision of this subcontracted effort is the 
responsibility of RTSC. RTSC was responsible for the performance of 
their subcontractor, Paravant. The Warfighter FOCUS Contracting Officer 
and the Contracting Officers Representative (COR) provide oversight 
from our offices in Orlando, FL. The ACORs and the TORs provide 
contractual oversight in-country. The COR monitors and reports 
contractor performance and makes recommendations to the Contracting 
Officer (PCO) on issues concerning scope of work. The COR also 
maintains standard processes, ensures the structure of the contract can 
support traceability of funds, appoints and oversees TORs, and ensures 
timely payment of invoices for work accomplished. The ACOR serves as a 
liaison between the user and PM Field OPS, monitors and documents the 
performance of the contractor on-site, ensures the contractor is 
compliant with the reporting process, ensures the TORs are submitting 
the Monthly Contractor Observation Reports, and notifies and recommends 
any corrective actions required to the COR.

    46. Senator McCain. Dr. Blake, did you ever visit the sites in 
Afghanistan where Paravant employees were performing on the contract? 
If not you, did someone else visit from your organization? Who? How 
often?
    Dr. Blake. No, I did not personally visit the specific training 
sites of the ANA. However, multiple members of my organization did 
visit Afghanistan from the start of this contract. The following 
personnel visited Afghanistan:

          Mr. Dave Christensen, Assistant Program Manager - September 
        2008. Conducted Site Survey.
          Ms. Linda Comfort, Life Cycle Project Director - September 
        2008 and February/March 2009. Conducted Site Survey and PMR. 
        Ms. Comfort had scheduled another on-site PMR in January 2009, 
        but due to the threat conditions in theater at that time CSTC-A 
        CJ7 requested we conduct that PMR via teleconference.
          LTC Rick Stroyan, On-site ACOR - May 2009 through November 
        2009.
          Mr. Russ McBride, Program Manager Field Operations - June 
        2009. Met with CSTC-A Deputy Commanding General, observed RTSC 
        and Paravant executing the mission, and followed-up with 
        assigned PEO STRI ACOR on contractor oversight and reporting.

    47. Senator McCain. Dr. Blake, I understand now that PEO STRI has 
one ACOR in Afghanistan on a permanent basis. Given what happened with 
Paravant, do you believe that this is adequate?
    Dr. Blake. PEO STRI has 2 ACORs and 12 TORs in Afghanistan 
providing oversight of contract performance under the Warfighter FOCUS 
contract. Both ACORs are in Afghanistan, one at Bagram Air Force Base 
and one in Kabul. The TORs are designated in conjunction with CSTC-A 
and other using units, and are military officers assigned to units 
throughout Afghanistan. This structure of contract oversight is 
consistent with generally used practices, and compliant with directives 
from CSTC-A established in July 2009. PEO STRI continuously assesses 
proper contract oversight as any work is added to a contract. In light 
of the performance of Paravant under this contract and in compliance 
with a recent directive of the Vice Chief of Staff of the Army, I 
directed my PARC to review the direct oversight of contract performance 
in theater.

    48. Senator McCain. Dr. Blake, does PEO STRI need a more forward 
deployed presence to effectively oversee these contracts?
    Dr. Blake. PEO STRI has 2 ACORs and 12 TORs in Afghanistan 
providing oversight of contract performance under the Warfighter FOCUS 
contract. The TORs are designated in conjunction with CSTC-A and are 
military officers assigned to units throughout Afghanistan. Proper 
contract oversight is always considered as any new work is added to a 
contract. In light of the performance of Paravant under this contract 
and in compliance with a recent directive of the Vice Chief of Staff of 
the Army, I directed my PARC to review the direct oversight of contract 
performance in theater.

    49. Senator McCain. Dr. Blake, did you have any direct interaction 
with anyone from Raytheon Technical Services Corporation (i.e., the 
prime contractor), Paravant (i.e., the subcontractor), or CSTC-A (i.e., 
the customer)?
    Dr. Blake. I had high-level quarterly discussions with executives 
from RTSC on the execution of the Warfighter FOCUS contract. To the 
best of my knowledge, I had no direct interactions with Paravant or 
CSTC-A regarding this task order.

    50. Senator McCain. Dr. Blake, where did you or your organization 
get information on what the Paravant contractors were doing and how 
they were performing?
    Dr. Blake. In executing our responsibility for contract oversight, 
my staff required regular PMRs to be conducted by the prime contractor, 
Raytheon Technical Service Company (RTSC). As the requiring activity, 
representatives from the CSTC-A CJ7 participated in these reviews. RTSC 
was required to provide reviews on their performance, including that of 
their subcontractors. My staff communicated almost daily via conference 
calls and email traffic in addition to the PMRs. After the arrival of 
the PEO STRI ACOR, he had almost daily interactions with the CSTC-A CJ7 
TORs. Contractor observation reports were submitted on a monthly basis. 
The ACOR made routine contract oversight visits and met with site 
personnel to assess training effectiveness and contractor performance.

    51. Senator McCain. Dr. Blake, how good of a job did Paravant 
instructors do on training up the Afghan soldiers?
    Dr. Blake. This particular work effort provided basic weapons 
training to ANA soldiers and trained them as trainers for other ANA 
soldiers. My staff received feedback from the CSTC-A CJ7 on a number of 
occasions that indicated that the trainers were outstanding, flexible, 
and delivered a quality service. RTSC consistently reported in PMRs 
that Paravant's efforts were achieving over a 90 percent qualification 
rate for the ANA soldiers. CSTC-A CJ7 officials were in attendance at 
these PMRs.

    52. Senator McCain. Dr. Blake, did you receive any complaints or 
praise about the Paravant instructors' performance?
    Dr. Blake. My staff reports that feedback received in regular 
communication and PMRs, concerning the Paravant instructors' 
performance was generally positive. The only comment received that 
could be considered a complaint was a comment by Major Van Westen, 
CSTC-A, indicating a general lack of Army experience of the Paravant 
instructors. This concern was addressed immediately by adding an 
instructor with extensive Army experience.

    53. Senator McCain. Dr. Blake, what was the required manning under 
the Paravant contract and was that manning level ever achieved and 
sustained?
    Dr. Blake. The initial CSTC-A requirement was to establish 6 teams 
of 12 personnel each. This staffing requirement was not achieved. 
However, no training days or events were missed due to the shortage of 
personnel as reported to PEO STRI by CSTC-A.

    54. Senator McCain. Dr. Blake, did the failure to reach the 
required manning level under the Paravant contract affect performance 
on the contract?
    Dr. Blake. My staff has advised me that CSTC-A CJ7 never reported 
any impact to the contract performance as a result of personnel 
shortages.

    55. Senator McCain. Dr. Blake, were you aware that Paravant 
employees had raised concerns about their security on the training 
ranges in Afghanistan and were these concerns ever adequately 
addressed?
    Dr. Blake. Although no concerns were reported to me, my staff was 
made aware of the security concerns raised by Paravant employees. Upon 
receiving reports of the security concerns, PEO STRI requested weapons 
authorizations from CSTC-A to address employee security. Eventually, 
the weapons authorization request was not approved. At no time did PEO 
STRI provide any weapons authorization to RTSC or Paravant. The 
Statement of Work required that the contractor employees would work and 
live under the coalition forces protection umbrella and suitable work 
areas were to be provided by CSTC-A. CSTC-A CJ7 never reported that the 
command could not meet the security needs of the contract employees.

                       december shooting incident
    56. Senator McCain. Dr. Blake, I understand that there was an 
accidental discharge incident in December 2009 where one Paravant 
instructor accidentally shot another Paravant instructor on a training 
range in Afghanistan. Were you or someone in your organization notified 
of this incident at the time?
    Dr. Blake. I believe you are referring to an accidental shooting 
that occurred in December 2008. The incident was not reported to me at 
that time, but RTSC did report the incident via email to two PEO STRI 
Contracting Officers, Mr. Steve Ograyensek and Ms. Frances Purser.

    57. Senator McCain. Dr. Blake, who provided notification to PEO 
STRI, how, and when?
    Dr. Blake. Ms. Rhoda J. Schanick, RTSC, provided the notification 
by email on December 9 and 10, 2008.

    58. Senator McCain. Dr. Blake, what did your organization do at the 
time you received that notification?
    Dr. Blake. The two PEO STRI employees who received the email 
notification took no timely action. Mr. Ograyensek testified that he 
was on temporary duty on another assignment when that email 
notification came in and that upon his return he failed to open this 
particular email because of the volume of email in his inbox. Mr. 
Ograyensek reported that he had approximately 300 emails in his inbox 
upon his return, this email was not marked as urgent, and the subject 
did not raise a level of attention. Ms. Purser reports that she does 
not recall receiving or acting upon the email. Corrective action has 
been taken to ensure timely action on future incident reports.

    59. Dr. Blake, since the Paravant contractors did not have U.S. 
Central Command (CENTCOM) authorization to carry the weapons involved 
in the accidental discharge, did someone from PEO STRI investigate?
    Dr. Blake. No. Although RTSC reported the shooting via email to the 
two PEO STRI Contracting Officers, both individuals report not reading 
that email and therefore no action was taken. We received no further 
report about the accidental shooting until the SASC staffers visited 
PEO STRI in October 2009.
    However, on December 3, 2008, in response to a query from RTSC, PEO 
STRI reiterated to RTSC that they had no authorization for Paravant 
employees to carry weapons. Between December 2008 and January 2009, PEO 
STRI communicated with CSTC-A to confirm that the combatant commander, 
in accordance with theater policy, had not approved weapons 
authorizations. As a result of this communication, on January 7, 2009, 
PEO STRI formally informed RTSC that weapons authorization was not 
forthcoming, and no Letters of Authorization (LOAs) would reflect 
weapons authorized.

          oversight of the paravant contract by blackwater/xe
    60. Senator McCain. Mr. Roitz, what were or are your 
responsibilities at Blackwater/Xe Services?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Since March 2009, Mr. Roitz has served as Executive Vice President 
and Chief Sales Officer of Xe Services LLC. In that capacity, he is the 
executive with overall responsibility for preparing contract bids and 
proposals, negotiating contracts, and ensuring compliance with contract 
terms for Xe Services and its subsidiaries with the exception of Xe's 
aviation entities under Aviation Worldwide Services LLC, including 
Presidential Airways, Inc., which maintains its own contracts 
department with a reporting chain to the President of Presidential 
Airways, Inc. Starting in December 2008, the Vice President, Export 
Control has reported to Mr. Roitz. Also currently reporting to Mr. 
Roitz are the following departments or functions: Contracts, Sales 
(Commercial), Firearms Compliance, Small Business Liaison Officer, and 
Capture (Government Sales).
    Prior to his current position and starting in September 2004, Mr. 
Roitz served as Vice President for Contracts and Compliance of 
Blackwater Worldwide (which was renamed Xe Services LLC in January 
2009). Mr. Roitz's responsibilities were the same as described above 
relating to contracts, bids/proposals, and contract compliance. From 
approximately October 2008 to March 2009, Mr. Roitz effectively acted 
as a temporary Chief Operating Officer due to that position being open 
until it was filled by Mrs. Danielle Esposito in March 2009.

    61. Senator McCain. Mr. Roitz, did you have any direct supervisory 
or oversight responsibilities for the Paravant contract? If not, who in 
your organization does?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Paravant LLC is a separate legal entity and a wholly owned 
subsidiary of Xe Services LLC. Starting in the fall of 2008, Brian 
McCracken began using the title Vice President of Paravant LLC. The 
company's personnel records indicate that he was made the Director of 
Paravant in December 2008. Mr. McCracken left Paravant for Raytheon in 
March 2009. While in charge of Paravant, Mr. McCracken reported to Jeff 
Gibson, Vice President, International Training and Operations, 
Blackwater Worldwide, who in turn reported to Mr. Roitz.
    When Mr. McCracken left for Raytheon he was replaced by John 
LaDelfa for a period of approximately 2 weeks after which Mr. LaDelfa 
was promoted to Vice President of Training and Operations, U.S. 
Training Center, Inc., as part of management reorganization by Xe's new 
leadership. Under the reorganization, Hugh Middleton became the 
Director of Paravant and reported to Mr. LaDelfa, who in turn reported 
to Mr. James Sierawski, Senior Vice President of Training and 
Operations/General Manager, U.S. Training Center, Inc.
    Mr. Gibson left the company in March 2009 after Xe's new leadership 
arrived. As part of the new leadership's reorganization, Mr. Gibson's 
responsibilities were transferred to Mr. Sierawski.
    As a limited liability company, there is a ``manager'' of Paravant. 
The individuals serving in the role of managers and the relevant dates 
are listed below.

------------------------------------------------------------------------
             Name                   Title                 Dates
------------------------------------------------------------------------
Gary Jackson.................  Manager........          5/28/08-9/30/08
Bill Mathews.................  Manager........          5/28/08-9/30/08
Brian McCracken..............  Manager........           10/1/08-3/8/09
John LaDelfa.................  Manager........           3/9/09-4/12/09
Hugh Middleton...............  Manager........          4/13/09-Present
------------------------------------------------------------------------

    Mr. Middleton continues to be the Manager of Paravant, although 
Paravant is no longer in active operation. The Paravant subcontract 
with Raytheon was not renewed by Raytheon, consequently no one has had 
responsibility for that program since performance ended in September 
2009.

    62. Senator McCain. Mr. Roitz, did you ever visit the sites in 
Afghanistan where Paravant independent contractors were performing on 
the contract? If not you, did someone else visit from your 
organization? Who? How often?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    While Mr. Roitz has traveled to Afghanistan to review company 
operations there, he did not visit during performance of the Paravant 
subcontract with Raytheon. Several executives of Paravant and 
Blackwater/Xe Services traveled to Afghanistan in relation to the 
Paravant subcontract.
    Based on outside counsel's review of Paravant travel records, from 
October 2008 to March 2009, Brian McCracken traveled to Afghanistan 
four times between October and March 2008, typically staying there for 
10-14 days per visit.
    Hugh Middleton, who became the Director of Paravant shortly after 
Mr. McCracken departed for Raytheon, traveled to Afghanistan to make 
leadership changes among the in-country program management from April 
27 through May 5, 2009. Mr. Middleton was accompanied by John LaDelfa, 
the Vice President of Training and Operations for U.S. Training Center, 
Inc.
    Additionally, Blackwater/Xe Services senior management routinely 
traveled to Afghanistan to review performance of the company's 
contracts there, including the Paravant subcontract with Raytheon. This 
includes trips by Mr. Yorio in late May 2009 and early August 2009, and 
by Mrs. Esposito in June 2009.

    63. Senator McCain. Mr. Roitz, did other Blackwater employees or 
independent contractors conducting training in Afghanistan receive 
CENTCOM approval to carry weapons for their own protection?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company understands that CENTCOM approval for DOD contractors 
and subcontractors to carry weapons typically does not identify a 
particular use for such weapons, rather possession of weapons is either 
authorized or unauthorized for an individual. Employees and independent 
contractors of Blackwater/Xe Services and its affiliates have been 
authorized to carry weapons by CENTCOM at various times in furtherance 
of various U.S. Government contracts. In addition, authorization of 
weapons possession by employees and independent contractors performing 
non-DOD contracts is subject to a different authorization process, in 
which CENTCOM may or may not be involved. The company previously 
provided the committee with charts identifying the relevant affiliate's 
personnel and the source of their authorization to possess a weapon 
(SASC-015971-15973, SASC-015590-15596, SASC-015991-16002) in response 
to the chairman's June 18, 2009, letter request [retained in committee 
files].

    64. Senator McCain. Mr. Roitz, why didn't Blackwater seek approval 
for the Paravant independent contractors to carry weapons from the 
beginning?
    Mr. Roitz. The company understands that, consistent with documents 
submitted to the committee, Brian McCracken, as the management official 
in charge of Paravant, requested authorization for Paravant personnel 
to possess weapons from the earliest days of performance of the 
subcontract (i.e., before independent contractors were deployed to 
Afghanistan on or about November 3, 2009) and that officials of 
Raytheon (the prime contractor) and CSTC-A (the U.S. military customer) 
were supportive of those requests. See e.g., SASC-032765 (``I have 
attached three documents that our parent company had to have signed by 
the Army in order to carry weapons legally in Afghanistan in support of 
the CNPTO contract. If your command and the KO agree that we should be 
able to carry weapons, these documents may allow you to avoid having to 
reinvent the wheel.'' Email from Brian McCracken (Paravant) to Bill 
Rebarick (Raytheon), Lt. Col. Pat Chiak (CSTC-A), John Walker 
(Paravant), and Col. Bradley Wakefield (CSTC-A), dated October 16, 
2008; SASC-032766 (Mr. Chiak responds to Mr. McCracken). ``Brian, do I 
need to take these enclosures and put in our letter head with the 
appropriate information and send them back to you? I am not really 
clear on the process for this.'' To which Mr. McCracken replies, ``Yes, 
please do. I will then give them to the KO for Raytheon and get him to 
sign off on letting our guys carry weapons while they are in 
country.'') In addition, Colonel Wakefield testified at the February 
24, 2010 hearing, ``And so when Mr. McCracken in what I seem to 
remember as November 2008 requested permission to arm, I personally 
believe that was a reasonable request and conveyed to him that we 
should process through to get approval.'' [Retained in committee 
files.]
    Furthermore, Colonel Wakefield's testimony at the February 24, 
2010, hearing appears to acknowledge that the October 2008 efforts to 
obtain authority for Paravant instructors to wear side arms occurred 
prior to the instructors being armed:

          Senator Ben Nelson. Colonel, were you satisfied at the time, 
        or are you satisfied now that the determination to provide 
        weapons and the control of weapons and the use of weapons were 
        adequately discussed and agreed upon at the time? Or has that 
        happened subsequently if not at that time?
          Colonel Wakefield. Sir, if I may, the process that we were 
        going through prior to my departure in January 2009 was to 
        propose allowing the Paravant contractors to wear side arms 
        while conducting----
          Senator Ben Nelson. But this was after the fact, while they 
        were already doing it?
          Colonel Wakefield. No, sir, this was prior.

    65. Senator McCain. Mr. Roitz, once the Paravant contractors got to 
Afghanistan, did they raise concerns to you or someone in Blackwater 
about their security?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz does not recall hearing such concerns expressed by 
Paravant personnel. This concern would have been more likely to be 
raised through the operational chain than the contracting chain. As 
indicated in the response to question 64 above, Brian McCracken 
(Paravant), Bill Rebarick (Raytheon), Lt. Col. Pat Cihak (CSTC-A), John 
Walker (Paravant), and Col. Bradley Wakefield (CSTC-A), were working to 
obtain formal authority for the Paravant instructors to possess 
weapons. Seeking such authority would not be necessary unless those 
involved recognized that weapons were needed for personal protection. 
Again, Colonel Wakefield testified at the February 24, 2010, hearing, 
``And so when Mr. McCracken in what I seem to remember as November 2008 
requested permission to arm, I personally believe that was a reasonable 
request and conveyed to him that we should process through to get 
approval.''

    66. Senator McCain. Mr. Roitz, did you or someone at Blackwater 
ever request that CSTC-A or other U.S. military organizations provide 
force protection for the Paravant contractors until the weapons 
authorization issue could be resolved?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz does not recall hearing such a request. Brian McCracken 
and personnel at CSTC-A may be in the best position to answer this 
question.

    67. Senator McCain. Mr. Roitz, did you or someone at Blackwater 
ever consider stopping performance on the Paravant contract until the 
weapons authorization issue could be resolved?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As Mr. Roitz stated in his testimony, he became aware that Paravant 
Independent Contractors possessed weapons without proper authorization 
after the May 5, 2009, incident. At that time, Xe Services new 
leadership had already ordered the disarming of all Paravant personnel. 
After the instructors were disarmed, the new Paravant In-Country 
Manager held a meeting with the Paravant Team Leaders who were verbally 
instructed to stop work and refuse to perform if they had any safety 
concern.

    68. Senator McCain. Mr. Roitz, were you aware that these Paravant 
independent contractors had procured weapons for themselves from the 
Afghan National Police (ANP) depot called 22 Bunkers?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As Mr. Roitz stated during the February 24, 2010, SASC hearing, he 
first became aware of the term Bunker 22 during an export control 
compliance-related inventory of all defense-related articles held by 
the company and its affiliates overseas, which took place in April or 
May 2009. Mr. Roitz became specifically aware that Paravant Independent 
Contractors had weapons from Bunker 22 after the May 5, 2009, shooting 
incident in Kabul.

    69. Senator McCain. Mr. Roitz, do you consider drawing weapons in 
this fashion to be an acceptable way for your company to do business?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As Mr. Roitz stated in his written testimony, it is his 
understanding that there was nothing inherently wrong at the time with 
Xe Services or other contractors receiving weapons from Bunker 22 with 
the knowledge and, indeed, assistance of U.S. military mentors at 
Bunker 22 for use in furtherance of U.S. Government contracts. However, 
the manner in which Bunker 22 weapons were provided to the company 
lacked appropriate controls and oversight, as Mr. Roitz discussed in 
his testimony, and today Xe Services would act differently.

    70. Senator McCain. Mr. Roitz, where are the weapons drawn from 
Bunker 22 now?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As set forth in detail by the company's February 20, 2010, response 
to the committee, all of the weapons that have been identified as being 
obtained from Bunker 22 have either been turned in or demilitarized in 
coordination with the Afghan Government and/or CSTC-A.
    However, as also described by the February 20 response [Tab 15], it 
isn't clear where the 53 AMD-65s and 32 9MM Smith & Wesson pistols 
currently possessed by the company, and on the company's Afghan Private 
Security License, originated. The company understands from former 
employees that sometime between 2006 and 2008 CSTC-A issued AMDs and 
Smith & Wessons to the company for use by Narcotics Interdiction Unit 
(NIU) students and that in 2006 CSTC-A directed the company to pick up 
the same types from Bunker 22 for distribution to students at ABP sites 
for training. Again, based on discussions with former employees, it 
does not appear the company ever received any paperwork associated with 
these transactions. Also, it is unclear whether the company retained 
any of these weapons after the students' training was complete or, if 
so, how many.
    The company is in the process of shipping replacement weapons from 
the United States for the remaining weapons obtained in Afghanistan. 
Once these arrive in-country, the company will coordinate the turn-in 
with CSTC-A.

    71. Senator McCain. Mr. Roitz, how many total Paravant employees or 
independent contractors served on the NATO weapons contract from the 
time the task order was awarded until the time Raytheon replaced 
Paravant as the subcontractor?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company previously produced to the committee a chart that 
provides the number of Paravant employees and independent contractors 
by month (SASC-032748-032748) [retained in committee files].

    72. Senator McCain. Mr. Roitz, of this total number of Paravant 
employees and independent contractors, how many of those Paravant 
personnel (other than Justin Cannon and Chris Drotleff) had been 
convicted, prior to their employment by Paravant, at a criminal trial 
in either a State court, Federal civilian court, or a military court-
martial?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company's records indicate no other criminal convictions except 
for two individuals both with driving while intoxicated convictions and 
one with a reckless driving to endanger conviction.

    73. Senator McCain. Mr. Roitz, had any Paravant employees or 
independent contractors received a discharge from the military for any 
prior period of service that was not an honorable discharge?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Of the DD214s in the company's possession, all were honorably 
discharged with the exception of one individual that received a 
``General Under Honorable Conditions'' (SASC-032693) discharge and 
three DD214 forms (for two sergeants and one corporal) that do not 
contain a standard Box 24 identifying the ``Character of Service'' 
(SASC-032686-87, SASC-032693, and SASC-032713) [retained in committee 
files]. However, the decorations, medals, et cetera, listed the DD214 
for the last three individuals do not suggest anything less than an 
honorable discharge.

    74. Senator McCain. Mr. Roitz, did any Paravant employees or 
independent contractors have a record of receiving some sort of non-
judicial punishment (e.g. an Army Article 15) from the military for any 
prior period of service?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company does not have this information and understands that 
nonjudicial punishment is generally not reported on a DD214.

    75. Senator McCain. Mr. Roitz, other than Sebastian Kucharski, how 
many Paravant employees or independent contractors had previously been 
on Blackwater's ``Do Not Use'' list?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company is not aware of any.

                      other xe services contracts
    76. Senator McCain. Mr. Roitz, how many contracts does Xe Services 
or its subsidiaries currently have to train the ANP and ANA and how 
much are these contracts worth?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As requested in the chairman's June 18, 2009, letter request, the 
company provided the committee with a chart of its contracts and 
subcontracts to perform private security functions in Afghanistan that 
identifies the monetary value of those contracts (SASC-014705-014711) 
[retained in committee files]. The contracts and subcontracts for 
training can be identified in the column titled ``Brief Description of 
Services/Scope.''

    77. Senator McCain. Mr. Roitz, have you received feedback from the 
customers on these other contracts as to how well your employees have 
trained the Afghans and if so, what has that feedback been?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company is not aware of any past performance evaluation in the 
CPARS in connection with any training contract in Afghanistan.
    However, the company, then called Blackwater Worldwide, received a 
``2006 Star Partner Award'' from Lockheed Martin in connection with its 
NIU support contract. The award letter, sent by Judith Burk, Vice 
President, Indefinite Delivery/Indefinite Quantity Solutions, Lockheed 
Martin Systems Management, to Fred Roitz states in part:

          ``Our customer, Robert Vierkant, CIV, OSD-Policy, in an email 
        to Doug Ochsenknecht and Melissa Lederer of the DOD Counter-
        Narcoterrorism Technology Program Office expresses his overall 
        satisfaction of Blackwaters' [sic] performance. `They have done 
        and are doing a great job in country. Please contact your 
        contracting officer and have him express our appreciation to 
        Blackwater for the hard work and the continuity they bring to 
        the table. One of the most important aspects that the 
        Blackwater support provides is the experienced personnel on the 
        NIU support contract and the longevity they provide in country. 
        Many of the Blackwater personnel have remained working with the 
        NIU for a long period of time, building confidence and trust 
        with the NIU. It is the continuity that Blackwater trainers 
        bring to the table.'
          In closing, I wish to extend my own personal appreciation, as 
        well as that of the entire Lockheed Martin Systems Management 
        team on a superb `job well done.' We commend Blackwater on its 
        stellar history of providing experienced personnel and customer 
        satisfaction, and we look forward to a long and successful 
        partnership.''

    78. Senator McCain. Mr. Roitz, have you had any similar problems on 
these other contracts?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company is unsure of the committee's intended meaning of 
``similar problems.'' In response to Request No. 4 in the chairman's 
June 18, 2009, letter request, the company produced to the committee 
incident reports prepared under its contracts or subcontracts to 
perform private security functions in Afghanistan [retained in 
committee files].

    79. Senator McCain. Mr. Roitz, what change have you made to these 
other contracts to ensure that nothing else like this Paravant example 
happens again?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz's written testimony contains significant details on 
changes to Xe's business practices. In general, since Joe Yorio joined 
the company in March 2009 as Xe Services' President and CEO, the new 
management team has made numerous changes in response to problems 
identified during his top-to-bottom review of all company contracts and 
programs, including the Paravant program. Further details on these 
efforts are contained in Mr. Roitz's written testimony.

               lessons learned from the paravant contract
    80. Senator McCain. Mr. Roitz, just prior to the May 5th shooting 
incident, Paravant lost many of its key on-site managers. The program 
manager, the deputy program manager, and several senior team leaders 
either quit or were fired. Do you believe this absence of key leaders 
on the ground contributed to a breakdown in discipline and loss of 
control?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As part of the top-to-bottom review conducted by Xe's new 
management, which started in March 2009 and continued through the 
spring, a number of in-country Paravant leaders were removed from their 
positions of responsibility shortly before the May 5 incident. The 
incident regrettably occurred because four off-duty independent 
contractors consciously chose to violate four key company policies: 
they drank alcohol in contravention of the strict no alcohol policy; 
they left the forward operating base late at night and without 
authorization; they used a company vehicle for an unofficial purpose; 
and they carried weapons off-duty and away from the training range. 
Rather than an absence of leadership, the removal of the Paravant in-
country managers demonstrates new management's efforts to assert 
leadership.

    81. Senator McCain. Mr. Roitz, how would you avoid creating such a 
situation in the future?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    At the time of the May 5, 2009, incident, Xe Services' new 
management was acting aggressively to review all company contracts and 
programs, including Paravant, in an effort to identify and address any 
performance issues. As Mr. Roitz stated in his written testimony, he 
and his colleagues at Xe Services regret that the efforts of the new 
management team to address and correct these issues at Paravant had not 
been fully completed prior to the tragic loss of life and injury to 
Afghan civilians on May 5, 2009.

    82. Senator McCain. Mr. Roitz, are you planning to review the 
company's policies on the ``Do Not Use'' list?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As Mr. Roitz indicated in his responses to questions during the 
hearing, the company has a written ``Do Not Use'' policy (SASC-023889-
23892) [retained in committee files]. To clarify, however, the company 
does not maintain a ``Do Not Use'' list. Instead, a ``Do Not Use'' or 
``DNU'' designation may be added to an individual's computerized 
personnel record in the company's personnel database. The personnel 
database contains other relevant information, including the 
individual's name, employment history, personal identifying 
information, medical information, and other information.
    As described in Mr. Roitz's written testimony, the company has made 
changes to the human resources function to ensure that policies 
relating to a ``Do Not Use'' designation are followed.

    83. Senator McCain. Mr. Roitz, what changes do you plan to make to 
the criteria for nominating, maintaining, and moving names to that 
list?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    As part of the new management's ongoing review, revision, and 
updating of written policies, the company is in the process of 
establishing new implementing procedures for its ``Do Not Use'' policy. 
As part of that process, the company is reviewing the criteria for 
nominating and maintaining individual's ``Do Not Use'' status.

    84. Senator McCain. Mr. Roitz, do you plan to make that list more 
accurate, up-to-date, and available for Xe Services' future personnel 
screening efforts?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Xe Services is committed to providing the highest quality service. 
As described in Mr. Roitz's written testimony, the company has made 
changes to the human resources function to ensure that policies 
relating to a ``Do Not Use'' designation are followed.

    85. Senator McCain. Mr. Roitz, at the hearing, you mentioned that 
you are reviewing whether to continue the practice of hiring new 
personnel as independent contractors as opposed to full employees. When 
do you expect to complete that review and would you be willing to share 
the results of that review with the committee?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The classification of personnel as independent contractors is 
currently the subject of an administrative appeal at the Internal 
Revenue Service (IRS). The company hopes to complete its evaluation 
regarding its classification of independent contractors after the IRS 
issues its determination. The company notes that the U.S. Government 
uses independent contractors in a variety of circumstances and for 
legitimate reasons. See e.g., Creel v. United States, No. 07-60703, 
2010 WL 685615 (5th Cir. March 1, 2010) (reversing the lower court's 
finding that a doctor performing surgery at a Veterans Administration 
Medical Center was an employee of the Federal Government at the time of 
the alleged negligence, finding the doctor was an independent 
contractor of the VA, and remanding with instructions to grant the 
Government's motion to dismiss the U.S. Government from a tort action 
brought pursuant to the Federal Tort Claims Act).

    86. Senator McCain. Mr. Roitz, at the hearing, you mentioned that 
Xe Services does business with DOD and other government agencies 
through a number of subsidiary corporations. Going forward, will those 
subsidiary corporations make it clear, in writing, on future proposals 
for DOD contracts that the subsidiary corporation is owned by Xe 
Services?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    The company agrees that future proposals will more clearly identify 
when enterprise-wide resources, knowledge, or experience are being 
imputed to an affiliate. However, it is not unusual or improper for 
subsidiaries to submit proposals in its name alone or for a corporate 
parent to submit a proposal and not refer to one or more legally 
separate, operating subsidiaries that will be performing work under the 
general corporate umbrella.
    The Paravant proposal contained information that identified 
Paravant's affiliation with Blackwater. Colonel Wakefield testified at 
the February 24, 2010, hearing that, notwithstanding redaction of the 
offeror's names, he believed that it was a Blackwater offer in 
connection with his expert review of the subcontract proposal. In 
addition, government contracting personnel have other resources, such 
as the Central Contractor Registration database, which requires any 
subsidiary to identify its parent organization in its Online 
Representations and Certification Application. Paravant LLC complied 
with this requirement.

    87. Senator McCain. Mr. Roitz, what other changes to the company's 
business practices have you made in light of Xe's experience with 
Paravant?
    Xe Services. Mr. Roitz did not respond to the committee's questions 
for the record, but Xe Services LLC submitted responses on his behalf.
    Mr. Roitz's written testimony contains significant details on 
changes to Xe's business practices. In general, Xe Services' President 
and CEO, Joe Yorio, and his new management team have made numerous 
changes since Mr. Yorio joined the company in March 2009 in response to 
problems identified during his top-to-bottom review of all company 
contracts and programs, including the Paravant program. Further details 
on these efforts are contained in Mr. Roitz's written testimony.

    88. Senator McCain. Dr. Blake, what changes to the PEO STRI's 
business practices have you made in light of your experience with 
Paravant?
    Dr. Blake. We have taken four actions in light of this experience.
    First, I directed changes to my internal review and approval 
processes to require program manager or deputy program manager approval 
prior to contracting for services to be provided within an operational 
theater. This raises both the visibility and approval level of this 
type of contracting service.
    Second, I directed the PARC to review the structure and location of 
government oversight of contract services provided in operational 
theaters. Although all oversight to date has been compliant with all 
known requirements, I directed that the review look more closely to 
determine if a greater oversight structure is warranted.
    Third, upon being informed of the lack of timely action on the 
report of the accidental shooting, I immediately directed 
implementation of new reporting requirements for accidents and serious 
incidents. I also directed implementation of procedures to track the 
resolution of these incidents to completion. These reporting and 
follow-up directives are in place now, and I have directed that the 
process be documented in organizational Standard Operating Procedures.
    Lastly, we modified the Warfighter FOCUS contract to require 
notification of any accident or serious incident within 24 hours. The 
contractor is required to notify local authorities (such as unit 
leadership) and the contract management team.\2\ The contractor must 
also establish a record in their Management Information System within 
72 hours of the incident. In instances involving severe injury or loss 
of life, the contractor shall provide a telephonic notification to at 
least one of the recipients identified above ensuring a positive 
contact is made along with a written notification.
---------------------------------------------------------------------------
    \2\ Procuring Contracting Officers identified in the contract, the 
Program Manager, Deputy Program Manager, and Contracting Officer 
Representative

    89. Senator McCain. Mr. Walker, Mr. McCracken, and Colonel 
Wakefield, since we will have to rely on contractors to accomplish our 
mission in Afghanistan for the foreseeable future, what can the 
military do to better employ and manage contract trainers on the 
ground?
    Mr. Walker did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. McCracken. The improvements the military put into place 
following the May 5, 2009, incident have been very effective, in my 
view. Raytheon and all of its subcontractors, including MPRI, have 
passed every government inspection in Afghanistan, and we are working 
cooperatively with PEO-STRI and the U.S. military.
    Colonel Wakefield did not respond in time for printing. When 
received, answer will be retained in committee files.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                       warfighter focus contract
    90. Senator Collins. Mr. McCracken, Raytheon won the large 
Warfighter FOCUS contract, worth approximately $11.5 billion over 10 
years, based partly on its Warrior Training Alliance which consists of 
several training companies, of which Paravant was one. Raytheon held a 
competition for a $20 million task order that Paravant won, and thus, 
Paravant became an official subcontractor of Raytheon. This Alliance 
was designed, according to Raytheon's web site, `` . . . to ensure 
training continuity and provide a smooth contract transition.'' If this 
Alliance was comprised of qualified potential subcontractors and, 
according to today's testimony, Paravant was demonstrating a series of 
failures prior to the May 2009 shooting, why didn't Raytheon terminate 
its subcontract with Paravant and chose another member of its Alliance?
    Mr. McCracken. Prior to the May 5, 2009, incident, I understood 
that Paravant was performing well and that the Army was satisfied with 
its performance. Following the May 5, 2009, incident, as I understand 
it, Raytheon decided not to renew Paravant's contract and entered into 
discussions regarding a smooth transition to MPRI. In the intervening 
time period, Raytheon disarmed Paravant instructors and had full-time, 
on-the-ground oversight. During this period, I made regular and 
unannounced site visits at each of the training locations to ensure 
that Paravant was adhering to all applicable rules. Following the May 
5, 2009, incident, Paravant trained more Afghan soldiers than ever 
before and did so without incident.

               electronic subcontracting reporting system
    91. Senator Collins. Mr. Ograyensek, the Electronic Subcontracting 
Reporting System (eSRS) is the system for prime contractors to report 
accomplishments towards subcontracting goals required by their 
contract. It collects information down to multiple levels of 
subcontracting and captures both contract level and commercial plans. 
If eSRS had been available and populated by Raytheon, would you have 
been able to discern that Paravant was largely a front for Blackwater/
Xe?
    Mr. Ograyensek. No, the eSRS system tracks subcontracting goals and 
achievements against those goals expressed as a percentage of total 
subcontracted Small Business, Woman Owned Business, and other 
socioeconomic groups (e.g., a goal of ``x percent'' Small Business 
versus the actual percentage achieved). eSRS does not provide the names 
of the subcontractors.
    [Tabs 1 through 38 follow:]




                                 TAB 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 5
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 6
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 7
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 8
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 9
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 10
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 11
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 12
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 13

    [Information retained in committee files.]

                                 TAB 14
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 15
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 16
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 17

    [Information retained in committee files.]

                                 TAB 18
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 19
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 20
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 21
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 22
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 23
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 24
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 25
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 26
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 27
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 28

    [Information retained in committee files.]

                                 TAB 29
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 30
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 31
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 32

    [Information retained in committee files.]

                                 TAB 33
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 TAB 34
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 TAB 35
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 36
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 37
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 TAB 38
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 1:22 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
